Semiannual   Report General
Office of inspector            _,_
U.S. Department of Labor
U.S. Department of Labor
Office of Inspector General

April 1 - September 30, 1989
You've Got Our Number
          Call




           To Report

        Fraud, Waste'
              or
           Abuse.
202-357-q 1227/800-424-5409
Semiannual
Office       Report General
       of Inspector
U.S. Department of Labor
U.S. Department of Labor
Elizabeth Dole, Secretary

Office of Inspector General
Raymond Maria, Acting Inspector General

April 1 - September 30, 1989
Office of Inspector
Semiannual   Report General
U.S. Department of Labor
U.S. Department of Labor
Elizabeth Dole, Secretary

Office of Inspector General
Raymond Maria, Acting Inspector General

April 1 - September 30, 1989
              THE INSPECTOR            GENERAL'S        MESSAGE



This semiannual period marks the most critical moment in the history of the
Office of Inspector General. The March 1989 Department of Justice opinion
that limits the criminal investigative scope of the Inspectors General will
prevent many of these offices from achieving the goals which the Congress
envisioned when it enacted the Inspector General Act of 1978. Within the
Department of Labor, the opinion thwarts the Inspector General's efforts to
address a flawed enforcement strategy.

The Department of Labor's overall enforcement strategy continues to place an
inordinate reliance upon civil and administrative remedies at the expense of
criminal enforcement.       It is naive to think that this strategy will provide an
effective deterrent to abuse, particularly in the areas of worker health and safety,
employee benefit plans, and employee wage and hour standards. Those most
affected by corruption in these areas generally are not the employees of
"Fortune 500" companies, but workers from the lower end of the socio-economic
scale -- those who most need the protection that government can afford them.
It is this group that would benefit directly from an enforcement strategy in which
flagrant abuses are addressed with vigorous criminal investigations and reme-
dies commensurate with the offenses.

In recent months I have testified twice before congressional oversight commit-
tees on the compelling need to conduct criminal investigations in those areas
that affect the economic well-being and health of the American worker. Further
delay in resolving the Inspectors General's investigative jurisdiction is not in the
public interest.   The Congress should act promptly to assert its intentions
regarding this issue.

In this report I also have focused attention on deficiencies in the Job Training
Partnership Act and the Department of Labor's financial management system,
as well as the continuing need to ensure that the audit process becomes a useful
tool in the enforcement of laws designed to protect the nation's pension and
welfare plans.

Sincerely,




Acting Inspector   General
                        SIGNIFICANT CONCERNS
                      OF THE INSPECTOR GENERAL

                             In the preceding Semiannual Report, the Inspector General
ERISA                        stated his significant concerns about the inadequacy of the pro-
                             tections provided to pension and welfare plans by the Employee
                             Retirement Income Security Act of 1974 (ERISA) and the De-
                             partment of Labor's implementation of its responsibilities under
                             that Act.


Usefulness    of             The prior report explored the usefulness of the independent
                             public accountant's (IPA's) report within the context of ERISA
IPA Reports                  enforcement. Subsequent audit work confirmed that these re-
                             ports are of questionable value in monitoring benefit plan com-
                             pliance with applicable civil and criminal provisions; that many
                             IPA audits omit from audit review plan assets held in trust by a
                             government regulated industry such as a bank or a savings and
                             loan institution; and that these limited scope audit reviews do not
                             adequately test plan assets.

                             The prior report drew a parallel between vulnerabilities that
Are There     Similarities
                             could result from inadequate audits and the General Accounting
with the Savings &           Office (GAO) criticisms of the public accounting profession for
Loan Crisis?                 its failure to identify and report on significant problems in the
                             savings and loan (S&L) industry. Our claim of similarities in the
                             ERISA problems we cited and the problems GAO associated
                             with the S&L crisis drew a spate of criticism. GAO's study of the
                             S&L crisis, as well as our further review of IPA work for ERISA
                             covered plans, confirms that the similarities are indeed there.
                             These vulnerabilities do not reveal a pension system currently in
                             crisis; but they do demonstrate it to be at risk. These similarities
                             are significant and troubling and they should continue to be the
                             focus of considerable concern by the Congress and the Depart-
                             ment of Labor.

                             The OIG recommends the following.
Legislative
Recommendations              1. The Congress should eliminate the option of the limited scope
                             IPA audit.

                             2. The Congress should encourage the Department to expand the
                             IPA role in ERISA enforcement byrequiring specific compliance
                             testing with ERISA and by requiring the reporting of any findings,
                             as well as ERSIA violations, directly to the Department.
                                The March 1989 Department of Justice (DO J) opinion continues
INVESTIGATIVE
                                to have a negative impact upon OIG's criminal investigative
AUTHORITY                       authority. The OIG's Office of Investigations (OI) can no longer
                                address certain criminal violations which jeopardize the eco-
                                nomic well-being and health and safety of the American worker.

                                OI initially suspended activity on approximately 1,200 criminal
Negative        Impact   of
                                cases to determine the effect of the DOJ opinion. The OIG made
Investigative       Authority   this decision despite its sharp disagreement with Justice's legal
Limitation                      analysis due to the potential personal liability for OIG agents.
                                The disposition of these matters following our case-by-case analy-
                                sis is discussed in the Office of Investigations section of this
                                report.


Congressional                   The OIG recommends that the Congress should clarify the inves-
Clarification       is Needed   tigative authority of the Office of Inspector General.




                                After seven years of the Job Training Partnership Act of 1982
JTPA                            (JTPA) and $18.5 billion in program expenditures, no one knows
                                whether the return on investment has been productive or whether
                                the program standards established to measure program useful-
                                ness have been effective.


Problems        in the Job      Increasingly, the results of our audit and investigative work
                                demonstrate many potentially abusive situations.       The OIG
Training  Partnership           continues to urge solutions which will enhance program target-
Act Program                     ing; eliminate the regulatory provision which has diverted JTPA
                                resources from its basic training mission; and foster stronger
                                procurement,   recordkeeping, reporting, and monitoring prac-
                                tices. The OIG has testified before the Congress in support of
                                amendments to JTPA which will increase program accountability
                                and maximize the return on investment of Federal funds.

                                The JTPA system's overreliance on fixed unit price, perform-
                                ance-based contracts remains our most urgent concern. Many of
                                our recommendations   focus on the regulations which allow costs
                                under such contracts to be charged entirely to the training cost
                                category.  This means that some expenditures which would




                                            2
                           normally be charged to administration and participant support
                           are reported instead as training costs. Because of this reporting
No One Knows        How    anomaly, no one -- not the Department of Labor, not the Con-
                           gress, and not the taxpayer -- really knows whether the statutory
Much is Being      Spent   provisionrequiringatleast70percentofJTPATitleII-Afundsbe
on Training                spent on training is being met.

                           In addition, weak JTPA procurement practices have allowed
                           unnecessary and unreasonable costs to be negotiated under these
                           contracts. Contractors have also been free to set prices without
                           regard to actual training costs. A basic precept of JTPA contracts
                           is that contractors assume some financial risk -- but many of the
                           contracts are so loosely structured that contractors are able to
                           fully recoup expenses and earn profits, even with less than full
                           performance.


Audit   Results   Point    Increasingly, the results of OIG's audit and investigative efforts
                           are disclosing potentially abusive and fraudulent practices by
to Abusive    and          JTPA grantees and contractors.
Fraudulent     Practices


                           The OIG recommends       the following.


Legislative                1. The Congress should require that ETA's interpretation of 20
                           CFR 629.38(e)(2) on requirements for writing acceptable fixed
Recommendations            unit price, performance-based contracts, issued in the Federal
                           Register March 14, 1989, be made a formal DOL regulation.

                           2. The Congress should require minimum procurement stan-
                           dards that assure that procurements are competitive, avoid con-
                           flicts of interest, and be accompanied by an analysis of the
                           reasonableness of costs and prices submitted; and that recipients,
                           subrecipients and service providers maintain adequate records.

                           3. The Congress should require that the only exceptions to the use
                           of the cost categories provided in Section 108 are (a) for costs for
                           commercially available training packages available at off-the-
                           shelf prices; and (b) for tuition charges for training and education
                           institutions and colleges where such charges do not exceed the
                           charges made available to the general public.




                                        3
DEPARTMENTAL              For the past two years, the OIG has reported significant deficien-
                          cies in the Department's financial management systems. The
MANAGEMENT                OIG commends the efforts made by the Assistant Secretary for
                          Administration and Management (OASAM) and the Employ-
                          ment and Training Administration (ETA) to address these prob-
                          lems.


Department   Relies Too   However, concerns remain in two areas. The Department, in its
                          effort to ameliorate its accounting and internal control deficien-
Heavily on Untried        cies, may be precipitously dependent on its new, untried general
Ledger System and         ledger system. Second, because the Department grants over 85
Unproven Reports          percent of its funds to State and local governments, it continues
                          its uneasy reliance on unproven grantee financial reports while
                          the limitations of financial audit coverage under the Single Audit
                          Act are becoming increasingly disturbing.

                          The OIG recommends that management should employ quali-
                          fied accounting personnel in fiscal management roles throughout
                          the Department to manage the Department's fiscal responsibili-
                          ties.




                                      4
                                           EXECUTIVE SUMMARY


Significant           Concerns                                                                                                                          Page

The OIG is concerned about the inadequacy of the protections provided
to pension plan participants by the Employee Retirement Income Security
Act of 1974 (ERISA) and the Department of Labor's weak enforcement of
that Act ............................................................................................................................................
                                                                                                                                                  1

The OIG is concerned that the Department's endorsement of a Justice
opinon negatively impacts OIG's criminal investigative authority.
Congressional clarification is needed ....................................................................................2, 39


Department              Financial           Management

The OIG is concerned that newly developed financial management
systems may not meet requirements and that the DOL relies too heavily
on grantee financial information ................................................................................................
                                                                                                                               34


Pension Welfare Benefits Adminsitration                                               (PWBA)

The OIG continues to press for immediate elimination of the ERISA limited scope
audit exemption which has allowed a large portion of benefit plan assets
to avoid thorough             audit scrutiny         ................................................................................................    11




Job Training Partnership                          Act (JTPA)

After 7 years of JTPA and $18.5 billion in program expenditures
the OIG is concerned that no one knows the return on investment or
the effectiveness of established program standards. Audit work
consistently shows poor program and financial accountability and
widespread apparently abusive situations ................................................................................29




                                                                               5
ETA Information               Resource        Management

ETA's decentralized management structure has created a very
complex computing environment for the agency. In the last 3
years, in response to widespread criticism, ETA has had limited
success in its efforts to modernize its information resources
management. More needs to be done, however, especially to
properly control noncompetitive contracting ..........................................................................16



Job Corps

The OIG matched Job Corps costs costs with program results by
analyzing the flow of costs for Job Corps participants served during
program year 1986. Of the average cost per year, education
and vocational training, which is Job Corps' primary purpose,
absorbed only 17 percent of the cost ........................................................................................21



State Employment               Security Agencies (SESAs)

Based on recently completed work, most SESA accounting systems
and procedures were inadequate to assure the Secretary of Labor
that financial information, including experience rating indexes for
unemployment compensation, is accurately and completely reported ................................23



Employment            Standards         Administration              (ESA)

ESA is the first program agency in the Department to receive an
unqualified opinion on its financial statements ......................................................................14

Under the Program Fraud Civil Remedies Act, the OIG has
completed six Wage and Hour cases which involve submission
of false certified payrolls on construction projects governed by
the Davis-Bacon Act. Potential penalties are $2.8 million ..................................................14




                                                                6
                                                   Selected Statistics
                                         April 1 - September 30, 1989

Audit Activities

      Reports issued on DOL activities ............................................................................374
      Total Audit exceptions ..............................................................................$30.3 million
            Recommended cost efficiencies ......................................................$3.5 million
      Reports issued for other Federal agencies ..............................................................19
      Dollars resolved ......................................................................................$118.2 million
            Allowed ............................................................................................$45.5 million
            Disallowed ........................................................................................$72.7 million
            Sustained cost efficiencies ..............................................................$50.7 million



Fraud and Integrity              Activities

      Allegations reported ................................................................................................   1,804
      Cases opened ............................................................................................................
                                                                                                                              1,301
      Cases closed ..............................................................................................................
                                                                                                                              1,645
      Cases referred for prosecution ................................................................................702
      Individuals or entities indicted ................................................................................735
      Successful criminal prosecutions ............................................................................720
      Referrals for administrative action ........................................................................125
      Recoveries, fines, penalties, restitutions, settlements,
       and cost efficiencies ..................................................................................$12,006,129


Labor Racketeering               Investigation            Activities

      Cases opened ................................................................................................................62
      Cases closed ..................................................................................................................36
      Individuals indicted ......................................................................................................40
      Individuals convicted ..................................................................................................21
      Fines ....................................................................................................................
                                                                                                                             $318,650
      Restitutions ....................................................................................................$1,023,077




                                                                   7
                                                                Table of Contents

Inspector General's Message ......................................................................................................                                        i

Significant Concerns ..................................................................................................................                                   1

Executive Summary ....................................................................................................................                                   5

Selected Statistics ......................................................................................................................                               7

Chapter 1 - Office of Audit ....................................................................................................                                        11

           Agency Activities ........................................................................................................................................   11


           Job Training Partnership Act ..................................................................................................................              29


           New Financial Management System ........................................................................................................                     34

Chapter 2 - Office of Investigations ......................................................................................                                             39

          Complaint Handling Activities ..................................................................................................................              43

Chapter 3 - Office of Labor Racketeering                                             ..........................................................................         45

Chapter 4 - Office of Resource                               Management                   and Legislative Assessment                                .................... 53

Chapter 5 - Audit Resolution                               ................................................................................................             57

Chapter 6 - Audit Schedules and Tables ..............................................................................                                                   61

           Money Owed to the Department of Labor ............................................................................................                           63
           Summary of Audit Activity of DOL Programs ......................................................................................                             64
           Summary of Audit Activity of ETA Programs ......................................................................................                             65
           Summary of Audits Performed under the Single Audit Act ................................................................                                      66
           Summary of Audits Performed under the Single Audit Act, Multi-Agency Reports ......................                                                          67
           Audits by Non-Federal Auditors ..............................................................................................................                68
           Summary of Audit Resolution Activity ..................................................................................................                      69
           Summary of Audit Resolution Activity, Unsupported Costs ..............................................................                                       70
           Summary of Audit Resolution Actions on Audits Unresolved Over 6 Months ................................                                                      71
           Audits Unresolved Over 6 Months, Unsupported Costs ......................................................................                                    72
           Unresolved Audits Over 6 Months Precluded from Resolution ..........................................................                                         73
           List of Final Reports Issued ......................................................................................................................          75
                                                 Chapter I

                                       OFFICE OF AUDIT

During this reporting period, 374 audits of program activities, grants, and contracts were
issued. Of these, 32 were performed by OIG auditors, 97 by CPA auditors under OIG contract,
2 by the Defense Contract Audit Agency (DCAA), 71 by State and local government auditors,
and 172 by CPA firms hired by grantees.

This chapter has three sections. The first section contains information on audits of the Depart-
ment's programs (immediately following). The second section describes OIG-prescribed
remedies for long-term problems with JTPA (page 29). The third section centers attention on
what management proposes to do about gaps and deficiencies in the Department's financial
management systems (page 34). Reports on significant audit resolution are contained in
Chapter 5 (page 57). Money owed the Department, audit schedules and tables, and a listing
of final audit reports issued and resolved are found in Chapter 6 (page 61).


                                              Agency        Activities

PENSION AND WELFARE BENEFITS                                     OIG Testimony Before House
ADMINISTRATION (PWBA)                                            Subcommittee on ERISA

The Pension and Welfare Benefits Administration                  In August 1989, the Inspector General was asked to
(PWBA) administers certain provisions of the Em-                 appear before the House Committee on Government
ployee Retirement Income Security Act of 1974 (ERISA)            Operations' Subcommittee on Employment and Hous-
and the Federal Employees' Retirement System Act of              ing. The Subcommittee wanted additional information
1986 (FERSA), including those provisions that pertain            on the IG's concerns regarding ERISA oversight, raised
to the fiduciary responsibilities of such individuals as         in the last semiannual report.
pension plan administrators, trustees, and others. PWBA
is responsible for protecting the rights of approximately        In that report, the OIG was critical of the audit work
65 million individuals covered by ERISA and about 1.3            performed by Independent Public Accountants (IPAs)
million Federal employees currently enrolled under               as well as the Department's oversight role on behalf of
FERSA. Assets held by ERISA plan administrators                  benefit plan participants. The Subcommittee expressed
and the Thrift Trust Fund under FERSA are estimated              interest in OIG's recommendations    to PWBA and, in
to be approximately $2 trillion and growing. The agency          that regard, asked the Department's Deputy Secretary
also considers and grants exemptions from certain                to address those concerns. The Deputy Secretary was
provisions, and develops and issues regulations dealing          requested to rePort to the Subcommittee the status of
both with pension and welfare plans in private industry,         all recommendations       made by OIG in the area of
In fiscal year 1989, PWBA's authorized staffing was 511          ERISA oversight. Many of these recommendations
and its budget was $41.4 million,                                date back to 1984 and had received little action by the
                                                                 Department.
During this reporting period, we provided congres-
sional testimony on its continuing concerns about ERISA          We have been encouraged by the interest and concern
oversight. The OIG also issued reports on the role of            expressed by Secretary Dole and her executive staff
Independent PublicAccountant       (IPA) audits in ERISA         about OIG's findings and recommendations.  However,
enforcement and PWBA's ERISA public disclosure                   we are concerned that although the Department plans
function,                                                        to take action to eliminate the limited scope audit



                                                            11
exemption, a delay in this action could result if the                 4. Work with the AICPAto improve compliance of
Department spends an inordinate amount of time con-                   plan audits and reports with GAAS.
ducting additional studies of the matter. The time has
come to eliminate this exemption which allows almost                  5. Establish quality control procedures which in-
half of benefit plan assets to avoid thorough audit                   clude a review of audit workpapers as well as
scrutiny,                                                             reports.

                                                                      6. Use its existing enforcement   authority when ap-
Followup Review of the Quality of IPA Audit                           propriate   to obtain quality audits, reports, and fi-
Reports Stresses Needed Changes to Increase                           nancialstatements on plan operations.
Protection    for Plan Participants                              PWBA indicated they would design a compliance test-
                                                                 ing program for IPAs by March 15,1990, and, from this,
The OIG has completed its review of the quality of IPA           determine the most effective way to report noncompli-
audits of pension and welfare benefit plans covered by           ance to PWBA. PWBA officials also stated they would
ERISA.                                                           implement an aggressive quality assurance program to
                                                                 review the quality and content of IPA audits and use
The current report, entitled Changes are Needed in the           their existing authority to assess civil penalties for
ERISA Audit Process to Increase Protections for Era-             failure to comply with ERISA reporting requirements.
ployee Benefit Plan Participants, has been issued to             Finally, they indicated they would work with the Ameri-
PWBA in draft,                                                   can Institute of Certified Public Accountants (AICPA)

The audit found that:                                            to improve ERISA training for IPAs.

                                                                 While PWBA has agreed to take action to resolve many
    1. Almost half the audit work performed by IPAs              of the recommendations      raised in our report, the OIG
    was limited in scope. This scope limitation, which           is extremely concerned that PWBA's proposed correc-
    is provided for by ERISA, allows a plan administra-          tive actions in regard to limited scope audits are inade-
    tot to exempt assets held in trust bybanks and other         quate. Further empirical studies are not needed and
    financial institutions from audit scrutiny.     This         would only delay obtaining the necessary audit coverage
    scope impairment results in audit reports whose              of plan assets. The AICPA has opposed the concept of
    opinions are disclaimed and are of very little use.          limited scope audits since the concept was implemented
                                                                 and has continuously pointed out the lack of coverage
    2. Twenty-two percent of the audits and/or reports           and other potential problems. In addition, the concept
    failed to meet one or more Generally Accepted                has been discussed numerous times by the ERISA
    Auditing Standards (GAAS), as required by ERISA.             Advisory Council. The time has come for PWBA to act.

    3. Sixty-four percent of the plan financial state-           Unless PWBA is willing to take this action, it should
    ments did not meet ERISA disclosure require-                 consider eliminating audit requirements for plans with
    ments and the accompanying IPA reports failed to             assets held by banks or similar institutions. With almost
    divulge the absence of these disclosures,                    half the plans producing disclaimers of opinion, money
                                                                 is being wasted on audits which provide no assurances
So that the ERISA reporting and audit processes can
                                                                 or protections to participants.
more effectively protect participant rights and benefits,

we recommended     that PWBA:                                    Survey of PWBA's Public Disclosure
    1. Propose legislative changes to ERISA to require           Function Reveals Failure to Meet
    full scope audits of plans.                                  Congressional Intent

    2. Require direct reporting by IPAs of ERISA                 During this period, the OIG completed an evaluation of
    violations to independent parties and PWBA for               the efficiency and effectiveness of PWBA's public dis-
    action,                                                      closure function, which is legislatively mandated. Be-
                                                                 cause of this mandate, PWBA must ensure that the
    3. Require IPAs to specificially test compliance             disclosure requirements of ERISA are met. Specifi-
    with ERISA and report any findings,                          cally, PWBA must provide timely and current informa-
                                                                 tion as it is requested.



                                                            12
In the course of the evaluation, the OIG found that the         MSHA management has reduced grantee advances to
internal controls are inadequate to track disclosure            under $1 million. Procedures were instituted to follow
requests and ensure that summary plan descriptions are          up on late reports and closely monitor cash drawdowns.
received from plan administrators. This has resulted in         Procedures also were put into place to ensure grantee
PWBA meeting neither ERISA disclosure require-                  reportswere promptly recorded in the financial system.
ments nor congressional intent.
                                                                Capitalized Property. MSHA's property and plant
The OIG believes the disclosure function deserves a             management records were not sufficient to fully sup-
higher management priority. PWBA does not share                 port costs. Although the fiscal year 1988 audited State-
that view. PWBA does, however, agree with the inter-            ment of Financial Position shows $30.3 million in capi-
nal control finding and has indicated plans to imple-           talized equipment, the agency's accounts recorded only
ment corrective action.                                         $29.9 million. Documentation to fully support the $29.9
                                                                million was not being maintained.

MINE SAFETY AND HEALTH                                          MSHA responded       quickly.   Extensive   searches were
ADMINISTRATION  (MSHA)                                          conducted for documentation to support property ac-
                                                                quisitions and properties were reappraised.  Based on
                                                                this information, significant audit adjustments were

The Mine Safety and Health Administration (MSHA)                necessary. This in turn established the base for a new
administers the provisions of the Mine Safety and               capital property management system which was promptly
Health Act of 1977. The program is designed to reduce           implemented.
the number of mine-related accidents and fatalities and
to achieve a safe and healthful environment for the
nation's miners. Approximately 5,000 coal and 11,500            OCCUPATIONAL             SAFETY       AND     HEALTH
metal/nonmetal    mining operations are under MSHA's            ADMINISTRATION              (OSHA)
jurisdiction.  For fiscal year 1989, MSHA's approved
staffing level was 2,790 with a $162.6 million budget.          The Occupational Safety and Health Administration
                                                                (OSHA) administers programs designed to assure the
During this reporting period, financial statements for          safety and health of workers at lheir worksites. This
the agency were completed and issued for the first time.        includes setting workplace regulations and standards
                                                                for a safe and healthful working environment, enforcing
                                                                compliance by inspecting places of employment, and
MSHA Fiscal Years 1988 and 1987                                 providing occupational safety and health training and
Financial Statements                                            education. To administer the program for fiscal year
                                                                1989, OSHA had a staffing level of 2,441 and a $244.5
                                                                million budget.
The first financial statement audit of MSHA, covering
fiscal years 1988 and 1987, has been issued. With one
exception, the financial statements were presented in           During this semiannual period, the OIG completed an
accordance with Federal generally accepted accounting           audit of OSHA's fiscal year 1988 financial statements
principles. The opinion was qualified because we were           and a vulnerability assessment of OSHA's activities at
unable to determine the amount of grant expenditures,           the Salt Lake City Analytical Laboratory (SLCAL).
                                                                Overall, we found the Laboratory to be well managed
In addition, our study and evaluation of MSHA's sys-            and OSHA management was responsive to our recom-
tems of internal control found poor controls over grants        mendations for corrective action.
management and capitalized property.

Grants Management. In fiscal year 1988, MSHA pro-
                                                                Audit of OSHA's Fiscal Year 1988
vided advances of $3.77 million to 47 grantees. As of           Financial Statements
September 30, 1988, only $1.05 million in fiscal year
1988 expenses had been recorded by MSHA, leaving                The financial statement audit covered $235 million in
outstanding advances of $2.72 million. In addition, $1.7        fiscal year 1988 expenses. As part of the financial audit,
million remained outstanding from prior years. Out-             an examination was made of OSHA's internal account-
standing advances totaled $4.42 million at year's end.          ing controls, status of prior years' reported material
MSHA had not instituted controls or sanctions to en-            weaknesses, and compliance with applicable laws and
sure timely grantee reporting and letter of credit              regulations.   The auditors' opinion on the financial
drawdowns,                                                      statements contained a qualification because records

                                                           13
documenting property costs and accumulated deprecia-             As part of the audit of the agency's financial statements,
tion were incomplete. The report on internal account-            the benefit and debt collection systems for Federal
ing controls identified weaknesses related to reconcili-         employees' compensation       and Black Lung were re-
ation of the grants management system to the depart-             viewed. A number of internal control issues, while not
mental accounting system; overstatement of penalties             material to the financial statements, were reported to
receivable in OSHA's reports to the Treasury; incorrect          management for corrective action.
classification of accounts payable and undelivered or-
ders; and an incomplete inventory of capitalized prop-           In the Federal Employees' Compensation program, we
erty. The report on compliance disclosed that 7 pay-             reported weaknesses in payment controls over both
ments to vendors were not made within the 30-day                 FECA compensation payments to claimants and pay-
period required by the Prompt Payment Act. However,              ments of bills from medical or other service providers.
6 of these were paid within the 15-day grace period              We also found problems with the assessment of interest
allowed, at that time, by the Act.                               on accounts receivable and waiver of interest or com-
                                                                 promise of debt in perpetual debtor cases. Finally, the
OSHA's planned corrective actions were responsive to             accounts receivable balance reported to the U.S. Treas-
our recommendations,                                             ury did not agree with the accounts receivable aging
                                                                 report. Management has taken corrective action on a
                                                                 number of our recommendations.     We are working with
EMPLOYMENT             STANDARDS                                 ESA staff to resolve the remaining issues.
ADMINISTRATION (ESA)
                                                                 In the Black Lung program, we found several weak-
                                                                 nesses in the processing of medical bills, offsets for
The Employment Standards Administration         (ESA)            State workers' compensation,      and support for pay-
coordinates a variety of programs protecting the basic           ments made on behalf of dependents. We also found
rights of workers, including minimum wage and hour               inaccuracies in account receivable balances and the
standards, various workers' compensation programs,               timeliness of collection efforts. ESA has taken correc-
and equal employment opportunity and affirmative                 tive action on these problems.
action programs for employees of Government con-
tractors. ESA includes the Wage and Hour Division,               We reviewed the internal controls of the back wage
the Office of Workers' Compensation Programs (OWCP),             accounting system. These wages, which are collected
and the Office of Federal Contract Compliance Pro-               from employers, are due employees because of viola-
grams (OFCCP).                                                   tions of wage and hour laws. No systemic problems
                                                                 were identified. However, several local violations of
ESA is the second largest program agency in the De-              established ESA controls were identified. The agency
partment in terms of expenses. Fiscal year 1988 net              took prompt action to correct noncompliance with
expenses were $1.7 billion, including a reduction of $424        existing procedures.
million due to a change in the liability for future work-
ers' compensation benefits. Over $1.2 billion was paid
out in Federal employees' compensation benefits, and             Wage    and Hour Division
$560 million in Black Lung benefits.
                                                                 Of ESA's $242.9 million budget for fiscal year 1989,
The OIG completed financial statements for ESA and               Wage and Hour uses the largest portion to enforce a
finalized two Program Fraud Civil Remedies Act cases             wide variety of labor standards.
in the Wage and Hour Division during this semiannual
period.                                                          Potential Program Fraud Civil Remedy Act
                                                                 (PFCRA) Cases in Wage and Hour

ESA Fiscal Year 1988 Financial Statements                        PFCRA provides Federal agencies with administrative
                                                                 remedies for losses resulting from either false claims up
For the third year, we have audited the agency's annual          to $150,000 or false written statements made in connec-
fmancial statements. ESAis thefirst program agency in            tion with a claim, a Federal benefit program, or a
the Department     of Labor to receive an unqualified            federally financed contract or grant. Under the Act and
opinion on its financial statements.    The agency has           the Department's implementing regulations, the OIG is
made significant progress in correcting prior problems,          responsible for investigating PFCRA cases and refer-




                                                            14
ring them to the Solicitor of Labor (SOL) for potential            Actions Taken By SOL and DOJ
prosecution. If SOL determines the case has merit, the             on these PFCRA Cases
law requires them to then obtain DOJ approval prior to
civil prosecution.                                                 To date, the OIG has submitted six Wage and Hour
                                                                   PFCRA cases to the Solicitor. These six cases, includ-
The OIG began actions to implement PFCRA enforce-                  ing the two above, involve submission of false certified
ment in regard to Wage and Hour programs during                    payrolls on construction projects governed by the Davis-
fiscal year 1988. Work continued during this reporting             Bacon Act. Potential maximum penalties in these cases
period to identify and investigate potential falsification         could be $2.8 million. Two of these cases were submit-
of weekly payroll certifications on payment     of prevail-        ted, in turn, by the SOL to the Attorney General for
ing wages, which are required to be submitted    under the         litigation approval. Upon approval from DO J, the SOL
Davis-Bacon and Related Acts (DBRA).            Two cases          can proceed with administrative litigation against the
completed during this 6-month period were       submitted          liable parties. Maximum penalties in these two cases
to SOL.                                                            could be $795,000.

The first case involved a prime contractor    working on
two federally funded Navy construction projects. The               EMPLOYMENT              AND    TRAINING
OIG's investigation concluded that the contractor de-
                                                                   ADMINISTRATION                (ETA)
liberately submitted false certified payrolls to the Navy.
Wage and Hour's prior review had concluded that the
contractor paid his employees substantially less than              ETA oversees the administration of major programs
that required under DBRA. The contractor attempted                 dealing with employment and training, principally the
to conceal this underpayment of wages by submitting                Job Training Partnership Act (JTPA), and other special
false certified payrolls which showed lower numbers of             emphasis projects designed to meet the needs of eco-
hours than actually worked and higher wage rates than              nomically disadvantaged youth, dislocated workers, and
actually paid.                                                     the unemployed and underemployed.        In fiscal year
                                                                   1989, authorized staffing was 1,753 and ETA's budget
The results of the OIG investigation are currently being           was almost $7 billion. Of that amount, $2.5 billion was
considered by the reviewing official, as provided for              for State UI and ES operations, $3.7 billion was for
under PFCRA. Penalties of $340,000 could be imposed                JTPA, and $134 million was for Trade Readjustment
by an ALl against all parties under PFCRA in this case             Allowances. In addition, the UI Trust Fund totaled
                                                                   $13.7 billion.
($85,000 each, against the company and three respon-

sible officials).                                                  During this reporting    period, ETA's fiscal year 1988
The second case involveda contractor whowas awarded                financial statements    were issued and the OIG con-
a Navy contract to paint buildings. Forty-six payrolls             ducted other significant audit activity in ETA's Infor-
were falsely certified as accurate. These payrolls certi-          mation Resources Management         (IRM), JTPA, Job
fled that employees working on this construction proj-             Corps, Unemployment       Insurance    (UI) and State
ect were paid hourly wage rates substantially higher               Employment Security Agency (SESA) programs.
than the rates actually paid. For example, employees
that should have been paid $12 to $18 an hour (the                 ETA Fiscal     Year     1988 Financial     Statements
mandatory prevailing wages) were actually paid sub-
stantially less -- $4.50 to $12 per hour. Further, some of         ETA's consolidated statements of operations for the
the certified payrolls contained inaccurate classifica-            fiscal years ended September .30, 1988, and 1987, were
tions for the work actually performed by certain em-               audited.    The audit covered, respectively:      (1) $6.1
ployees,                                                           billion and $6.2 billion in expenses for grants, subsidies
                                                                   and contributions, primarily with various State and
The results of OIG's investigation are currently being             local governments and nonprofit organizations; and (2)
considered by the reviewing official, as provided for              expenses for unemployment benefits incurred by SESAs
under PFCRA. Penalties of $920,000 could be imposed                in the amounts of $13.7 billion and $15.7 billion.
in this case.




                                                              15
Highlights of the report follows.                               ETA needs to focus on improving its IRM planning
                                                                process, strengthening its IRM organization to produc-
     1. The independent auditors' report on consoli-            tively oversee the modernization,    providing adequate
     dated financial statements for FY 1988 contains a          direction and guidance to its program components, and
     qualified opinion for lack of accounting records to        using contractors effectively.
     determine accrued state and Federal unemploy-
     ment insurance taxes due on September 30, 1988,            Improving the IRM Planning Process. ETA has made
     and lack of subsidiary records to support advances         progress but can reinforce its IRM planning process by
     made to the public, grantees, and contractors,             adopting tactical and operational planning; increasing
                                                                top level management participation; and clarifying the
     2. The independent auditors' report on internal            roles and responsibilities of the IRM organization, its
     accounting controls notes three material internal          program components and regional offices.
     control deficiencies relating to accounting weak-
     nesses in grant and contract management, proce-            Strengthening the IRM Organization.       ETA needs to
     dures for adequately valuing Unemployment Trust            clearly delegate IRM authority and to structure its IRM
     Fund receivables, and accounting controls over the         organization to support ETA programmatic require-
     Federal Employees' Compensation (FEC) Account.             ments. This includes organizational staffing adequate
     The deficiencies regarding grant and contract              to manage ETA's move to its new IRM environment.
     management and Unemployment         Trust Fund re-
     ceivables have continued from prior years.                 Issuing IRM Policy Directives. ETA can improve its
                                                                IRM directives program by formalizing its manage-
     3. The independent auditors' report on compliance          ment system as well as revising and actually issuing IRM
     with laws and regulations notes no exceptions,             directives which have remained for too long in draft.

The OIG concurred with ETA's planned corrective ac-             Controlling Noncompetitive IRM Contracting.        ETA
tions and considers all the recommendations   to be             needs to properly control its IRM contract services, use
resolved,                                                       competition to the maximum extent practical, and
                                                                adequately manage and control its interagency agree-
ETA Information Resources                                       ments.

Management        (IRM) Survey                                  ETA acquired the services of one consulting firm three
                                                                different times through procurements which gave the
ETA operates approximately 219 application systems              appearance of avoiding competition. In this case, ETA
to support its programmatic and administrative activi-          used noncompetitive interagency agreements twice and
ties. These activities run on mainframe, minicomputer,          a noncompetitive Small Business Administration       Act
and word processing equipment.        ETA's computing           set aside [8(a)] contract to obtain services. In another
environment is diverse, difficult to manage and directly        example, ETA fragmented two separate acquisitions
affects how well ETA operates its programs. Histori-            for IRM services by using sole source purchase orders
cally, each program office chose its computing environ-         for less than $10,000 each from the same vendor (which
ment based on its own needs rather than those of the            are not subject to competitive advertisement).     These
organization. ETA's decentralized management struc-             instances conflict with the intent of the Competition in
ture has resulted in a very complex computing environ-          Contracting Act.
ment. Currently, ETA is establishing a standard plat-
form for both office automation and some program-               Agency Response. ETA concurred with several of our
matic applications to simplify this diverse and decen-          recommendations,      notably the recommendations      on
tralized environment,                                           tactical and operational planning, Federal staff involve-
                                                                ment, organizing to address component issues, staffing,
In 1986, ETA began an IRM improvement project in                and establishingan IRM directives system. Theyagreed
response to criticisms by the Office of Management and          to evaluate our recommendation    on the executive steer-
Budget (OMB), the General Accounting Office (GAO),              ing committee and the administrative procedures for
and the OIG.                                                    controlling IRM contracting. They disagreed with our
                                                                recommendations        on clarifying the senior IRM offi-
This modernization   effort requires a well-formulated          cial's responsibilities and elevating the IRM organiza-
strategy and sustained ETA management         attention,        tion to the program component level.




                                                           16
Job Training Partnership Act (JTPA)                                MISSISSIPPI SDA SUMMER YOUTH
                                                                   REMEDIAL EDUCATION CONTRACT

The purpose of JTPA is to establish programs to pre-               Our audit of the JTPA 1988 Summer Youth Remedial
pare youth and unskilled adults for entry into the labor
force and to afford job training to those economically             Education contract between the Mississippi Service
disadvantaged individuals and other individuals facing             DeliveryArea (SDA), and the Mississippi Department
serious barriers to employment, who are in special need            of Education (DOE) examined the expenditures and
of such training to obtain productive employment. Under            profits related to this fLxed unit price contract (FUPC)
Titles II and III of JTPA, the Secretary of Labor grants           covering the period April 1, 1988 through September
funds to 59 States and entities which, in turn, distribute         16, 1988.
them to service delivery areas (SDAs) and other organi-
                                                                   Our examination    identified profits of $1,249,880 that
zations. Grants are used for adult and youth programs,
summer youth programs, and dislocated worker assis-                were neither necessary nor reasonable costs of operat-
tance. The following section of this chapter (page 29)             ing the Summer Youth Remedial Program.
contains an overall discussion of problems with JTPA.
                                                                   The OIG concluded that poor contracting procedures
                                                                   unnecessarily inflated the cost of delivering the summer
HOUSTON JOB TRAINING                                               program and resulted in excess profits that were re-
PARTNERSHIP COUNCIL                                                tained by the DOE. Our analysis showed that a less
                                                                   expensive cost reimbursement contract could have been
We reviewed the operations of this grantee to deter-               arranged to deliver the same summer program that was
mine whether the Council adequately protected the                  negotiated under a more expensive FUPC. Addition-
integrity of Federal funds it expended under Title II of           ally, the pricing structure and payment points in the
the Act during program years 1986 and 1987.                        FUPC were too lenient, making profits almost a cer-
                                                                   tainty while minimizing contractor risk. Because of
In our final report issued to ETA, we questioned $'718,768.        these deficiencies, we questioned $465,558 in profits.
The report recommended improvements in the SDA's
procurement    and monitoring   systems.                           We also recommended for disallowance $784,322 for
                                                                   computer software purchases and training for teachers
Questioned    costs of $511,884 were due to invalid claims         to use the software. It was evident from our examina-
made by the SDA's contractors for training, placement,             tion that, although the contract budget and the actual
and retention payments. Questioned costs of $198,000               f'Lxedunit price payment schedule included the cost for
resulted because the Council required contractors to               this computer software, there was little likelihood the
pay 1.5 percent of their earned contract amount into a             software would be available at the beginning of the
fund established to offset disallowed or unallowed costs,          training program. In fact, the software was not deliv-
                                                                   ered until 2 months after the end of the program and,
Other findings in the report showed inconsistencies in             thus, provided no benefit to the JTPA participants.
the length and cost of training for the same occupations.
For example, we found almost one-half million dollars              LAKE MICHIGAN SDA JTPA
in contracts to train security guards from 80 to 320 hours         SUMMER YOUTH PROGRAM
while the State regulation requires only 30 hours to be
certified.                                                         A limited review was conducted     of the 1988 summer
                                                                youth program in the Lake Michigan Service Delivery
Up to 70 percent of on-the-job training funds were              Area. The program was operated by the Farmers
going to brokers for negotiating contracts, recruiting,         Union Job Training Programs (FUJTP) as a subcon-
and providing other peripheral services while just 30           tractor to the Forward Service Corporation, which, in
percent was spent to reimburse employers for provid-            turn, was a grantee to the Wisconsin Department of
ing the training.                                               Industry, Labor and Human Relations.

The State disagreed with our findings. ETA has not had             We reviewed 38 placements for which FUJTP received
an opportunity to respond to the final audit report.               $57,500 in placement fees. We found that $26,200 was




                                                              17
paid for unnecessary services to place 16 college stu-             employed Indian and other Native Americans. While
dents who either knew about the jobs before being                  grantees are covered under the auspices of the Single
placed, worked for the employer previously, or were                Audit Act, the OIG continues to respond to requests for
placed where the employer would have hired the stu-                reviews of program results, economy and efficiency, or
dents without JTPA assistance,                                     because of complaints of program abuse.

In addition, OJT wages totaling $7,601 were paid to the            National Urban Indian Council (NUIC)
employers of the 16 college students. These payments
appear to have improperly subsidized the employers                 ETA's Division of Indian and Native American          Pro-
because the employers did not provide any additional               grams entered into grant agreements with NUIC over
training and would have hired the college students                 the last several years to provide various training and
anyway,                                                            employment services to Native Americans. Prior ETA
                                                                   compliance reviews identified serious management
We recommended      disallowance     of the $26,200 and the        problems in the organization; ETA subsequently re-
$7,601.                                                            quested an OIG audit of NUIC. The resulting limited
                                                                   scope audit disclosed potentially serious problems.

CLASSROOM TRAINING CROSSMATCH OF JTPA                              During this period, the OIG issued a final report on
PARTICIPANTS WITH PELL GRANT RECIPIENTS                            NUIC, which operated as the Utah Indian Employment
                                                                   Resource Center, the Ohio Indian Job Training Part-
Our report on JTPA participants who received Pell                  nershipAgency, and the Maryland lndian Council. This
Grants during program years 1985 and 1986 showed                   was a financial and compliance audit of more than $2
that the methods for distributing overlapping funding              million in JTPA funds expended between October 1983
from JTPA and the Pell Grant program resulted in                   and June 1987. It included an adverse opinion on
inequitable treatment of participants and payment of               NUIC's JTPA financial status reports for the audit
excessive training costs by some SDAs, and that Pell               periods.
awards are calculated in a way that JTPA pays training
costs which should be paid instead by Pell.                        The auditors uncovered what the OIG believes are
                                                                   serious and flagrant program abuses and conflicts of
We recommended       that ETA and the Department of                interest by NUIC, in general, and by NUIC's Chief
Education, Office of Student Financial Assistance                  Executive, in particular. Audit exceptions totaled $680,626
(OSFA),jointly develop and implement policywhereby                 with 89 percent being the result of less-than-arms-
a percentage of each Pell award is applied to participant          length transactions and other program abuses. For
tuition when Pell and JTPA are available for the same              example, the Department was charged about $105,000
training, and that JTPA costs for the matching training            for improvements       made to buildings owned by the
be reduced by that same amount.         We also recom-             NUIC Chief Executive. NUIC, provided an opportu-
mended that service providers report to the SDAs the               nity to comment on the audit findings and recommen-
receipt of Pell Grant funds for JTPA participants, and             dations, chose not to do so. As a result of the audit's
that SDA program monitoring procedures include a                   findings, ETA discontinued funding NUIC as of June
review of participants' Pell Grant records to verify               30, 1989.
disposition of Pell Grant and JTPA funds.


The Assistant Secretary for Employment and Training                Job Corps
concurred that ETA and OSFA should issue a joint
policy with respect to the overlap between JTPA and                The Job Corps program is operated under JTPA and is
Pell Grant funds,                                                  designed to serve primarily impoverished and unem-
                                                                   ployed youth between ages 16 and 21. Comprehensive
SPECIAL TARGETED PROGRAMS                                          training in basic and vocational education, work experi-
                                                                   ence, counseling and enrichment activities are provided
Indian and Native American         programs are federally          at both Federal- and contractor-administered centers.
administered programs authorized by JTPA. The pur-                 After training, corpsmembers are provided placement
pose of the programs is to provide job training to                 assistance for up to 6 months.
economically disadvantaged, unemployed, or under-




                                                              18
The OIG continues to review specific Job Corps cen-               some instances, the Daily Corpsmenaber Strength Reports
ters, contractors, and program systems and continues to           (DCSRs) disagreed with information in corpsmember
provide technical assistance to Job Corps management              t'des or Office of Job Corps Pay records.
as they implement new systems and procedures to
correct problems identified in our earlier reports.               More seriously, EJCC and PJCC considered resident
                                                                  corpsmembers       AWOL only when they were absent
During this period, we completed eight audits in three            from dormitory bed checks, which is Job Corps' policy.
separate but related areas.       We performed special            Even though training is the primary objective of the Job
program abuse surveys at three Job Corps centers,                 Corps program, neither center accounted for AWOL
indirect cost audits of two operators of 11 Job Corps             status of resident corpsmembers by determining whether
centers and of one Job Corps support contractor, and              they attended training classes. These centers do take
two financial type audits at two Job Corps support                classroom attendance but, in accordance with Job Corps'
contractors. These audits resulted in significant recom-          policy, do not use it to determine whether resident
mendations to management which, if implemented, will              corpsmembers are AWOL. The only check that mat-
improve the program and emphasize its training as-                tered was the bed check. Nonresident corpsmembers
pects. Dollar exceptions exceeded $1.8 million. We                wereconsideredAWOLatPJCConlywhentheymissed
alsoissued an analysis of costs invested in human capital         all training classes on a particular day and at EJCC
in the Job Corps program, which matches audited                   when they did not sign in. Otherwise, for accountability
financial input with audited program output in the area           purposes, corpsmembers are considered present and
of placements,                                                    receive allowances and the Center receives credit in the
                                                                  appropriate Performance Measurement System statis-
SPECIAL PROGRAM ABUSE SURVEYS                                     tics. All this agrees with current Job Corps' policy. The
AT THREE CENTERS                                                  impact of this policy is potentially far-reaching.

In response to requests received from the Office of Job           At PJCC, a review of 81 days' worth of attendance
Corps (OJC) for OIG reviews of alleged improprieties              records for 21 of the 35 corpsmembers sampled showed
in corpsmember accountability, absenteeism, and han-              that 16 of the 21 (over 75 percent) were present accord-
dling of leave at several centers, special program abuse          ing to the DCSRs but absent from classes according to
surveys were completed at the Edison Job Corps Center             daily attendance reports.
(EJCC), the Phoenix Job Corps Center (PJCC) and the
Sierra Nevada Job Corps Center (SNJCC). PJCC was                  These deficiencies were caused by failure to follow
selected after an earlier review at another center oper-          procedures, inadequate internal controls, insufficient
ated by the same operator indicated some problems,                training of center staff, and inadequate monitoring of
Concurrently, the OIG finished a survey of EJCC                   center operations.
corpsmembers'     learning gains measured by Tests of
Adult Basic Education (TABES).                                    As a result, corpsmembers     were retained after they
                                                                  should have been terminated, performance measure-
 CorpsmemberAccountability.       Weak internal controls          ment statistics were distorted, and overpayments to
and ineffective procedures were identified in the areas           corpsmembers occurred. In addition, enrollment slots
of corpsmember accountability and payments, hiring                were unavailable to applicants who might better benefit
and training of selected center staff, and corporate              from and complete the program.
monitoring of center operations.      For example, prior
Job Corps regional office and corporate monitoring             SNJCC, by scheduling a combination of holidays, passes,
reports over several years indicated problems within           travel days and leave days, was, in effect, closed for one
the corpsmember accountability system, but neither the         full month for the 1988 Christmas holiday period. The
individual Job Corps centers nor the respective contrac-       Job Corps regional office, unbeknownst to Job Corps
tor (Iq'q"Job Training Services, Inc. in the case of EJCC,     Headquarters, approved this schedule in advance. The
and Teledyne Economic Development (TED) in the                 schedule included 19 pass days, 8 leave days, 2 travel
case of PJCC) took appropriate action to correct the de-       days and 3 holidays (December 23 and 26 for Christmas
ficiencies. Thus, they continued and OJC requested the         plus New Year's Day). In contrast, other Job Corps
OIG to determine the magnitude of the problem,                 centers observed a much shorter holiday season. Re-
                                                               garding the 19 pass days, typically one 3-day pass per
At PJCC, the corpsmember accountability system could           month is considered reasonable.
not provide management with accurate information. In




                                                             19
SNJCC also improperly granted excessive leave with                 audit exceptions can be attributed primarily to unallow-
pay for medical reasons, and some catastrophic medical             able expenses contained in the in direct cost pools and
reimbursement    claims submitted to the Office of Job             inappropriate   allocation bases.   Examples of ques-
Corps for payment should have been submitted under                 tioned costs (either costs recommended for disallow-
FECA.                                                              ance or unsupported costs) follow.

 The OIG recommended that Iq"F repay the Govern-                   Res-Care Development       Company,     Inc.
 ment $41,479 and TED repay the Government $11,782
 in excess cost received for days corpsmembers were re-            The Office of Job Corps' current contracts with Res-
 tained after they should have been terminated for                 Care DevelopmentCompany,           Inc., call for Res-Care to
 excessive AWOL; that the University of Nevada-Reno                manage five Job Corps centers.           Our audit of Res-
 (SNJCC'scontractor)     repay theGovernment     $10,331in         Care's 1986 and 1987 indirect cost proposals found
 excess cost expended for two corpsmembers'         medical        audit exceptions totaling almost $560,000. Most of the
 expenses for which the Government was not respon-                 exceptions related to employee bonuses and stock op-
 sible; that Job Corps closely monitor all the contractors'        tions. We recommended          that the bonuses and stock
 corrective actions; that Job Corps modify corpsmember             options be disallowed for three primary reasons. First,
 accountability policies for allowance purposes so that            the bonuses relating to administration of Job Corps
academic and vocational class attendance rather than               contracts both at the corporate and center levels were,
just dormitory bed checks and attendance in single class           in our opinion, not earned. Second, the bonuses and
periods determine whether a corpsmember is present                 incentive compensation      plans were not approved in
or AWOL; and that Job Corps provide current and uni-               advance by the contracting officers, as required. Third,
form policy on advancing paid leave to corpsmembers                bonuses relating to specific Job Corps centers were
during holidays as well as limiting the number of passes           inappropriately    charged as indirect costs instead of
a center may grant a corpsmember within a 1-month                  direct costs of the appropriate Job Corps center. Other
period,                                                            costs recommended for disallowance were expended
                                                                   for leased automobiles, interest and sales tax paid on
Corrective Action By Contractors.      Center manage-              leased equipment, social activities, lobbying, an out-of-
ment was in general agreement with our findings, ex-               court settlement, and voluntary termination pay. An
cept for those on personnel qualifications and job de-             "adverse opinion" was also issued because, we believe,
scriptions at one center. They informed us that some               the findings and recommendations are material in rela-
corrective actions had alreadybeen initiated to improve            tion to the indirect costs. The auditee disagrees with
dormitory accountability procedures, review morning                our recommendations.
reports, and train center staff. In May 1989, PJCC
implemented a system to track the number of AWOL                   Teledyne Economic Development         (TED)
days in a 180-day period. Prior to that date, the center
had no mechanism for tracking cumulative AWOL                  Currently, TED administers six Job Corps centers for
days. As a result, the center did not always terminate         the Department.       Our audit of the 1986 and 1987
corpsmembers AWOL for 30 days in a 180-day period,             indirect costs claimed by TED resulted in $510,200 in
as required by regulation,                                     costs questioned and adjustments to the allocation
                                                               base. Of that amount, $470,231 related to bonuses and
COST ALLOCATION PLANS                                          fringe benefits, and almost $30,000 paid to an employee
AND INDIRECT COST RATES                                        as an earlyretirement incentive. We believe that TED's
                                                               performance      did not justify these management bo-
A potential indirect cost savings of $1.2 million to the       nuses. The bonuses were unearned because, except for
Government could result from indirect cost audits of           one center, TED-operated        centers were rated by Job
Job Corps contractors completed by the OIG in the last         Corps as either "below average" or "acceptable." (An
6 months. OASAM's Division of Cost Determination,              "acceptable" rating refers to expected, average per-
rather than OJC, has responsibility for establishing           formance.) TED also did not meet the corpsmember
individual cost rates for the Job Corps contractor,            program completion percentages stipulated in its con-
While direct costs are usually those which can be iden-        tracts. Either one of these should warrant not paying
tiffed specifically with a particular direct activity of an    bonuses.
organization, indirect costs are usually incurred for
common or joint objectives and cannot be readily iden-         Also, we believe that the amounts of some of TED's
tiffed with a particular final cost objective. The current     bonuses were unreasonable -- TED's President; Vice-




                                                              2O
President, Administration; and Vice President, Comp-              activities. The fourth person charged 10 percent of his
troller alone received $89,000, $54,000, and $43,560,             time to union activities and 90 percent to the Job Corps
respectively, in bonus money for the 2 years. Finally,            work; however, the auditors determined that he actually
none of the bonuses was approved by the Office of Job             spent 25 percent of his time on union activities.
Corps. TED disagreed with our conclusions.
                                                                  These "cost reimbursable" contracts (funded directly
AFL-CIO Appalachian Council, Inc.                                 or indirectly by the Office of Job Corps) authorized the
                                                                  Trust Fund to coordinate training for plasterers and
The AFL-CIO Appalachian Council, Inc., provides                   cement masons at selected Job Corps centers, and to
vocational training instruction and materials for two             provide related job placement.       The contracts also
Job Corps centers and outreach, screening, and place-             provided for instructional materials, tools, and uni-
ment services for the Job Corps program. Our audit of             forms for instructors and trainees. The Trust Fund
the indirect costs claimed by the Council for 1987                boughtinbulkandstockedtheitemssotheywouldhave
resulted in audit exceptions totaling over $148,000 and           them whenever needed.        The Trust Fund's director
a $1.2 million increase in the allocation bases,                  informed us they routinely charged Job Corps 20 per-
                                                                  cent more than the Trust Fund paid for the merchan-
Most of the audit exceptions related to unallowable               dise. This 20 percent markup was used in lieu of
charges to the indirect cost pool for computer equip-             determining/allocating     actual expenses relating to
ment and consultants who programmed a new com-                    acquiring, storing, inventorying, and shipping the mer-
puter. The costs should have been capitalized as costs            chandise to the Job Corps centers.        However, the
of implementing the computer system and depreciated               auditors found that the average markup was substan-
systematically.    The remaining exceptions were for              tially higher than 20 percent, and it was significantly
unsupported     or inappropriate expenses such as per             more than needed to recover expenses. In that regard,
diem, travel, and promotional and legal expenses,                 for the period covered by the audit, sales exceeded
                                                                  purchases by $552,238. Actual related expenses com-
                                                                  puted by the auditors were only $75,176, resulting in a
NATIONAL PLASTERING INDUSTRY'S                                    profit of $477,062.
JOINT APPRENTICESHIP TRUST FUND
                                                                  The Trust Fund collected voluntary contributions of 1
Our audit of the National Plastering Industry's Joint             percent of wages from union members from across the
Apprenticeship Trust Fund, a private non-profit corpo-            country. The auditors noted that these contributions
ration, covered the period April 1984 through June                were not sufficient to cover the cost of conventions,
1988. The Trust Fund provides apprenticeship training             seminars, and other activities which the Trust Fund
and related activities to plasterer apprentices in support        held. As a result, the profits made on the sale of
of the local unions,                                              merchandise to Job Corps were used to subsidize these
                                                                  other union activities.
Audit exceptions total $605,618, of which $502,781 are
costs recommended for disallowance and $102,837 are
questioned costs.                                                 PIG ANALYZES COSTS INVESTED IN HUMAN
                                                                  CAPITAL IN THE JOB CORPS PROGRAM
The costs recommended       for disallowance   consist of
$477,062 of profit (net of related expenses) incurred by          JTPA, under which the Job Corps program operates,
the Trust Fund and $25,719 of interest earned on the net          emphasizes that job training is an investment in human
profit through June 30, 1988. Under cost reimbursable             capital and mandates that criteria for measuring the
contracts, the contractor is to be reimbursed only for            return on this investment be developed. In our report,
actual costs incurred; profits are not allowed.                   Analysis of Costs Invested in Human Capital in the Job
                                                                  Corps Program, we recognize that before the return on
The questioned costs consist of $102,837 for salaries             investment can be accurately calculated, the true invest-
and fringe benefits of four employees who did not spend           ment cost (financial input) must be identified and then
100 percent of their time on the DOL contracts and                related to the program's results (program output).
subcontracts. In that regard, three of the four employ-
ees were charged exclusively to either the DOL con-               Previous PIG reports presented and attested to the
tracts or subcontracts, yet the auditors determined that          accuracy of Job Corps financial input and program
from 5 to 20 percent of their time was spent on union             output. The audited financial statements (fiscal year




                                                             21
ended September 30, 1987) presented full costs on an             for 31 percent (18,721 participants costing $185 mil-
accrual basis, which recognizes costs when economic              lion); 10 percent pursued further education (6,409 par-
resources are consumed rather than when ordered or               ticipants costing $54 million); 2 percent entered the
paid for. The program results statements (program                armed forces (947 participants costing $8 million); and
year ended June 30, 1987) presented relevant place-              43 percent did not achieve successful employment within
ment statistics, in accordance with Job Corps reporting          6 months (26,293 participants costing $230 million).
requirements, on the people served by Job Corps.
                                                                 What Was The Result Of The Hnvestment In The
The OIG's analysis integrates and builds on these                Participants Who L_ft The Program In PY 1986?
earlier reports by matching costs with program results.
The flow of costs invested is tracked along with the             Job Corps output categories can generally be classified
related flow of participants in the program from thc             as eithcr positive or nonpositive. Participants in the
time of their enrollment until the time of their termina-        positive category found employment or entered the
tion. The report analyzes this flow of costs for Job             armed forces, school or other training programs. Par-
Corps participants served during the program year                ticipantsin the nonpositivecategorywere  not employed
ending June 30, 1987.                                            within the 6-month period allowed by Job Corps or their
                                                                 status was unknown.
The report addresses the investment's initial result (for
a period which extends 180 days after termination) but           Our review of positive outcomes showed:
does not measure or present the ultimate return on
invested costs. Neither does it assess potential long-           Employed Matched- An investment of $132 million was
term benefits of Job Corps program participation, such           made for 8,576 or 14 percent of the participants who
as increased earnings and reduction in public assistance         found employment in an occupation that matched the
or unemployment,                                                 training rcccivcd.

The analysis answcrs various questions about Job Corps           Employed Not Matched - An investment of $185 mil-
cost and program output, as detailed in the following,           lion was made for 18,721 or 31 percent of the partici-
                                                                 pants who found employment but in an occupation that
What Were The Total Cumulative Costs Invested In                 did not match the training rcceivcd.
Job Corps Participants Who Were Served During PY
1986?                                                            Entered School or Other Training - An investment of
                                                                 $62 million was made for 7,356 or 12 percent of the par-
Job Corps invcstcd $1.1 billion of cumulative costs in           ticipants who terminated from the program and pur-
59,592 participants enrolled in the prior ycar who con-          sued furthcr education or entered the armed forces.
tinued either their training activity or secking employ-
ment during the current year as well as 63,628 partici-          Our rcview of nonpositive outcomes showed:
pants who enrolled during the current ycar.
                                                                 Training resulted in no employment or other positive
What Happened To The Participants Served?                        outcome. An investment of $230 million was made in
                                                                 26,293 or 43 percent of the participants who terminated
60,946 participants tcrminatcd from the program after            from the program and found no cmployment within the
$609 million was invested in them. 58,274 participants           6-month period allowed.
with $491 million invested in them were still in the
program at year end.                                             The average invested cost per participant varies de-
                                                                 pending on the output achicvcd. Invested costs are a
What Is The Nature Of The Investment In The 60,946               function of the time a participant spends in the pro-
Participants who Left The Program In PY 1986?                    gram. Gcnerally, morc desirable results are achieved
                                                                 as time and related costs invested in the program
Job Corps investment in the 60,946 participants who left         increase.
the program in PY 1986 was $609 million. Of these,
employment was matched for 14 percent (8,576 partici-            By determining the financial input and program output
pants costing $132 million); employment was not matched          of a major Federal program and by matching the input




                                                            22
with key output, we believe that this report achieves, for        ciples is    reported by the SESAs. Consequently, the
the first time, a significant milestone in Federal pro-           Secretary      of Labor cannot be assured that necessary
gram accountability. Job Corps is to be commended for             financial   information is being accurately and completely
its participation,                                                reported     or that the ERIs reported by most States can
                                                                  be relied    upon.
Unemployment Insurance Program
                                                                  Twenty-six (49 percent)     of the 53 SESAs we surveyed
The Social Security Act of 1935 authorized the Unem-              did not use general ledgers to track State trust fund
ployment Insurance (UI) program which is'a unique                 transactions. General ledger use, through its applica-
Federal-State partnership that is based upon Federal              tion of simple double entry accounting, provides basic
law, but is implemented through individual State legis-           controls to assure accuracy in recording transactions.
lation.                                                           In addition, improvements were needed in the general
                                                                  ledgers currently being used. We found weaknesses in
This program is administered by the State Employment              the account structures and the linkages to subsidiary
Security Agencies (SESAs). At the Federal level, the              systems to support the general ledgers. Also, accounts
Unemployment      Insurance Service (UIS) of ETA is               were being used differently by the SESAs.
charged with ensuring proper and efficient administra-
tion of the UI program.                                           Based on our survey of 53 SESAs and a more detailed
                                                                  review of 6 SESA accounting systems (Delaware,
During this period, we evaluated the adequacy of the              Maryland, New Jersey, Utah, West Virginia, and Wis-
State accounting systems for their unemployment in-               consin), we determined that, of the 27 SESAs that used
surance trust funds, particularly with respect to ac-             general ledgers, only 3 (Wisconsin, New York, and
counting for their experience rating systems.                     Michigan) account for all experience rating elements in
                                                                  their general ledger systems. To fully account for
STATE ACCOUNTING          SYSTEMS                                 experience rating, which means being able to accurately
                                                                  compute an ERI, a SESA must account for both em-
Federallawpromotestheuseofexperienceratinginthe                   ployer and socialized equity. Complete information
UI program. Experience rating embodies the concept                provides the basis for informed analyses and conclu-
that higher risks, as reflected by past experience with           sions on the effectiveness of a State's experience rating
unemployment, should be reflected by higher premi-                formula and writeoff provisions, tax rate tables and
ums.                                                              specifically the maximum tax rate, taxable wage base,
                                                                  noncharge provisions, successor/predecessor       require-
In our 1985 review, we found that the degree of experi-           ments, and tax rate(s) for new employers.
ence rating varied among the States, and that the evi-
dence indicated a decline in the level of experience              We also identified issues in Federal reporting in the six
rating, as measured by an experience rating index (ERI).          State accounting systems that we reviewed. Some data
Further, controls were needed to ensure the validity of           in the Federal report did not agree with that in the
ERIs.                                                             underlying accounting systems. Thirty-four Federal
                                                                  reports which contained transaction information and
We recently issued a draft report which addressed the             related data were reviewed. Much of this financial data
accounting control requirements.      Though our specific         should have been backed up by certain accounting
concernwas the information for the ERI, we found that             entries. In many instances, however, the data did not
controls are needed to ensure proper accounting and               agree with the accounting records.
reporting for all financial transactions of a State trust
fund. Properly designedandmaintainedStateaccount-                 A comprehensive     solution to these problems is an
ing systems would ensure the validity of the ERIs and all         accounting system that would integrate the automated
other Federal financial reports. We found numerous                benefit and tax systems with a general ledger. Our
problems in those we audited,                                     review of the six State trust fund accounting systems
                                                                  showed that:
Accounting systems and procedures were inadequate
at most SESAs. Controls or systems were not in place                  1. Limited integration exists between the auto-
to ensure that accurate financial information in compli-              mated tax and benefit systems and the trust fund
ance with Federal generally accepted accounting prin-                 general ledgers.




                                                             23
    2. The tax systems record most of the basic trans-           Federal Equity in Real Property
    actions necessary to maintain a general ledger but
    were designed to support contributory employer               We have issued a draft report to ETA summarizing our
    tax rates, and not other components of the experi-           national effort to determine DOL's equity in real prop-
    ence rating system or a general ledger,                      erties owned by States. Since these properties were
                                                                 funded with Federal grant funds, the Federal Govern-
    3. Commercially available general ledger packages            ment has equity in them.
    could be used to integrate the benefit, tax and gen-
    eral ledger systems and prepare standardized Federal         Equity in real properties titled in the name of States is
    and State reports,                                           a substantial asset of the nation's employment security
                                                                 program. The value of this equity approximated $297
Recommendations      were made to the Assistant Secre-           million (at cost), as of September 30,1988. Fair market
tary for Employment and Training to improve state                value of these assets could exceed $1 billion.
unemployment insurance accounting, experience rat-
ing accounting, and Federal reporting.       We recom-           ETA has relied almost exclusively on SESAs to account
mended that ETA assist the SESAs in improving their              for and maintain control over real property paid for
accounting systems; instruct States to fully account for         with grant funds. This practice has placed DOL's equity
both employer and socialized cost elements of experi-            at risk.
ence rating; evaluate the efficiency and effectiveness of
the Federal reporting requirements; and provide sup-             We found that ETA has not accounted for DOL's equity
port to upgrade state accounting system automation,              in 472 State properties. We also found that the SESAs'
                                                                 and ETA's actions were not always consistent with
ETA currently is evaluating our recommendations    and           OMB standards.
developing an approach to improving State accounting
systems. The solutions will require a long-term effort.          Consequently, we identified some dispositions in which
There are no quick f'LXeSto some of the problems.                DOL had not been adequately compensated when
                                                                 properties were no longer used for employment secu-
In conjunction with our review of State accounting               rity purposes. In four States, circumstances were sig-
systems, we developed a model State accounting system            nificant enough to issue separate audit reports. We
to address the identified weaknesses. The model sys-             recommended that ETA take the necessary steps to
tem was developed from our evaluation of State ac-               recover over $2.9 million (including interest) Federal
counting systems in six States. This model was provided          equity from 10 properties. We also found two proper-
to ETA for consideration in developing their corrective          ties for which appraisals must be obtained before the
action plan.                                                     amount of equity due the Federal Government can be
                                                                 determined.
STATE     EMPLOYMENT         SECURITY       AGENCIES
(SESAS)                                                          ETA policy regarding approval of acquisitions and
                                                                 dispositions of grant funded real property gives the
SESAs administer Federal and State unemployment                  States more discretion than OMB guidelines allow.
compensation laws and programs and operate the public            ETA has not recognized the importance of exercising
employment service, a national system providing no-fee           its approval authority over SESA real property actions.
employment services to individuals seeking employ-               Consequently, ETA has no assurance that State real
ment and employers seeking workers. The unemploy-                property transactions are in the best interest of the
ment compensation program operates through a Fed-                employment security program.
eral-State cooperative relationship in which the major
functions performed by the States are the collection of          We recommended that ETA:
State taxes from employers, determination of benefit
entitlement, and payment of benefits. Federal funds to               1. Establish annual real property accounting and
administer the labor exchange system are provided by                 reporting requirements for the States.
statutory formula to the States.
                                                                     2. Establish and maintain a national property in-
During this reporting period, we completed audit work                ventory for reconciliation wit h State records.
on Federal equity in real property owned by the States
and on the Atlanta regional reserve account.




                                                            24
    3. Obtain formal recognition of DOL's equity from                 3. Review each regional office's activities to deter-
    each State's attorney general's office at the time the            mine whether redistributions are occurring through
    State begins applying grant funds toward the acqui-               a reserve account or some other method.
    sition of real property.
                                                                      4. Enforce national office policies requiring the re-
    4. Establish a national real estate specialist posi-              gional offices to obtain approval before redistribut-
    tion to assist both States and DOL in all real                    ing funds.
    property equity transactions.
                                                                  In its response to the draft report, ETA agreed to issue
    5. Revise or clarify its real property acquisition and        a directive reiterating its policy and guidelines about the
    disposition policies so that they are consistent with         authority and procedures to redistribute funds, and
    Office of Management and Budget guidelines,                   agreed to examine all State financial information to de-
                                                                  termine if other redistributions occurred.

Atlanta Regional Reserve Account
                                                                  BUREAU       OF LABOR           STATISTICS       (BLS)
We also issued a draft report to ETA on the operation
of the Regional Reserve Account (RRA)maintained by                The Bureau of Labor Statistics (BLS) is the Depart-
ETA's Atlanta regional office. We found that the                  ment's principal data-collection agency in the broad
regional office:                                                  field of labor economics. BLS provides data on employ-
                                                                  ment and unemployment statistics, the Consumer Price
    1. Redistributed appropriations totaling $5.3 mil-            Index, work stoppages, and productivity measures. The
    lion among SESAs in the southeast, in violation of            BLS fiscal year 1989 budget authority totaled $234
    ETA national office policies,                                 million with a staffing level of 2373.

    2. Neither maintained adequate records fully dis-             The OIG completed an information resource manage-
    closing the RRA's operation, nor properly docu-               ment audit in BLS in the last 6 months.
    mented entries to ETA's accounting system.

    3. Cooperated with the SESAs in spending unem-                BLS Local Area Networks (LANs)
    ployment insurance funds obtained through the
    RRA for activities not authorized by statute.                 To meet programmatic requirements, BLS relies heav-
                                                                  ily on automatic data processing (ADP). A critical part
Use of the RRA undermined attempts of ETA's na-                   of BLS' ADP environment is the use of Local Area
tional office to review proposed funding shifts on a              Networks (LANs) -- a relatively new strategy for pro-
nationwide basis and serve the most critical program              viding end-user ADP support. The agencywide LAN
needs. The regional office improperly redistributed               system consists of 15 individual LANs, 13 of which are
funds to SESAs participating in the RRA and, in so                interconnected.   The system supports approximately
doing, assisted them to spend program funds for ques-             1300 workstations with close to 1600 registered users.
tionable purposes.    We believe these activities are             We estimated that the BLS LAN costs approximately
inconsistent with program monitoring responsibilities.            $10.3 million with almost 29 percent for support serv-
                                                                  ices.


We recommended      that ETA's Assistant Secretary:               BLS has implemented a successful LAN management
                                                                  program and its LAN system's configuration, network
    1. Remind the regional offices and the SESAs of               availability, and performance    are well managed.
    their responsibility to spend administrative funds
    within the provisions of the statutes and regula-             The agency can, however, improve its security, inven-
    tions,                                                        tory management, and network problem diagnosis. BLS
                                                                  should improve the LAN system's installation security,
    2. Inform the regional offices and the SESAs that             access controls, and system accounting logs. Most
    arrangements, such as using the reserve account,              critically, due to the limitations of the 3Com operating
    violate policy,                                               system, BLS has problems with access controls. Sec-




                                                             25
ond, BLS can strengthen its configuration management             The following information, taken from the audited
with a centralized network component inventory. Third,           financial statements, was presented as financial high-
BLS should provide its technical personnel with more             lights in the Department's report. The first chart below
sophisticated tools to diagnose network problems. These          shows the major revenue categories by source for the
tools could reduce downtime when the network fails.              Department.     DOL's expenses are presented on the
Finally, BLS can also improve its policies and proce-            Statement of Operations by major functions, by DOL
dures, training, and application management,                     agency and by object class.

BLS management has either taken or has agreed to                 As indicated on the second chart, the largest category of
take corrective action on all our recommendations,               expenses was benefits. Benefits for unemployment and
                                                                 workers' compensation represent 64.6 percent of the
                                                                 Department's total expenses.
DEPARTMENTAL               MANAGEMENT

                                                                    MAJOR SOURCES OF REVENUES
Departmental     management refers to those activities                                         FY'88
and functions of the Department which formalize and
                                                                                                    011.IE'R- 'tAx
implement policies, procedures, systems, and standards                          ,rrrRt_r-   ,r,
                                                                                 $2,SS$ U..UON
                                                                                                      Iz_ -umN
to ensure efficient and effective operations of adminis-           Rt-,_RSt_tmS- 4_x          J'-"-rw'_-_    _"ta_-- ntw,_uts- IS.SS
trativeandmanagerialprograms.       The Assistant Secre-               I,.so,._os / _ _ \            II
                                                                                                     II    _    X _"_""_
                                                                                                                    co*_.
                                                                                                                        ,AXrS - _.ex



During this audit period, the DOL consolidated finan-
cial statements for fiscal year 1988 were audited. In
addition, reviews of contract management were re-
responsibility.taryf°rAdministrati°nandManagementhas°versight
ported.                                                                          _                                   _,=u._
                                                                     UN[tdPLOYMEt_TAXIS _ 69.4_
                                                                           _._, 178 El_.UON

DOL    Consolidated       Financial     Statements                                            $33,3a5,000,000
                                                                                 tOtALR£V[NUI:$:

The consolidated statement of financial position and
the related statements of operation, changes in finan-           Also, as highlighted on the following chart, 85.7 percent
cial position and reconciliation to budget reports for           of the Department's expenses were actually incurred by
fiscal year 1988 were audited. The statements provide            State governments, local governments or other organi-
a summary level financial report. Supplementary finan-           zations.
cial statements are presented for DOL's program agen-
cies and for the various types of funds administered by               DOL EXPENSES BY MAJOR CATEGORY
DOL.                                                                               IrY'S8

The draft report contains the opinion that, except for
the scope restrictions concerning taxes receivable and                      0o_-,,onmm.e_p          N0_'-t'rA
advances, the statements represent fairly the consoli-                      _.,_5 .,_oN -
                                                                    0OL.-OITIEREXPENSES 6._,       _ _        - I.ls
dated financial position of the U.S. Department        of          s,_     =tut_- _x _            IJ   _             rv._s
Labor as of September 30, 1988, in conformity with                                 /_             _         ",,_,og, =,tu_ - _._x
generally accepted accounting principles for Federal
agencies. The fiscal year 1987 consolidated financial
statements have been restated to reflect a change in the
method of determining the liability for future workers'
compensation benefits from an estimation method to
an actuarial method,                                                     t_n_pto_r_ _rrr
                                                                      113,6BI _LUON -   _.SZ




                                                                                  TOTAL [XPEN$1[S: $23,384,000,000




                                                            26
Report on Internal Controls. This draft report identi-            vide any new or supporting documentation to establish
ties internal control weaknesses related to the financial         that defective pricing did not occur. We continue to
accounting and reporting system; advances to grantees;            recommend for disallowance a total of $99,186 and to
Black Lung accounts receivable; accounts payable and              question $1,046.
undelivered orders; ETA grant and contract manage-
ment; state reporting of delinquent employer taxes and            In a management letter to ETA, we described the
benefit overpayments; and accounting controls over the            deficiencies in the Littlejohn contract and advised ETA
Federal Employees' Compensation Account.                          that such deficiencies may be present in other procure-
                                                                  ments. ETA should review the circumstances of the
Report on Compliance. This draft report notes no ma-              Littlejohn procurement to determine whether systemic
terial instances of noncompliance with laws and regula-           problems exist in negotiating, awarding, and monitor-
tions,                                                            ing contracts.


Procurement                                                       Data Transformation     Corporation   (DTC) Contract

Littlejohn Associates, ETA Contractor                             In September 1989, we issued a final financial and
Uses Defective Cost/Pricing Data                                  compliance audit report on costs billed by DTC to the
                                                                  Department during the contract period of October 1986
On August 4, 1989, a final report was issued on the               through October 1987. The prime contract was be-
contract between Roy Littlejohn Associates, Incorpo-              tween DOL and the Small Business Administration
rated and ETA. The audit covered the period May1985               (SBA); DTC was the subcontractor.        DTC, in turn,
through January 1987.                                             subcontracted with McManis Associates, Inc. The
                                                                  purpose of the contract was to assist ETA in its interme-
The purpose of the contract was to provide "logistical            diate and long-range information resources manage-
support services" to ETA to help arrange and set up               ment planning as well as to assist in the implementation
training gatherings, conferences, and meetings,                   of such plans.

We believe the contractor used defective cost/pricing             The audit was performed to determine the validity of
data in negotiating the fixed fee portion of the contract,        the costs billed to DOL and to evaluate the propriety of
Because the contractor provided faulty and inaccurate             the costs in relation to the deliverables produced for the
staffing cost information which resulted in an inflated           contract. Total costs billed to DOL were $592,780 by
fixed fee rate, we recommended that $98,244 be disal-             DTCand$411,368byMcManis,            foratotalof$1,004,148.
lowed. Further, $942 involving travel reimbursements
to nonfederal participants was recommended for disal-             The audit resulted in questioned costs of $190,115 and
lowance.    Our report also questioned $1,046 which               costs recommended for disallowance of $6,348. The
resulted from inadequately documented travel allow-               questioned costs consisted of $95,758 of direct labor
ances and training conference activity fees.                      which was charged against contract task orders but was
                                                                  not supported by time sheets; of $88,832 of direct labor
In responding to the report, the contractor stated that           which exceeded task order funding limitations; and of
no defective pricing information was supplied to ETA              $5,525 of travel costs which were not supported by
during the contract negotiations. Littlejohn contended            invoices or vouchers.
that the cost and price information regarding current
staffcosts and estimated future costs submitted to ETA            ACCESS      TO RECORDS
were based on information available at the time of
negotiation.  Littlejohn further stated that all travel           During this semiannual period, instances occurred where
costs should be allowed since the contractor was merely           access to records or assistance requested was unrea-
the paying agent for ETA, and he submitted travel costs           sonably refused, thus hindering the IG's ability to con-
to ETA for review prior to payment,                               duct audits.

After reviewing the contractor's response, we con-                Section 6(a)(1) of the IG Act of 1978 authorizes the
eluded that the information supplied was insufficient to          Inspector General access to all program and opera-
alter our recommendations.    Littlejohn failed to pro-           tional material with respect to which the IG has respon-




                                                             27
sibility under the Act. Section 6(a)(3) of the Act author-        an objection to this order and a hearing was held in U.S.
izes the IG to request information or assistance neces-           District Court on 8/30/89. At the hearing the judge re-
sary to carry out legislatively assigned functions from           quested additional information from TTD and the U.S.
any Federal, State, or local governmental       agency or         Attorney, and a second hearing will be held on 10/4/89.
unit. Section 6(a)(4) authorizes the IG to subpoena
data and documentary evidence necessary to perform                New Orleans Client Center (NOCC). During our audit
duties and responsibilities required under the Act.               of the City of New Orleans JTPA program, we had
                                                                  received access to records for NOCC's PY 86 and PY 87
The following subpoenas    have been issued during this           cost reimbursement     contracts.  On 4/18/89 we re-
period:                                                           quested all records for a PY 85 fLxedunit price contract
                                                                  paid out in PY 86. NOCC refused our request. On 4/
JTPA GRANT FUND PROTECTION,              CITY OF NEW              20/89 we issued a subpoena ordering NOCC to pro-
ORLEANS SDA                                                       duce these records by 5/5/89. NOCC refused to com-
                                                                  ply with our subpoena. At this time enforcement of this
We have issued subpoenas to three private-for-profit              subpoena was held in abeyance pending the outcome of
contractors of the City of New Orleans' JTPA program,             the TTD hearing. This is due to the relationship be-
These contractors have, thus far, refused to comply,              tween the two companies; both TTD and NOCC are
Details regarding the subpoenas are summarized be-                owned by the same persons.
low.
                                                                  Orleans Regional Security Institute (ORSI). On 6/22/
Technical Training Designs (TrD).       On 2/28/89 we             89 we requested all records related to JTPA activity for
requested all records for all PY 86 and PY 87 contracts           PY 86 and PY 87. ORSI refused our request. On 7/10/
ofTTD. TTD refused our request for these records. On              89 we issued a subpoena ordering ORSI to produce the
3/7/89 we issued a subpoena ordering TTD to produce               records on 7/28/89. This due date was subsequently
their records by 3/17/89. TTD refused to comply with              extended to 8/4/89. ORSI refused to comply with the
our subpoena.     Through the U.S. Attorney in New                subpoena. On 8/17/89 the U.S. Attorney filed a Peti-
Orleans, we are currently pursuing enforcement of this            tion for Enforcement and a hearing before the U.S.
subpoena. On 6/30/89 a Federal magistrate issued an               Magistrate was scheduled for 9/20/89.      This hearing
order for TTD to comply with our subpoena. TTD filed              has been rescheduled for 10/4/89.




                                                             28
                                            OFFICE OF AUDIT

                               Job Training Partnership Act (JTPA):
                                  How Do We Know Who Benefits?


At this juncture, after 7 years of JTPA and $18.5 billion in program expenditu res, no one knows
whether the return on investment has been productive or whether established program
standards have been effective.

JTPA was enacted in 1982 to establish programs pro-              In the State of Kentucky, as part of an incentive package
vidingjob training to economically disadvantaged indi-           to bring Toyota Motors Manufacturing to Kentucky,
viduals, individuals facing serious barriers to employ-          the State spent JTPA funds to train individuals for jobs
ment, and dislocated workers who need the assistance             at the plant. Most of the individuals trained were fully
of such training to obtain productive employment.     In         employed prior to training and did not qualify under any
passing JTPA, the Congress recognized that job train-            provisions of JTPA. Moreover, the types of training
ing is not an expense but an investment in human capital         offered were not allowable under the applicable section
and mandated that criteria be developed to measure the           of the Act. Consequently, eligible participants were
return on that investment. More specifically, the Con-           denied the opportunity to receive the type of training
gress stipulated that the return be measured by in-              intended by JTPA. Since our report was issued, Ken-
creased employment and earnings of participants and              tucky has refunded $2.58 million to JTPA.
reductions in welfare dependency.
                                                                 Our audit of The Oregon Consortium, an SDA serving
Since program inception, approximately $18.5 billion             27 counties in that State, disclosed that the Consortium
has been allocated to States for JTPA Titles II and III.         neither required nor evaluated contractor cost and
                                                                 price information. In our review of 20 of 45 contracts,
JTPA relies on ETA-established        national program           contractors earned profits of about $4.2 million from
performance standards. But governors have the option             JTPA allotments totaling $25.8 million. Because no
of either adjusting the standards to accommodate local           cost or price analysis was performed, we could not
conditions or establishing standards of their own. ETA           determine if the price and profits were reasonable and,
is funding a major JTPA national study in 14 sites;              therefore, allowable under the Act.
however, results are not expected until 1991. A few
individual States have published reports on net pro-             In Wayne County, Michigan and Kansas City, Mis-
gram impact within their States. A National Commis-              souri, we found on-the-job training (OJT) brokers
sion for Employment Policy report on "Using Unem-                functioning as intermediaries    who claimed payments
ployment Insurance Records to Evaluate Pre-Post JTPA             for participants who neither completed training nor
Program Earnings" in 11 States was to be published in            were placed in permanent jobs. (JTPA brokers receive
April 1989. This initiative was ETA's way of addressing          payment from the SDA for achieving benchmarks and
OIG concerns that no adequate measurement or analy-              they, in turn, pay the employer 50 percent of the partici-
sis of the return on investment existed and, as part of          pant's wages.) We also found that participants had been
resolving the audit recommendation       with the OIG,           hired by OJT employers prior to the training contract
ETA agreed to partially fund the Commission's project,           and the employers inflated or submitted false claims of
Project results have not yet been reported,                      training hours or pay rates. As a result, we determined
                                                                 that over $178,000 of expenditures were unallowable.
Success in JTPA depends upon the Federal and State               (The Wayne County OJT issue was discovered by the
partners being accountable to each other and to their            SDA, which requested our audit.)
congressional funding source. Our audit work consis-
tentlyshows lack of accountability at all program levels,        A Houston JTPA contractor enrolled and trained par-
and numerous situations which we believe are abusive,            ticipants as security guards at a cost of $3,000 each. We
Examples follow,                                                 believe that the majority of the $583,000 paid for these



                                                            29
services was inappropriate because the contract called              procurement, recordkeeping, reporting, and monitor-
for 400 hours of training for each participant when the             ing. Many of these issues are being addressed through
State requirement for registration as an armed security             legislative initiatives or the audit resolution process.
guard requires only 26 hours of training; many of the
participants had criminal records which precluded State            Program Targeting. Our January 1988 report on Par-
registration as security guards; many of the participants          ticipant Training and Services identified a serious short-
already had experience as security guards and required             fall in the program serving those most in need. Further,
no further training; and placements were made into                 data being collected was insufficient to allow an evalu-
jobs other than security guard positions,                          ation of whether the right people were receiving serv-
                                                                   ices. Approximately 60 percent of JTPA clients were
 Our review ofa contract between the Mississippi JTPA              high school graduates, and 50 percent of the JTPA
 Summer Youth program and the Mississippi Depart-                  terminees were unemployed 4 1/2 months after termi-
ment of Education found that a fixed unit price, per-              nation. Reductions in adult welfare dependency, a key
formance-based contract (FUPC) was used, even though               congressional measure of return on investment, were
readily available cost data indicated that a "cost reim-           less than 5 percent.
bursement" contract was clearly more economical at a
cost per participant of $778. The cost per participant             The proposed JTPA amendments all contain provisions
under the FUPC for the same training was $1,225.                   to target the program more specifically toward serving
Further, a profit of $1.15 million, or 23 percent, of the          individuals with multiple barriers to employment. This
$4.9 million award was actually budgeted into the con-             program redefinition is a positive step; however, the
tract. The contract was structured and funded in a man-            complementary element of how best to serve the tar-
ner that made profits almost a certainty. The Depart-              geted population is still unknown.
ment of Education received 85 percent of the contract
price when the participant enrolled and completed                  The proposed JTPA amendments also call for manda-
training. The remaining 15 percent of the fixed unit               tory data sharing between the Departments of Educa-
price was paid when participants achieved the pro-                 tion, Health and Human Services, and Labor. This data
gram's goal -- an 8-month gain in math and reading                 sharing is essential for developing measures which
skills. If none of the participants achieved that goal, the        address goals of long-term employability and reduc-
contractor would still have received a $98,000 profit,             tions in welfare dependency. We recommend, however,
                                                                   that H.R. 2039 more specifically prescribe data ele-
We believe these are abuses of JTPA and that legisla-              ments, such as uniform outcome measures, which must
tion is needed to improve basic program accountability             be uniformly collected across agency lines and within
to prevent such abuse. Currently, the Senate (S. 543),             DOL itself. Proposed JTPA amendments and the Jobs
the House (H.R. 2039 and H.R. 3266), and the Admini-               Program under the Family Support Act require data
stration have all proposed amendments to JTPA which                collection on the number of individuals experiencing
should increase accountability,                                    multiple barriers to employment as well as information
                                                                   relating to improved education and occupational skills.
OIG TESTIMONY
                                                                   If national performance statistics are to be collected
The OIG has, on two occasions, testified on the pro-               and used to evaluate the program, uniform definitions
gram and proposed amendments. In September 1988,                   applicable to all States must be developed.
OIG testimony cautioned that the program needed to:
(1) enhance JTPA program targeting to better serve                 Toavoidstiflinglegitimateinformationcollection,     H.R.
the most-in-need of the eligible population; and (2)               2039 may need to direct legislatively the collection of
eliminate 20 CFR 629.38(e)(2), which, in certain cases,            specific measures for program targeting and evalu-
allows JTPA costs to be allocated entirely to the train-           ation. In response to our initial report on JTPA Partici-
ing category irrespective of the cost categories that              pant Training and Services, ETA implemented stan-
actually benefited, from JTPA regulations to increase              dards for job retention and post-program earnings and
program accountability and to prevent program opera-               requested permission to collect other relevant informa-
tors from violating the law.                                       tion on skills deficiencies and competency attainments.
                                                                   ETA's request to collect uniform pre-program infor-
In September 1989, OIG testimony centered on six                   mation on skills deficiencies was rejected by OMB and
specific program areas which need greater accountabil-             measures of competency attainments took more than 2
ity to prevent abuse: targeting, cost accountability,              years to gain approval.




                                                              30
Cost Accountability. The Congress intended, and the               again, this time retroactively at the contractor's request,
Act requires, that at least 70 cents of every JTPA Title          to allow an additional payment of $292,000. Thus, a cost
II-A dollar be expended for training and that funds               reimbursement contract was effectively created 6 months
spent for administration and participant support serv-            after the fact.
ices be limited. Since the program's inception, it has
become more difficult to determine whether JTPA                   In March 1989, ETA issued an interpretation         of the
recipients have complied with basic program restric-              regulation governing FUPCs which attempts to guide
tions on cost limitations and unreasonable profits be-            the JTPA system toward writing "acceptable" fixed unit
cause the system is increasingly relying on fixed unit            price, performance-based    contracts. ETA conceded,
price, performance-based     contracts (FUPCs).                   however, that many of the elements of its interpretation
                                                                  are "policy provisions recommended for adoption by
ETA's regulations, at 20 CFR 629.38(e)(2), govern                 States and are not found within the specific language of
FUPCs and allow JTPA costs to be allocated entirely to            20 CFR 629.38(e)(2) and, therefore, are not required."
the training cost category, charging none to the admini-          The OIG continues to find no basis in the statute for the
stration and participant support cost categories, if the          regulation's existence and believe that its continued use
agreement with the service provider is for training, and          effectively neutralizes the congressional mandate on
if full payment is contingent on the participant's com-           spending limitations within the program's cost catego-
pletion of training and placement in the occupation               ries.
trained for at or above the agreed-upon wage. These
contracts entail some assumed risk on the provider's              If the regulation remains, JTPA amendments can take
part.                                                             several steps to bring accountability for the cost limita-
                                                                  tions into the program. A key amendment would be to
Program management has never clearly defined the                  legislatively require, as H.R. 3266 does, that the Secre-
specific requirements under which to use this contract-           tary of Labor specifically define the cost categories.
ing method.      Interpretation is left open on critical          However, the OIG suggests that these definitions refer-
elements such as what activities are defined as training,         ence activities defined under Section 204 of the Act and
what constitutes acceptable risk, what comprises place-           relate allowable cost charges to the categories to the
ment, and what accounting records are to be main-                 extent that those categories receive benefits. The OIG
tained. As a result, program operators have designed              supports provisions of the Administration's      proposal
contracts which charge all costs to training when, in our         which require a breakdown of cost components and
opinion, at least some contract costs should be classified        charging these costs to the appropriate cost categories
instead as administration or participant support,                 in all but very limited circumstances, as defined in
                                                                  Section 141(d)(3) of the Act.
For example, because The Oregon Consortium exclu-
sively used FUPCs, our auditors were unable to assess             Another suggestion is to establish a fourth cost cate-
the allowability of costs or compliance with the cost             gory, described as "Employment Assistance Services,"
limitations. The result was an audit recommendation               for activities such as job search, counseling, employer
and an ETA requirement that the State reconstruct                 outreach, and work habit modification.        This would
records supporting expenditures of $40 million to allow           isolate the funds spent on true training and parallel the
proper assessment.                                                JTPA Title III Economic Development and Worker
                                                                  Adjustment Assistance (EDWAA) program for dislo-
Currently, by using FUPCs as allowed by 20 CFR                    cated workers which identifies such services as "Basic
629.38(e)(2), contractors can avoid financial risks by            Readjustment Services."
establishing contractual payment points that ensure
expenses will be recouped and unrealistic profits earned,         The OIG does not mean to imply that it supports any
even in the event of less than full performance.     Our          particular percentages allowed per cost category nor an
audits have uncovered numerous situations where                   across-the-board    elimination of FUPCs, per se. It
contracts were modified to eliminate any penalty for the          merely points out that no accountability by cost cate-
possibility of contractor failure. For example, in one            gory presently exists for program expenditures and
contract, payment points for required referrals, mid-             current contracting practices have contributed signifi-
point completions, completions, placements, and job               cantly to this lack of accountability.
retentions were all reduced or revised when the con-
tractor was unable to satisfy contractual stipulations. In        Procurement. JTPA's original intent was to decentral-
fact, at the end of the contract period when some of the          ize procurement policy to the State and local level and
requirements still were not met, the contract was changed         to allow local decisionmakers to provide services that


                                                             31
meet local needs. In practice, the OIG has found that              In our opinion, the last example points out an issue
State and local procurement systems often are not de-              which H.R. 2039 has an opportunity to address. While
signed to procure training services. For example, OIG's            there may be a legitimate role for the private sector to
work in Colorado disclosed that the State central pur-             provide JTPA services, and fixed unit price contracting
chasing authority, having no specific guidelines for such          is one method of allowing these contractors a reason-
procurements, largely accepted at face value the pro-              able level of profit, there is no rationale for governmen-
curement actions forwarded by the JTPA entities, ef-               tal and non-profit entities to operate under profit-
fectively "rubber stamping" procurements.       The New            making FUPCs. Historically, these entities have oper-
Orleans SDA, on the other hand, exempts JTPA train-                ated quite successfully under cost reimbursement con-
ing procurements    as "professional services," thus al-           tracts and the evidence we have seen to date indicates
lowing JTPA purchases to go relatively unchecked,                  no need for change.
These situations create an environment where abuses
can occur.                                                         The need to limit use of FUPCs becomes more evident
                                                                   when considering data we collected as part of our audit
H.R. 3266, introduced by the Subcommittee on Em-                   work on program years 1984-1986. The data showed
ployment Opportunities, contains provisions which would            that for 18 frequently trained occupations, the cost
assure greater control over JTPA procurements. These               differential between providing that training via cost
provisions would establish minimum baseline procure-               reimbursement     versus fixed unit price, performance-
ment controls which all States must meet. They en-                 based contracts was significant. Our comparison showed
hanceoverallaccountabilityfor      procurement actions by          that, on average, FUPCs cost 42 percent more per
prohibiting conflicts of interest, requiring maintenance           contract while providing 26 percent fewer hours of
of procurement records, encouraging competition, and               training than did cost reimbursement contracts. When
requiring cost and price analyses in the award of JTPA             these two findings are merged to determine the average
contracts,                                                         cost per training hour, fixed unit price, performance-
                                                                   based contracting produces training interventions which
Without adequate procurement    controls, the system               cost 88 percent more than cost reimbursement        con-
will continue to ignore program integrity and waste                tracting does.
program funds.
                                                                   For example, cost reimbursement     contracts for sales-
FUPCs still offer the potential for excessive contractor           person training averaged $1,360 for 524 hours of train-
profits because no requirements exist for disclosure of            ing, while FUPCs for salesperson training averaged
profit margins or related cost and price analyses and              $2,400 for 274 hours of training. When these averages
contractors are free to set prices without regard to               are weighted by the number of participants, this differ-
actual costs. For example, OIG's review of the Fort                ential results in an average per training hour cost of
Worth SDA identified a contract under which the                    $2.66 under cost reimbursement     versus $7.37 under
service provider's costs were less than $6,400 while               fixed unit price, performance-based contracting--almost
profits exceeded $62,000.                                          three times more.        Similar differentials for vehicle
                                                                   mechanic training produced a cost difference per train-
As previously mentioned, OIG's review of The Oregon                ing hour of $2.48 versus $6.02. Overall, in all but one of
Consortium SDA identified contractors that had earned              the 18 frequently trained occupations, fixed unit price,
profits of $4.2 million from JTPA revenues of $25.8                performance-based       contracting   resulted in greater
million. Without cost and price analyses, the reasona-             program costs.
bleness and allowability of these profits could not be
determined. It is obvious, however, that profits directly          While our data represents an earlier period of time, the
reduce the amount of money available for training,                 use of fixed unit price, performance-based    contracting
                                                                   has grown significantly. If anything, current cost differ-
Finally, as discussed earlier, OIG's review of the Missis-         entials may be even greater.
sippi contract between the JTPA Summer Youth Pro-
gram and the Mississippi Department         of Education           Recordkeeping.    Recordkeeping, too often assailed as
showed that a 23 percent profit margin (or $1.15 million           an unnecessary intrusion of government upon the local
of a $4.9 million award) was actually budgeted into the            level, remains the chief means by which the Congress
contract. This contract was set up originally as a cost re-        and program officials are able to account for and
imbursement contract and, upon realizing the availabil-            evaluate programs.     The OIG strongly supports the
ity of additional JTPA funds, the contract form was                recordkeeping provisions of H.R. 3266. These provi-
changed to a FUPC. Costs per participant increased                 sions simply require any recipient, subrecipient,   or
from $778 to $1,225.                                               service provider receiving funds under JTPA to main-

                                                              32
tain records of revenues and expenditures for the dura-           for implementation of minimum, systemwide standards
tion of the grant, subgrant, contract, or other agree-            to resolve deficiencies affecting the entire JTPA system,
ment. This requirement is critical when dealing with              ETA's response has been that such minimum standards
fixed unit price, performance-based   contracts,                  are beyond ETA's control given the governors' discre-
                                                                  tionary authority. In the OIG's opinion, decentralized
Currently, ETA regulations do not specifically address            discretionary authority does not preclude ETA from
recordkeeping requirements governing these contracts,             promulgating directives to correct systemwide prob-
In practice, contractors are not required to maintain             lems.
any records beyond those which relate directly to con-
tract performance, such as participant records. Rec-              Similarly, we have observed that State oversight is inef-
ords of contractor expenditures and similar financial             fective. Even though compliance reviews performed by
records are not required to be maintained. In order to            the State disclosed problems and failures to meet ac-
complete our audit responsibilities and determine the             ceptable levels of performance, corrective actions were
propriety of both revenues and expenditures, the OIG              not always taken.
has found it necessary to use its statutory authority and
issue subpoenas for records which may have been kept.             For example, an SDA failed to meet one or more of its
We attempted to obtain records voluntarily in the New             required performance standards in each of the last four
Orleans SDA and were refused. Subsequently, OIG                   program years. To our knowledge, the State has neither
subpoenas were issued and compliance was still not                imposed sanctions nor reorganized the SDA's program,
forthcoming. Now, more than 6 months after our initial            as the Act requires.
requests, we are still awaiting the outcome of proceed-
ings in U.S. District Court to enforce these subpoenas.           In order to raise program oversight to a level which
                                                                  would assure proper and legal use of funds and prevent
Reporting.    Adequate program reporting allows the               abuse, the OIG recommends that the amendments
Congress to assess program performance and adher-                 contain provisions for the Department       to establish
ence to legislative requirements.     The current law, as         minimum requirements governing performance stan-
well as proposed amendments, identifies limitations on            dards management, procurement, recordkeeping, re-
certain costs as being applicable to funds available to an        porting, and monitoring which reflect baseline levels of
SDA for any fiscal year. The OIG believes that if the             acceptable program management.
amendments included provisions instead to require the
limitations be applicable to funds expended by an SDA             Summary. Many of OIG's recommendations          for JTPA
in any fiscal year, the ability to determine compliance           amendments focus on the JTPA system's use of fixed
with, and thus enforce, the statutory cost limitations            unit price, performance-based     contracting. TheOIG is
would be greatly enhanced. If theAct retains the"funds            not proposing that this method of contracting cannot
available" language, it also needs to report expendi-             serve a positive purpose in carrying out congressional
tures by year of obligation by cost category,                     program intent if its use is limited and well controlled.
                                                                  If written to assure reward only for legitimate risk
The OIG also believes that changes in the frequency of            taking, this contracting method can obtain a potentially
Federal reporting would improve stewardship over the              better product from the private sector for the funds
JTPA program. The OIG recommends that the amend-                  spent.
ments require quarterly financial reporting by States
and SDAs. Most entities' fiscal years end on March 31,            The OIG is proposing limiting the use of FUPCs to
June 30, September 30, or December 31. By requiring               private sector providers and prohibiting its use by gov-
quarterly Federal reports with these ending dates, in-            ernmental and nonprofit entities. Even when used by
formation contained on Federal reports may be closely             private sector providers, the amendments should re-
linked to the entity's audited financial statements,              quire that such contracting include provisions for cost
                                                                  and price analyses, defective pricing, recordkeeping
Monitoring. The final policy area which H.R. 2039 can             and conflict of interest.
positively impact is program oversight and monitoring.
Based on our observations, neither the Department nor             Amending the Job Training Partnership Act, we be-
the governors have placed sufficient emphasis on pro-             lieve, presents an opportunity to confirm the program's
gram oversight,                                                   original goals and objectives as well as to increase
                                                                  accountability and minimize abusive practices.       We
The Department's    interpretation of JTPA has consis-            encourage Congress to support legislation which will
tently provided the governors with the widest possible            result in a maximum return on investment, as originally
discretion. When audit recommendations     have called            envisioned 7 years ago.

                                                             33
                                            OFFICE OF AUDIT


                      Department's Management Commits to Building
                            New Financial Management Systems

Annual Department and agency level financial state-              separate financial statement audits of four agencies.
ments compiled and audited by the OIG for fiscal years           Our conclusions have been presented by agency in
1986 through 1988 identified significant accounting and          Chapter 1 of this section. For the past 3 years, the OIG
internal financial control deficiencies in such major            has combined its reporting of the Department's finan-
areas as grants management, UI Trust Fund account-               cial management activities in one central chapter to
ing, and general ledger controls and financial reporting,        highlight both their importance and OIG's long-term
Until this period, many of these problems remained               commitment to effective, efficient systems that produce
unresolved,                                                      reliable financial data and program statistics. In this
                                                                 period, we reported the results of our financial state-
The Department, within the last few months, has moved            ment audits within the agency/program       framework to
decisively to correct these deficiencies. Management is          reinforce our conviction that they support specific agency
committed to compiling fmancial reports required by              management activities.
the Treasury Department,      and the OIG is providing
technical assistance to achieve this goal for fiscal year        This year, for the first time, the OIG has also reported
1989. The Assistant Secretary for ETA also established           a cost analysis which compares and analyzes the finan-
a Task Force to resolve outstanding audit matters and            cial statements with program results for Job Corps.
review ETA's administrative systems. Departmental                This analysis will assist to evaluate program effective-
Management has continued to devote significant effort            ness and efficiency.
to developing several critical financial management
systems, including a new departmental accounting general         Past Financial System And
ledger system and a new financial management system
for ETA.                                                         Internal Control Issues

While we are encouraged by management's        actions,          In prior semiannual reports, our discussion of financial
issues remain to be resolved. We are concerned that the          statement audits included the results of limited internal
Department may be moving too hastily to implement                control reviews which, for most major departmental
the new general ledger system. The OIG is monitoring             systems, were complemented by more comprehensive
the Department's implementation of the new account-              controls and risk evaluations (CARE) of key financial
ing system and has identified significant problems within        management systems.
that system that should be resolved.
                                                                 These reports revealed significant accounting    or inter-
The OIG is also concerned about the Department's un-             nal control gaps and deficiencies in major areas such as
comfortable reliance on grantee financial information            financial reporting, general ledger controls, grants
that is of unproven accuracy and validity. Our financial         management, and UI Trust Fund accounting.
statement audits include only a limited review of the
financial reports from grantees.     The grantees are            Management Responds
covered under the Single Audit Act and we are cur-
rently assessing whether Single Audit coverage should            During the last 6 months, management has acted deci-
be supplemented or improved,                                     sively to correct accounting and internal financial con-
                                                                 trol deficiencies.
In fiscal year 1989, we continued to emphasize examina-
tion of the results of Government activities through our         FINANCIAL REPORTING
financial statement audits of the Department, agencies,
and programs. The OIG issued the third annual audit              After 3 years of relying on the OIG to compile accurate
of the consolidated statements of the Department. As             financial statements as part of the Department's annual
an integral part of these statements, the OIG issued             audits, management has embarked on a project to




                                                            34
compile financial statements in accordance with gener-            departmental general ledger accounts, and improve the
ally accepted accounting principles (GAAP) and pre-               accrual system for grant and contract expenditures.
pare accurate financial reports to the Treasury for fiscal
year 1989.                                                        RAS Operation. ETA management hired a CPA firm
                                                                  to develop a system of uniform accounting controls for
For the f'trst time, Departmental    Management and               RAS data entry at the regional offices. ETA is also
agency accounting personnel will cooperate to prepare             developing a methodology for monitoring the input
f'mancial statements.  In addition, the Department is             function to preclude the deterioration of accounting
working with the Department of Treasury staff. Man-               controls.
agement asked the OIG to support its effort through
technical assistance and training.                                Accruals.     The process used to accrue unreported
                                                                  grantee and contractor costs for entry into the Depart-
To reinforce the training, a detailed compilation guide           ment's Integrated Accounting System (IAS) was not
was provided. On-site technical assistance will be given          documented and did not produce adequate records by
to departmental   staff while the financial statement             individual contract or grant. Therefore, accrued costs
reports are compiled for submission to Treasury.                  of $1.6 billion could not be adequately tested and the
                                                                  accrual system couldnot be adequately evaluated. ETA
CONTINUING COMMITMENT                TO                           agreed to identify accruals monthly at the grant and
NEW ACCOUNTING SYSTEM                                             contract level.

A demonstration of management's commitment to correct             Advances. The [AS general ledger balances for ad-
continuing financial management and internal control              vances and the related expenditures for grants and
deficiencies is its commitment to a new departmental              contracts were not adequately supported by detailed
accounting system. The Department is relying on this              subsidiary records in ETA's accounting system, nor
system to resolve outstanding accounting problems, to             were discrepancies between the two systems timely re-
facilitate accurate financial statement preparation, and          solved. Unadjusted balances per the [AS general ledger
to comply with GAO, OMB, and Department of Treas-                 and ETA's subsidiary records reflected discrepancies of
ury accounting and reporting standards. The OIG has               $1.5 billion in advances and $264 million in expendi-
provided significant resources to this project,                   tures.

ETA TAKES ACTION IN AUDIT RESOLUTION                              ETA has agreed to make its accounting system a subsid-
                                                                  iary to the Department's new general ledger system.
ETA management has acted aggressively to resolve                  ETA will reconcile its accounts to the current depart-
longstanding OIG recommendations intheETAgrants                   mental general ledger.      Accounts which cannot be
management and UI Trust Fund accounting areas. A                  reconciled will be transferred to a control account for
task force, initiated by the Assistant Secretary, resolved        further review.
outstanding financial management audit recommenda-
tions and assessed the integrity of ETA's programs by             UI TRUST FUND (UTF) ACCOUNTING
reviewing the performance of all ETA's administrative             AND REPORTING
systems: procurement,       contracting, audit resolution,
internal controls, accounting, financial management               ETA agreed to take tremendous steps to improve
and program oversight. The OIG provided technical                 previously identified weaknesses in UTF accounting
assistance to the task force by reviewing its reports and         and reporting. These improvements require coopera-
recommending improvements to these systems,                       tion both within the Department of Labor and with the
                                                                  Department of Treasury.
As a result of ETA's actions, all audit recommendations
for ETA financial statement audit reports for fiscal              Trust Fund Receivables.     No controls have been in
years 1986, 1987, and 1988, and Job Corps financial               place to enable proper evaluation of UTF receivables.
statement audit reports for 1987 have been resolved.              Information has been inadequate to establish a reason-
                 '                                                able allowance for uncollectible accounts. For fiscal
GRANTS MANAGEMENT                                                 year 1988, these included $1.5 billion in delinquent State
                                                                  taxes and $1.1 billion in benefit overpayments. ETA has
ETA agreed to correct the following specific deficien-            directed the States to establish procedures to require
cies: improve operation of the Regional Accounting                and ensure that the States prepare an aging schedule of
System (RAS), reconcile advances recorded in the                  their delinquent taxes receivable and benefit overpay-


                                                             35
 ments. ETA is requesting OMB approval to require                did not operate correctly and individual user's assign-
 that they report this data quarterly,                           ments had not been made. Management considered
                                                                 OIG's concerns and has moved to address them. For
Federal Employees' Compensation        Account (FECA).           example, the Department      has agreed to modify its
ETA has agreed to institute internal accounting con-             approach to implement the new system. Specifically,
trois requiring monthly monitoring and reconciliation            management will concentrate more resources on its
of state reports of benefit payments to ETA billings to          core accounting system and develop the needed docu-
Federal agencies. ETA has also agreed to track Federal           mentation and design a contingency plan, using the
agency quarterly billings and collections by invoice.            Department's outdated accounting system, in the event
                                                                 that DOLAR$ requires additional work. The OIG will
UTF Reporting. Full activities of the UTF were not re-           continue its monitoring throughout the implementation
corded in ETA's accounting systems, the Department's             of the new system.
general ledger, and the Treasury Department's      re-
quired Report of Financial Position (SF-220). The               RELIANCE ON GRANTEES' REPORTS
Department has relied exclusively on reports filed by           tINDER SINGLE AUDIT ACT
the Treasury Department which do not include critical
(and required) information. ETA has agreed to assume            As required by GAO's Government Auditing Stan-
responsibility for preparing the required reports,              dards, OIG's financial statement audit reports contain
                                                                a report (opinion) on the financial statements, a report
Concerns Remain                                                 on internal control and a report on compliance with
                                                                laws and regulations.

Even though management has taken significant actions            Since 85.7 percent of the Deparlment's funds are ex-
during this period, several issues still remain. First,         pended by State and local governments, the reliability of
increasing concerns have arisen regarding the implem-           the Department's financial statements is dependent in
entation of the Department of Labor's Accounting and
                                                                large measure on the reliability of reports submitted by
Related Systems (DOLAR$).       Second, management              these State and local government grantees. Review of
and the OIG must rely heavily on the grantee financial
                                                                Single Audit reports indicates that the audit reports are
reports submitted to the Department    to account    for        not traceable to grantee financial reports and generally
85.7 percent of the Department's expenses,                      reveal too little regarding the extent of audit coverage of
                                                                specific programs.
DOLAR$ MAY NOT MEET REQUIREMENTS
                                                                Our financial statements include a limited review, but
The Department is relying on DOLAR$ to correct the              not an audit, of the financial reports from grantees. The
general ledger accounting and financial reporting deft-         primary financial audit coverage of DOL funds is pro-
ciencies previously identified in OIG financial state-          vided by audits under the Single Audit Act. The Act
ment audits. DOLAR$ is an off-the-shelf software                requires no fiscal or audit attestations specifically with
package which the Department is using to form the base          respect to DOL programs. Further, little can be deter-
of an integrated financial system. While monitoring             mined from the extent of coverage provided to DOL
DOLAR$'s development, the OIG observed and re-                  programs under the Single Audit Act.
ported to management several weaknesses, which if not
corrected, could hinder meeting Federal, departmental           The reason that little can be readily determined is that
and contractual requirements,                                   the degree of coverage is affected by several interre-
                                                                lated variables. These include entity definition, the
Several of the significant problems which were raised to        extent of sub-granting and sub-contracting, classifica-
management included the following issues. Inadequate            tion or non-classification as "major Federal program"
documentation of the system, including documentation            and resultant effect of sampling design, individual audi-
of user procedures and input controls, may create               tor'sinterpretationsofandcompliancewiththeAct           and
problems in training and initial operations. Internal           related OMB and AICPA guidance, and cognizant
controls have been weakened, e.g., through the allow-           agency oversight. Many of these variables are inherent
ance of bypassing edits and overriding reporting infor-         in the Single Audit concept and do not necessarily rep-
mation. Acceptance testing of the system components             resent audit quality deficiencies. However, because of
considered essential for FY 1990 operations has not             these variables, a clear risk exists of inconsistencies or
been completed. As of October 1, the security software          gaps in coverage of DOL funds.




                                                           36
Without more extensive knowledge of the degree to
which these audits are covering the Department's funds,
assurances which can be provided through the financial
statement audit regarding DOL programs operating
primarily at the State and local levels are greatly limited.
The OIG has, therefore, initiated an audit to determine
the extent of coverage given to the Department's pro-
grams under the Single Audit Act. The review is
designed to permit an assessment of whether single
audit coverage of DOL programs should be supple-
mented and whether implementation of the Act with
respect to DOL programs can be improved.                The
ultimate goal of this review is to ensure audit coverage
sufficient to enable the OIG to provide necessary assur-
ances with respect to DOL programs.




                                                               37
                                                       Chapter 2

                         OFFICE OF INVESTIGATIONS


From October 1, 1988 through September 30, 1989, the Office of Investigations (OI) opened
1,301 cases; closed 1,645; had 2,127 pending at the end of the reporting period; referred 702
individuals and entities for prosecution and another 125 individuals to DOL agencies for
administrative action. Investigative results for Fiscal Year 1989 included: 735 indictments, 720
successful prosecutions, and $12,006,129 in recoveries, fines, restitutions, settlements and cost
efficiencies.

Impact of Department of Justice Opinion on Criminal Investigations

The Department     of Justice (DO J) opinion on the OIG's criminal investigative                                      authority has
caused OI to suspend criminal investigations traditionally conducted in programs such as
Unemployment Insurance, Black Lung, Longshore and Harbor Workers, Alien Certification,
and Trade Readjustment      Assistance.  Moreover, recent criminal investigative initiatives
pertaining to worker health and safety, employee benefits, and wage and labor standards also
have been suspended as a result of this opinion.      The OIG took this action despite its
disagreement with the DOJ opinion due to the potential personal liability of OI special agents.

OI initially suspended      activity on approximately 1,200 criminal cases to determine the effect
of the DOJ opinion.          It has since analyzed these and approximately 400 other cases to
determine appropriate        action or disposition in light of the opinion. OI concluded that action
was required on 1,192       criminal cases. The results of that determination are as follows:

              Cases in which United States Attorneys
              requested OIG continue investigation .................................... 108

              Cases in which active field investigation
              completed and awaiting prosecutive action ............................ 356

              Joint cases in which cooperating agency
              assumed responsibility ..................................................................          42

              Cases closed ..................................................................................   315

              Cases referred           to Department             of Justice .................................. 85

              Cases to be referred to DOL agencies .................................... 286

The remainder of these cases are not affected by the DOJ opinion and will be appropri-
ately investigated by OI.


                                                                39
OI recently sent to DOJ the 85 cases referred to in the above table, which involve claimant
fraud in Longshore, Black Lung, and Unemployment Insurance programs, as well as fraud in
Davis-Bacon matters and employee benefit plans. DOJ has sent these cases, which involved
102subjects, back to the Deputy Secretary of Labor. By responding in this way, we believe that
DOJ has clearly reiterated the breadth of its opinion. Therefore, we now are in the process of
referring additional affected criminal cases directly to the Deputy Secretary for his disposition.
Presumably these criminal investigative matters will be distributed to the program agencies.
As part of our oversight responsibility, we will continue to monitor their progress.

The following examples are illustrative of types of cases that OI is now precluded from
conducting:

PENSION AND WELFARE BENEFITS                                     On May 31 Glenn Becker, President, Blue Rose Me-
ADMINISTRATION (PWBA)                                            chanical Inc., of Bohemia, pied guilty to one count of
                                                                 mail fraud. He was sentenced on September 1 to five
Culminating an investigation begun in 1987, on Septem-           years probation and ordered to make almost $271,500
ber 26 of this year an insurance agent who served as a           restitution.
financial/investment   advisor to the Greensburg X-Ray
Associates Pension and Profit Sharing Plans pleaded              On July 11 John Wehrlin, former project manager for
guilty to embezzlement      from an Employee Income              the prime contractor, Cowper-Siegfried Construction
Retirement Security Act (ERISA) covered pension and              Co., Inc., of Buffalo, pied guilty to charges of bribery
benefit plan. The joint investigation , involving OIG and        and mail fraud. He awaits sentencing.
the Postal Inspection Service, disclosed that the agent
had embezzled or converted to his own use more than              On September 20 Tony Favale, President, FFW Con-
S 1.5 million from the plan. In the furtherance of the           struction Corp., of Smithtown, also pied guilty, but to a
scheme, he caused fraudulent letters, bearing forged             criminal information which charged him with bribery.
signatures of the plan's trustees, to be mailed. They            He also awaits sentencing. U.S.v. Becker et al. (E. D.
were used to authorize     withdrawals and transfers of          New York)
funds from the plan to a real estate investment firm, in
which he was a partner. He also diverted the plan's              2. On May 16 a construction company and its owner
checks, intended for deposit, to his own accounts. To            were sentenced to probation, fined $ 5,000, ordered to
conceal his scheme, he also caused letters to be mailed          make restitution of over $108,200, debarred from future
to plan subscribers falsely acknowledging that their             government contracts and ordered to perform 100hours
funds had been deposited in the plan's profit sharing            of community service. The defendants, whose guilty
accounts. U.S.v. Taylor (W. D. Pennsylvania)                     plea was reported in the last Semiannual Report, admitted
                                                                 that from January 1982 to February 1987 they made
Employment Standards Administration              (ESA)           false statements in documents they were required to
                                                                 keep as part of their employees' pension benefit plan,
WAGE AND HOUR DMSION              (WILD)                         with a local of the Operating Engineers' Union, and had
                                                                 failed to pay their employees the appropriate hourly
1. As reported in our last Semiannual Report, three of           and overtime wages required by DBRA.
five New York State construction company officials in-
volved in the construction of a Department of Housing            At the sentencing, the judge said he believed that the
and Urban Development financed nursing home, were                company and its owner had no intention of paying the
arrested in February. They were charged with offering            employees prevailing wage rates when they bid on the
bribes to an OIG Special Agent, who was posing as a              contract. He added, that as a warningto other contrac-
WHD compliance officer,                                          tors in the area, he wanted to keep the bidding process
                                                                 on government contract work on a fair and equal basis.
                                                                 U.S. v.S.H. Construction Corp. et al. (W. D. New York)




                                                            40
OFFICE OFWORKERS'             COMPENSATION                          Employment        and Training        Adminstration
PROGRAMS        (OWCP)/BLACK        LUNG (BL)                       (ETA)
On May 23 the president and chief executive officer of              UNEMPLOYMENT          INSURANCE (UI)
United Medical, Inc. (UMI) was indicted by a federal
grand jury on 15 counts of criminal violations of con-
                                                                   1. On May 22 in Federal District Court an individual
spiracy, false claims, and mail fraud. Our joint investi-          who, along with a co-conspirator, devised a fictitious
gation with Department of Health and Human Services                employer scheme to claim UI benefits, was sentenced
(HHS) OIG disclosed evidence that he submitted bills
                                                                   to 18 months imprisonment after being found guilty of
to DOL and HHS for reimbursement for the costs of
                                                                   one count of mail fraud. In 1987, they headed a ring
providing   unneeded   oxygen equipment      to claimants
                                                                   which obtained in excess of $49,000 in UI benefits from
under the Black Lung and Medicare programs.            The         the Michigan     Employment      Security Commission
unnecessary equipment was not used by the patients;                (MESC). From April through November 1987, eleven
and, blood gas tests, which are used to establish eligibil-        other individuals were recruited to participate in the
ity for equipment based upon the claimant's medical
                                                                   scheme. This group filed a total of 20 false claims for UI
needs, were falsified. The fraudulent scheme netted                benefits. Ten of them pied guilty and were ordered to
UMI over $57,000 from DOL and $19,000 from HHS.
                                                                   make over $35,000 restitution and placed on a total of 20
The defendant is a fugitive in this case and is also being
                                                                   years probation.    This investigation was conducted
sought on charges of flight to avoid prosecution        for        jointly by OIG and MESC. U.S.v. Clark et al. (E.D.
allegedly kidnapping his daughter.                                 Michigan)

On August 10 a UMI chief respiratory technician pied               2. On April 17 an individual, who was the key figure in
guilty to one count of theft of government funds. At the
                                                                   a UI benefit scheme which defrauded the Michigan
direction of the president, he falsified blood gas tests;          Employment Security Commission (MESC) of more
inserted them in hospital records, where he previously             than $56,000, was sentenced to 3 years imprisonment,
worked, to conceal from officials the true results and in          with the requirement that he be actually incarcerated
support of fictitious claims submitted by UMI to DOL.
                                                                   for 179 days. The scheme involved the defendant and
He was placed in a pre-trial diversion program. U.S.v.
                                                                   others filing for UI benefits against a company formerly
Pack   (S.D. West Virginia)                                        owned by the defendant. He verified the alleged em-
                                                                   ployment for MESC, which resulted in the fraudulent
                                                                   payments. U.S.v. Doyle (E.D. Michigan)


While the OIG is in transition from investigations affected by the DOJ opinion to other
program areas and increased oversight responsibilities, the following typify other investiga-
tions conducted during this period that do not appear to be precluded by the opinion.

ESA/OWCP/FEDERAL   EMPLOYEE                                        months imprisonment, three years probation, and or-
COMPENSATION   ACT (FECA)                                          dered to pay the restitution. This was a joint investiga-
                                                                   tion with BATF. U.S.v. Farmer (N.D. Georgia)
1. On August 9, in U.S. District Court at Rome, Geor-
gia, a former Bureau of Alcohol, Tobacco and Fire-                 2. On May 25 a former maintenance mechanic, who had
arms (BATF) special agent pied guilty to a four-count              been employed at the Charleston, West Virginia Main
criminal information which charged him of false state-             U.S. Post Office, pied guilty to a criminal information
ments to obtain Federal Employees' Compensation                    charging him with a false statement to DOL's OWCP
from DOL's Office of Workers' Compensation Pro-                    relative to his true employment status. OnJulyl0hewas
grams (OWCP). He had been drawing disabilitybene-                  sentenced to one year imprisonment; ordered to pay
fits from OWCP since 1973. During that time he was                 $63,388.82 in restitution; and fined $50. An investigation
self-employed as the owner and operator of a private               by the OIG and the Postal Inspection Service deter-
investigation firm and did not report this employment              mined that he did not report his employment and ap-
to OWCP. In his negotiated guilty plea he agreed to                proximately $638,000 in earnings to OWCP, while he
pay $247,619 restitution; to remove himself from the               was operating a telemarketing business for real estate
OWCP rolls; and, withdraw all claims and appeals                   firms. U.S.v. Godfrey (E.D. Virginia)
against DOL. On October 6 he was sentenced to six


                                                              41
JOB TRAINING PARTNERSHIP ACT (JTPA)                                conspirators pertaining to the arson charge. According
                                                                   to the indictment, the building which housed UFI was
1. On July 14 a federal grand jury returned a nine-count           insured for $750,000 and the subject allegedly defrauded
indictment charging the president, who was also the                the insurance company with false evidence of his losses.
chief operating officer, of the Lake County Job Training           If convicted on all charges, the subject faces up to 174
Corporation (LCJTC) with racketeering, extortion,                  years imprisonment and fines exceeding $7 million.
bribery and filing false income tax returns.                       This joint investigation was conducted by OIG with the
                                                                   Bureau of Alcohol, Tobacco and Firearms and the
LCJTC is the Job Training Partnership Act (JTPA)                   Internal Revenue Service. U.S.v. Koen (S.D. Illinois)
grant recipient and administrator for Lake County,
Indiana. As such, it provides job training services for its        3. In a decision and order issued on April 26 a DOL
residents and has received over $46 million in JTPA                Administrative Law Judge (ALJ) ruled that the City of
funds over the last six years.                                     Lowell, Massachusetts was required to repay $1,568,483
                                                                   in Comprehensive Employment and Training Act
According to the indictment, the subject extorted, solic-          (CETA) funds it received from DOL in 1981. Follow-
ited, and accepted $21,000 in cash and property from               ing an OIG investigation and subsequent report, pro-
four LCJTC job training contractors for which they                 gram officials initiated administrative action which
received contracts with LCJTC. The tax charges stem                culminated in the ETA/SOL action before the ALL
from the unreported income of the bribery and extor-               The investigation disclosed that Lowell officials used
tion activities. This indictment resulted from a joint             CETA funds, without authorization, for equipment
investigation, of public corruption in Lake County,                expenditures after the funds had been recalled by ETA
conducted by the OIG, the Internal Revenue Service,                program officials.
and Federal Bureau of Investigation.      U.S.v. Lang-
Lampkin (N.D. Indiana)
                                                                   ETHICS AND INTEGRITY ISSUES
2. OnAugust I the former director ofthe United Front,
Inc. (UFI) of Cairo, Illinois was indicted by a federal            1. Following the District of Columbia Superior Court's
grand jury on 30 counts of theft and embezzlement from             issuance of arrest warrants on May 25 and June 7, two
programs receiving federal funds, false statements, arson,         Department of Labor National Office employees were
mail and wire fraud, and filing false income tax returns,          arrested and charged in connection with the theft of
                                                                   DOL building parking permits. They were among 13
UFI is a federally and state funded not-for-profit social          employees of the Department who were identified as
service organization, which received money provided by             having either stolen, counterfeited or had unauthorized
the JTPA's Title IV, Migrant and Seasonal Farm-                    possession of DOLbuilding parking permits. Reports
worker Program.                                                    concerning eight of the employees have been furnished
                                                                   to DOL management for appropriate administrative
The indictment alleged that during 1985 the subject                action.
embezzled federal and state funds under the control of
UFI. He is charged with having misapplied UFI em-                  2. On September 25 an attorney who had been em-
ployees' Social Security and Federal income tax funds to           ployed since 1977 by the Mississippi Employment Secu-
personal debts, which included a luxury leased automo-             rity Commission (MESC) pied guilty in county court to
bile; and, not paying UFI employees' salaries and making           charges of embezzlement.       He admitted converting
false statements to DOL about the disposition of these             $25,000 in unemployment insurance funds, collected
funds,                                                             through garnishments, to his own use. The checks had
                                                                   been issued over a one-year period by local courts as
The subject's wife, who is the current director of UFI,            repayments to the MESC and were made payable to the
and two other associates were named as unindicted co-              defendant. Mississippi v. Aragon (Mississippi)




                                                              42
COMPLAINT HANDLING ACTIVITIES

The OIG Complaint Analysis Office and the OIG regional offices serve employees, other
agencies and the general public who report suspected incidents of fraud, waste and abuse in
DOL programs and operations.     The following tabulation reflects the composites of total
allegations reported to OIG and their disposition.


         TOTAL ALLEGATIONS                               REPORTED                 TO OIG NATIONWIDE:                               1,804


      SOURCES:

      Walk-in ....................................................................................................................      10
      IG Hotline ..............................................................................................................         79
      Other telephone calls ............................................................................................               22
      Letters from the Congress ......................................................................................                  6
      Letters from individuals or organizations ........................................................                              128
      Letters from DOL agencies ................................................................................                      299
      Letters from Non-DOL agencies ......................................................................                            883
      Incident Reports from DOL agencies ..............................................................                               195
      Reports by special agents and auditors ............................................................                             175
      Referrals from GAO ..............................................................................................                 7

      Total ....................................................................................................................     1,804


      DISPOSITION:

      Referred to Office of Audit or
       Office of Investigations .................................................................................. 1,150
      Referred to DOL program management .......................................................... 65
      Referred to other agencies ..................................................................................   24
      No further action required ................................................................................    349
      Pending disposition at end of period ................................................................ 216

      Total ....................................................................................................................     1,804




                                                                        43
                                        Chapter 3

                OFFICE OF LABOR RACKETEERING


The responsibilities of the Office of Labor Racketeering (OLR) include the identification,
investigation, and bringing to prosecution racketeering activity in employee benefit plans,
labor-management     relations, and internal union affairs. OLR's highest investigative priority
continues to be employee benefit plans. OLR remains concerned about the vulnerability of
such plans, and continues to devote approximately 65 percent of OLR investigative resources
to investigations of employee benefit plan abuse.

To leverage its limited resources, OLR has continued joint efforts with state, local, and other
federal law enforcement agencies. Such cooperative relationships not only make better use of
monetary and personnel resources, but also sharpen the awareness and understanding of labor
racketeering violations at other levels of government. An example of a joint effort by OLR and
state and local agencies is the investigation of corruption in the carpentry and drywall industry
in New York City. This significant case heralds New York State's first use of its Organized
Crime Control Act to prosecute labor racketeering. It is discussed below under "Carpenters
Local 135 and Plasterers and Cement Masons Local 530."

The OLR field office in San Diego, California, now is fully operational, as is its sub-office in
Los Angeles. Together with the San Francisco field office, these offices are now actively
addressing labor racketeering in the nation's most populous State.

During this reporting period, OLR completed a national training program that ensures that
each OLR special agent has received current federal law enforcement training. OLR special
agents continue to receive temporary Special Deputy U.S. Marshal status from the U.S.
Department of Justice. This status carries with it the authority to use firearms, make arrests,
and execute search warrants. While the temporary authority has been beneficial, it does not
adequately meet OLR's need for permanent law enforcement powers. In this regard, the OIG
continues to advocate legislation that would afford full statutory law enforcement authority for
OLR.

The Department of Justice's (DO J) opinion limiting the jurisdiction of the Office of Investi-
gations unfortunately has created confusion regarding the investigative work of OLR. A law
enforcement periodical recently ran an article in which the DOJ opinion was interpreted to
include OLR, which clearly is not the case. Although the misleading article was corrected in
a subsequent issue, OLR is concerned that further public confusion will occur unless the
Congress acts quickly to clarify the jurisdiction of the Office of Investigations.

OLR investigations resulted in 40 indictments and 21 convictions during this reporting period.
Following are examples of significant cases.



                                              45
EMPLOYEE          BENEFIT PLANS                                   because of the investigation. Cohn pied guilty in March
                                                                  1989 to a criminal information charging him with con-
Angelo T. Commito                                                 spiracyto bribe a Federal official. He also pied guilty to
                                                                  conspiracy to commit mail fraud, which had been charged

A seventh indictment has been returned against Angelo             in a September 1988 indictment. United HealthCare
T. Commito based on a nationwide joint investigation              agreed to a civil injunction to refrain from violating any
by OLR and the FBI of corruption in the employee                  State, local or Federal laws and to pay a $150,000 civil
welfare benefit industry.     A 4-count indictment re-            penalty to the Government.
turned in Baltimore on April 13, 1989, charges Com-
mito with bribery, conspiracy to defraud the United               Cohn, United HealthCare      and Commito had been
States in connection with the awarding of Federal                 indicted in September 1988 on charges of conspiracy,
grants to provide health care services in areas of high           mail fraud, wire fraud, and money laundering.    The
poverty, conspiracy to bribe a federal official and inter-        September indictment was one of seven that were
state transportation in aid of racketeering. Also named           returned nationwide against Commito and 11 co-defen-
in the indictment were John B. LaFrance and Edmond                dants. Five of the indictments were consolidated for
                                                                  trial in San Francisco and include Commito and six
P. LaFrance.                                                      other defendants. In Chicago, William Hainsworth, a
                                                                  former administrator for the Cement Masons Local 803
Commito is president of Labor Health Care and Bene-
fit Plans of Chicago and other Chicago- and San Fran-             welfare fund in DuPage County, Illinois, had pied guilty
cisco-based employee benefit businesses.        John B.           previously to embezzlement       and was sentenced on
LaFrance was until recently the director of the Division          April 5, 1989, to 1 year in prison and ordered to make
of Health Service Delivery, Region 3 (Philadelphia),              restitution of $62,784 to the fund. U.S.v. Angelo T.
U.S. Department of Health and Human Services (HHS).               Commito, John B. LaFrance, and Edmond P. LaFrance
Edmond P. LaFrance of Massachusetts is an associate               (D. Maryland), U.S.v. Commito et al. (D. Maryland),
of Commito's and John LaFrance's brother.         As an           U.S. v. Angelo T. Commito et al. (N.D. California) and
                                                                  U.S. v. William Hainsworth (M.D. Illinois)
HHS official, John LaFrance influenced the awarding
of HHS grants to local, non-profit community organiza-
tions to provide primary health care services to people           Laborers     Local 332 Health & Welfare Fund
living in medically underserved areas, usually areas of
high poverty.                                                     Ralph Costobile was charged in a 33-count Federal
                                                                  indictment returned on September 20, 1989, in Phila-
According to the indictment, United HealthCare, a                 delphia. The indictment included a charge of racket-
Maryland corporation      that provides prepaid health            eeringactivitytodefraudtheLaborersLoca1332Health
benefit plans to employee groups, wanted to establish             and Welfare Fund and violate the collective bargaining
and operate community health centers in Washington,               agreement his company had with lhe local. Costobile is
D.C., under the HHS program. From late 1985 through               the owner of Costo, Inc., a Philadelphia demolition and
January 27, 1988, United HealthCare sought an HHS                 construction company.
grant through its vice president for marketing, Alan S.
Cohn.                                                             Along with the racketeering count, Cost obile is charged
                                                                  with filing false employer contribution forms, mail
The indictment charges the defendants conspired to                fraud, making an unlawful payment to a union official,
have John LaFrance disclose to Cohn confidential in-              depriving union members of rights by violence, and
formation    on competing       bids, discredit    United         distributing methamphetamine.      The racketeeringcount,
HealthCare's   competitors, and ultimately assure the             charging that Costobile used Costo, Inc., in furtherance
awarding of Federal grants worth millions of dollars to           of his scheme, lists six specific racketeering acts.
United HealthCare's subsidiary, Washington Primary
Care Network. For their assistance, Cohn would pay 3              According to the indictment, Costobile made payoffs of
percent of the total value of the grants indirectly to the        $70 per laborer per day to Philadelphia organized crime
LaFrance brothers through Commito. The grant was                  figures so that they would arrange for him to not be
not awarded during the course of the conspiracy,                  harassed by the union when he employed non-union
                                                                  laborers and under-paid workers and evaded making
In December 1988, John LaFrance was indefinitely                  required employer contributions to the fund. He alleg-
suspended without pay from his position with HHS,                 edly assaulted laborers who threatened to expose his




                                                             46
use of non-union laborers. During union elections in               F. Sfeir, also an Inserra associate and a former trustee
June 1985, Costobile also allegedly paid a candidate for           of Teamsters Local 182 and a registered representative
business manager $4,300 to withdraw and enable the                 of Shearson-Lehman       and First Albany, was sentenced
incumbent to run unchallenged,                                     to 1 year and 1 day in prison, 2 years' probation, and
                                                                   fined $5,000. Both Giorgi and Sfeir must pay all taxes,
Costobile also is charged with bribing a former em-                interest, and penalties as a condition of probation.
ployee of Mr. Goodbuys, a home improvement chain
store, to ensure the awarding of demolition and con-               John Giura, former partner of Stein, Roe, and Farnham
struction contracts. According to the allegations, Cos-            and investment advisor to the fund, was sentenced to 6
tobile gave two pounds of methamphetamine         to two           months in prison and 3 years' probation and was fined
competing company officials to ensure awarding of a                $25,000. He was also barred from having any connec-
contract,                                                          tion with employee benefit plans for 13 years after
                                                                   release from prison.
The 18-month investigation leading to this indictment
was conducted jointly by OLR and the FBI with assis-               Seven individuals were convicted in this joint investiga-
tance from the U.S. Environmental Protection Agency.               tion by OLR, the FBI, the IRS, and the Securities and
U.S. v. Costobile (E.D. Pennsylvania)                              Exchange Commission.      U.S.v. George Inserra et al.
                                                                   (N.D. New York)
New York State Teamsters            Pension Fund
                                                                   Teamsters Local 856
Five defendants, charged in connection with illegal
activities in the operation of the New York State Team-            Three indictments against Michael Rudy Tham, a for-
sters Pension Fund in Utica, were sentenced in June                mer secretary-treasurer of San Francisco Teamsters
1989 in Syracuse. All had previously pled guilty to                Local 856 and Joint Council 7, were returned on June
various charges in indictments returned in May 1988                13, 1989, by a special Federal grand jury in San Fran-
involving a scheme to manipulate stock transactions by             cisco. Tham was charged in one indictment with extor-
purchasing securities, observing the price fluctuations            tion, theft of funds from the Northern California Labor
over a 7-day period, and passing the stocks that appre-            Trust, falsification of records relating to the eligibility
elated in value to their friends and relatives. Stocks that        for employee health and welfare funds, aiding and
did not appreciate or that declined in value were trans-           abetting, and conspiracy. This indictment, resulting
ferred to the Teamsters pension fund account. Kick-                from a joint investigation by OLR and the FBI, alleges
backs had also been solicited from the investment                  that between July22, 1987, and October 1, 1988, Tham
advisory firm of Stein, Roe & Farnham in Chicago to                threatened an official of Teamsters Local 860 in Daly
use, in turn, as bribes, kickbacks, and illegal payments to        City, who was also a trustee of the trust, into allowing
Teamster officials to ensure continued business from               ineligible participants to receive costly health benefits
the Teamsters funds for Shearson-Lehman Brothers,                  from the trust. Tham then assisted in submitting false
Inc., and Stein, Roe, & Farnham.                                   information to the trust.

George Inserra, a registered representative of Shear-              The other two indictments concern Tham's 1980 con-
son-Lehman and First Albany Corporation and a trus-                viction resulting from ajoint OLR-FBI investigation for
tee of Teamsters Local 182 in Utica, was sentenced to              embezzlement of union funds and falsification of union
serve 3 and 1/2 years in prison, 3 years' probation, fined         records. Tham is presently in Federal prison following
$60,000, and ordered to make restitution with his brother,         revocation of his probation from this conviction. One
John, of $130,325 to the Teamsters funds. He was also              indictment charges Tham with lying at a probation
barred from any union or benefit plan position for 5               revocation hearing about his association with known
years after release from prison. John D. Inserra, who              convicted felons and with having conspired with others
was also a broker at Shearson-Lehman and First AI-                 to lie to Federal agents and the grand jury about these
bany, was sentenced to serve 1 year and 1 day in prison,           associations.
fined $10,000, and ordered to pay restitution with his
brother.                                                           The other indictment, resulting from an FBI investiga-
                                                                   tion, charges Tham, U.S. District Judge Robert P.
Dennis Giorgi, an associate of George Inserra, was                 Aguilar, and Abe Chapman, an associate of Tham's,
sentenced to serve 18 months in prison, 3 years' proba-            with racketeering and other violations involving Tham's
fion upon release from prison, and fined $21),000. Robert          alleged attempt to have his 1980 conviction overturned.



                                                              47
One count in this indictment alleges that Judge Aguilar           withdrawal of $87,782 to pre-pay two whole life insur-
attempted to influence another Federal judge to obtain            ance policies on the life of Earl Stout. The indictment
an evidentiary hearing for Tham in connection with                alleges that these policies, each with a face value of
Tham's motion to overturn his 1980 conviction. U.S.v.             $200,000,were purchased and paid for bythe hospital at
Michael Rudy Tham, U.S.v. Michael Rudy Tham, and                  the direction of Earl Stout. Allegedly, Stout also di-
U.S.v. Robert P. Aguilar et al. (N.D. California)                 rected that an attorney, who was a public trustee of the
                                                                  legal services fund, be paid approximately $226,923
American Federation of State, County and                          from January 1986 to May 1988 from the fund.
Municipal Employees Union (AFSCME)
                                                                  Frances Rooney, who was District Council 33 vice
District   Council    33                                          president under Stout, was allegedlypaid approximately
                                                                  $59,134 over a 3-year period for performing volunteer
Earl Stout, the former president of AFSCME District               services at the hospital. The indictment charges that
Council 33 in Philadelphia was indicted on August 5,              these funds were authorized by the Stouts. Rooney is
1989, on charges of racketeering and conspiracy involv-           charged with theft from programs receiving federal
ing the theft of approximately $1million from programs            funds. She is currently president of AFSCME Local
receiving Federal funds. Additional charges include               1956,which represents the Philadelphia school crossing
theft from programs receiving Federal funds and mail              guards.
fraud. A 48-count Federal grand jury indictment also
names Stout's son, William C. Stout, Cynthia Bullock,             Cynthia Bullock was director of the District Council 33
and Frances Rooney.                                               legal services fund from 1979 until Stout fired her in
                                                                  November 1984. She is charged with theft from pro-
Stout was president of District Council 33 from 1974              grams receiving Federal funds and mail fraud. Alleg-
until 1988 when he lost an election. Allegedly, while             edly, she received approximately $190,637 from the
president of District Council 33, Stout used the Council,         legal services fund at the direction of Stout after she had
its legal services fund, its health and welfare fund, and         been fired.
the John F. Kennedy Hospital to defraud AFSCME
members. The hospital is owned by the union and run               This was a joint investigation by OLR, the FBI, the
primarily for union members. As president of the                  HHS/Office of Inspector General, and the IRS. U.S.v.
union, Stout was also chairman of the board of the                Earl Stout et al. (E.D. Pennsylvania)
health and welfare fund and the legal services fund and
president of the Board of Directors of the hospital. In           Teamsters Local 804 and
1984, Stout hired his son, William, as assistant to the
president of the hospital.                                        Teamsters Local 808
Federal funds involvedin this indictment includeMedicare          John Long, former secretary-treasurer of Teamsters
funds from HHS and legal services funds from the U.S.             Local 804 in New York City, was sentenced on May 5,
Department of Housing and Urban Development (HUD).                 1989,in Federal district court to 12 years in prison. His
The legal services funds were paid through the Philadel-          co-defendant, John S. Mahoney, Jr., former secretary-
phia Housing Authority, which had contracted with                 treasurer for Teamsters Local 808 and trustee of the
AFSCME to provide legal assistance to its employees,              local's pension and welfare funds, was sentenced on
The indictment alleges 26 acts of racketeering involving          July 31, 1989, to 15 years in prison. They had been
mail fraud and withdrawal of money from the legal                 convicted in December 1988of racketeering, racketeer-
services fund and the hospital. According to the indict-          ing conspiracy, extortion, and perjury.
ment, the transactions alleged as wrongdoing were not
authorized or known by the Board of Trustees for the              The defendants embezzled union and employee benefit
legal services fund or the Board of Directors for the             funds, received payments from employers to avoid
hospital,                                                         unionization of their employees, and extorted money
                                                                  from employers to avoid business disruptions, labor
The indictment charges that Stout and his son conspired           disputes, loss of business and reprisals by organized
to use District Council 33 for their personal benefit and         crime figures.
the benefit of their families, friends, and District Coun-
cil 33 members who supported Earl Stout. Among the                In May 1989, Mahoney was arrested based on a corn-
charges are allegations that in May 1988, when Earl               plaint that he violated conditions of his bail. The
Stout lost the election, he and his son directed the              complaint charged that he had threatened to murder



                                                             48
two employees of Local 808, because they intended to             dent, and Busacca associate Louis J. Marrali on racket-
disclose to the union membership that he was trying to           eering charges of embezzling from the fund. A count of
embezzle $100,000 from the union under the guise of              making false statements from a December 1988 indict-
severance and vacation pay. The complaint was consid-            ment involved Kalk's assistance to Busacca and others
ered by the Federal judge who imposed Mahoney's 15-              to embeTzle approximately $259,000 of the fund's money
year sentence,                                                   for use as legal fees for Busacca's defense in the racket-
                                                                 eering case.
The investigation of this case was conducted jointly by
OLR, the FBI, and the New York City Police Depart-               Busacca was convicted and sentenced on the racketeer-
ment. U.S.v.JohnF.    Long and John S. Mahoney(S.D.              ingcharges. Heawaits trialwithfourco-defendantson
New York)                                                        charges relating to the $259,000 embezzlement.


Laborers District Council Building &                             Kalk is the 16th person to be convicted in a continuing
                                                                 investigation by OLR of corruption in the Teamsters
Construction      Health & Welfare Fund                          Local 436 Welfare and Pension Plans. U.S.v. Kalk and
                                                                 U.S. v. Kalk (N.D. Ohio)
Donna Mims, a former claims processor for the Labor-

ers District Council Building and Construction Health            Eqnifa× Major Medical Plan
and Welfare Fund in Philadelphia, pied guilty on June
27, 1989, to one count of conspiracy to embezzle $212,000
and nine counts of embezzling $9,795.                            A 2-year joint investigation by OLR and the FBI into a
                                                                 $470,000 embezzlement from the Equifax Major Medi-
Mims was indicted on May 2, 1989, on 80 counts of                cal Plan in Atlanta has resulted to date in the conviction
                                                                 of all 18 individuals who have been indicted. The 18th
embezzlement and 1 count of conspiracy. Mims and co-
                                                                 defendant pied guilty on August 24, 1989, to two counts
conspirator, John D. Singleton, Jr., a member of Labor-
                                                                 of conspiracy to embezzle $86,000.
ers Local 413 in Philadelphia, were charged with con-
spiring with others, from September 1985 to January
1987, to have Mims process fraudulent medical benefits           Salistine Barron, a former employee of the plan, had
                                                                 been indicted in June on 52 counls charging embezzle-
claims, causing checks to be issued to Singleton and
others. The checks were cashed or deposited in various           ment of $127,396 and 8 of conspiracy to embezzle
bank accounts and divided among the co-conspirators.             $203,172. Barron and her co-conspirators, mostly for-
                                                                 mer plan employees, conducted their embezzlement
                                                                 scheme over a 5-year period. The members of the
Singleton, who has been charged with one count each of
conspiracy and embezzlement, is awaiting trial,                  conspiracy prepared fraudulent sickness and accident
                                                                 claims for medical insurance benefits for medical plan

This case resulted from a continuing joint investigation         participants. The false claim information was entered
by OLR and the FBI. U.S.v. Donna Mims and John D.                into the computer that generated checks from the plan.
Singleton, Jr. (E.D. Pennsylvania)                               The checks were delivered to Barron who negotiated
                                                                 some and passed others to co-conspirators to negotiate.
                                                                 Members of the conspiracy would remove the fraudu-
Teamsters Local 436 Welfare Fund
                                                                 lent claim files from the medical plan prior to periodic
                                                                 audits, enabling the scheme to continue over the 5 years.
Joseph Kalk, former legal counsel for Teamsters Local            U.S.v. Barron (M.D. Georgia)
436 Welfare Fund in Cleveland, was sentenced on June
20, 1989, based on his guilty pleas to charges involving
embezzlement of money from the fund. Kalk was                    INTERNAL UNION AFFAIRS
sentenced to 3 years' probation and fined $20,000. He
must also do 20 hours of community service a week
during his probation.                                            Teamsters Local 507 &
                                                                 Bakery Local 19
Kalk had pied guiltyin April to one count in each of two
indictments involving the fund. A count of obstruction           Harold Friedman, president of Teamsters Local 507
of justice from a September 1988 indictment involved             and BakeryLoca119in Cleveland, andAnthony Hughes,
Kalk's false statements to prevent the prosecution of            recording secretary of local 507 and business agent for
Salvatore "Sam" T. Busacca, former local 436 presi-              local 19, were sentenced on May 26, 1989, to 4 years'




                                                            49
probation on racketeering charges involving the embez-            Nardi had pied guilty to similar charges in 1983, but
zlement of over $700,000 from the two locals. They had            because the Justice Department      had decided not to
been convicted by a Federal jury on January 13, 1989,             seek Presser's indictment, the charges against Nardi
for embezzling union funds by maintaining three em-               were dismissed. In 1986, when Presser, Friedman, and
ployees who did not work on the payrolls of the locals.           Hughes were indicted, the charges against Nardi were
They were also convicted of embezzling $17,000 from               fded in a superseding criminal information. Additional
Bakery Local 19 to pay Hughes a salary for which he               charges against Nardi were added, including defrauding
performed no work.                                                E.F. Hutton and Company of $39,000 in an investment
                                                                  scheme and making false statements to obtain a pass-
In addition to probation, Friedman was fined $35,000              port.
and Hughes $30,000. Both were ordered to forfeit their
pension credits in both locals for 1978 through 1981, and         The investigation leading to the charges involving Team-
barred from holding union office for 13 years. Fried-             sters Local 507 and Bakery Local 19 was conducted by
man, who is also a vice president for the International           OLR. The additional charges against Nardi stem from
Brotherhood of Teamsters, was also ordered to forfeit             a joint investigation with the FBI. U.S.v. Friedman and
seven union positions he holds in the locals. Besides             Hughes and U.S.v. Nardi (N.D. Ohio)
being president of the two locals, he is also a trustee of
five employee benefit funds, including the health and             Roofers Local 30/30B
welfare funds and the pension funds for both locals and
local 19's Charitable, Education and Retirement Fund.             Jack Kinkade, former president and business manager
Hughes was ordered to forfeit his positions as recording          of the Roofers Union Local 30/30B in Philadelphia,
secretary for local 507 and business agent for local 19           was sentenced on May 26, 1989, to serve 2 to 23 months
and ordered to make restitution of $43,500 to local 19.           in prison, fined $1,000, and ordered to do 100 hours of
                                                                  community service. He has been barred from serving in
Friedman's and Hughes' sentences, including the bar               a labor organization for 13 years following completion
from union office that would ordinarily have been                 of his prison sentence, which began May 30. Kinkade
effective upon sentencing, have been stayed pending               had pied guilty in March to one count of Pennsylvania
appeals. They had been charged in a May 1986 indict-              State charges of extortion of a roofing contractor.
ment following an investigation by OLR. The indict-
ment had included Jackie Presser, who was secretary-              Kinkade was one of 14 former and current officials of
treasurer of Teamsters Local 507 and president of the             the Roofers Local who were charged by the State with
International.   Presser died in July 1988, 3 months              racketeering following a 4-year joint investigation by
before the trial began.                                           OLR and the Pennsylvania Attorney General's Office.
                                                                  Kinkade was the president of the local from 1971 to
Jack Nardi, Jr., one of the "ghost workers" was sen-              1981 and replaced John McCullough as business man-
tenced on June 21, 1989, to 4 years in prison. He had             ager when McCullough was murdered in 1980. Kinkade
pied guilty to anApril 1988 criminal information charg-           remained in this position until his retirement in 1985.
ing him with one count each of conspiracy to embezzle
from a union, solicitation of a bribe, aiding and abetting        Two other defendants in this case are now serving
in a fraud by wire, and using a false statement to obtain         prison sentences following guilty pleas to racketeering.
a passport.                                                       Joseph Kinkade, Jack Kinkade's brother, and Gary
                                                                  McBride, both business agents for the local, were addi-
Nardi admitted that, from January 1972 to April 1979,             tionally banned indefinitely on May 26 from working in
he had conspired with Presser, Friedman, and others to            the roofing industry.
be paid union money and was listed as a business agent
and later as a special organizing representative, when,           This investigation and a separate FBI investigation
in fact, he was not performing the work. He received              resulted in the filing of a civil complaint under provi-
approximately $109,800 in union money. The charge of              sions of the Racketeer Influenced and Corrupt Organi-
soliciting a bribe stemmed from Nardi's request to                zations (RICO) statute by the U.S. Attorney's Office
Presser in 1982 for $20,000 in exchange for recanting             against the Roofers Union Local 30/30B. A federal
statements Nardi had made to a Federal grand jury and             court imposed a "decreeship" over the union on May
to testify as Presser wished.                                     23, 1988. Commonwealth of Pennsylvania v. Stephen
                                                                  Traitz et aL




                                                             50
LABOR-MANAGEMENT                    RELATIONS                     Henry Walaski, a former business representative for
                                                                  Carpenters Local 531, is charged with criminal con-
Carpenters      Local 135 and Plasterers          &               tempt for allegedly falsely telling the state grand jury
                                                                  that he could not recall the names of contractors from
Cement     Masons     Local   530
                                                                  whom he received payments. Walaski had been an
                                                                  official for local 531 until his 1988 federal conviction for
New York State's first use of its Organized Crime                 criminal contempt.
Control Act to prosecute labor racketeering has re-
sulted in charges of enterprise corruption against two            Three indictments arose from the grand jury's investi-
union officials, Louis D. Moscatiello, Sr., and Benedetto         gation of Moscatiello's conduct of the affairs of Plaster-
"Benny" Schepis. These charges were included in eight             ers Local 530. Defendants in these three indictments
indictments that were returned on July 27, 1989, by a             are members of local 530. They are charged with
State grand jury charging the two union officials, a
                                                                  several felony counts of perjury. They allegedly lied to
former union official, six businessmen and two compa-             the grand jury about, among other things, their contact
nies with violations involving the carpentry and drywall          with Moscatiello.    These defendants are: Anthony
industry in New York City. The indictments allege                 Melani, a former contractor; Nicholas Biancanello,
Genovese crime family involvement,                                owner of Biancanello Wall Finishers; and Dennis Cor-
                                                                  rallo, owner of D.C. Covercoat. Corrallo is also charged
The indictments arose from a 2-year investigation by a            with a felony count of criminal contempt.
Construction Industry Strike Force into the activities of
Moscatiello, president of Plasterers and Cement Ma-               Investigation of corruption in the construction industry
sons Local 530, and his associates. The strike force              is continuing. NewYorkv.MoscatielloandSchepis;N.E
includes OLR, the Manhattan District Attorney's La-
                                                                  v. Rodriguez and Inner City Drywall Corporation; N. Y. v.
bor Racketeering    Unit, the New York City Police
                                                                  Sorenthlo; N.Y.. v. Levine and De-Jil Systems, bzc.; N.Y.
Department,    and the New York State Police.                     v. Walaski; N.Y. v.Melani; N.Y. v.Biancanello; and N.Y.
                                                                  v. Corrallo
Schepis, business agent for Carpenters Local 17, and
Moscatiello are also charged with multiple felony and             OTHER       CORRUPTION            CASES
misdemeanor counts involving bribery. The indictment
charges that, with an unnamed official of Carpenters
Local 135, Moscatiello and Schepis ran the affairs of             Wedtech
local 135 as a criminal enterprise from March 1986
through December 1988. The pattern of criminal activ-             Mario Moreno and Fred Neuberger, former officers of
ity included the payment of 16 bribes by construction             the Wedtech Corporation in the Bronx, New York,
contractors to an official of Local 135 to obtain favor-          were sentenced on April 13, 1989, and May 5, 1989,
able treatment, including permission to violate the               respectively. Moreno, who received a sentence of 18
collective bargaining agreement by hiring non-union               months in prison, 1 year of probation, and 300 hours of
workers and circumventing overtime payment provi-                 community service, had begun serving his sentence in
sions.                                                            November 1988 by prior arrangement with the court.
                                                                  Neuberger began serving 2 years of a 5-year prison
Moscatiello, who is also charged with conspiracy, is              sentence to be followed by 3 years' probation. They are
alleged in the indictment to be an associate of Vincent           two of four Wedtech officers who pied guilty in January
DiNapoli, a member of the Genovese crime family. The              1987 to an indictment charging corruption in the award-
indictment also charges that certain construction com-            ing of defense contracts to Wedtech.         The charges
panies that used the criminal services of the enterprise          included conspiracy to bribe and offer compensation to
are also associated with the Genovese family.                     Federal, State and local officials, including members of
                                                                  the U.S. Congress and officers and employees of the
Indictments against Antonio Rodriguez and his com-                executive branch of the Federal Government        for serv-
pany, Inner City Drywall Corp.; Michael Sorentino of              ices rendered by such individuals.
Sor-Mal Plastering, Inc.; Seymour Levine and his
company, De-Jil Systems, Inc., charge the defendants              This investigation earlier resulted in the conviction of
with crimes involving paying bribes to a labor official to        U.S. Congressman Mario Biaggi and four codefendants
receive favorable treatment from local 135.                       on charges involving illegal payments made by Wedtech




                                                             51
officials to influence the awarding of Department of            Asbestos    Removal     Contractors
Defense and other Government contracts.       Also in-
dicted and convicted in this investigation were Richard         Howard Stecker, a former U.S. Environmental Protec-
Stolfi and Frank Casalino, officials of Teamsters Local         tion Agency compliance officer, pied guilty on June 26,
875 who solicited and received kickbacks from the               1989, to a 1-count Federal criminal information charg-
Wedtech officials for labor peace, allowing non-union           ing him with conspiring to receive bribe payments from
labor on a Wedtech construction site and favorable              asbestos removal companies in New York City. Stecker
terms in a 1983 contract,                                       unlawfully received approximately $140,000 between
                                                                1983 and September 1986 from asbestos abatement and
Neuberger still awaits sentencing on another charge             removal contractors in the New York City area. To
involving this investigation.  He had pied guilty in            date, 22 company owners and officials have been con-
August 1988 to a two-count criminal information that            victed for bribing Stecker to ignore violations of Federal
charged him with withholding records for an official            asbestos removal regulations or to not appear at sites
proceeding and with perjury,                                    where their companies were removing asbestos.

Two former Wedtech officials remain to be sentenced             While investigating labor racketeering in the building
in this investigation. U.S.v. Neuberger et al. (S.D. New        and construction industry in New York City, OLR
York)                                                           uncovered widespread corruption in the asbestos re-
                                                                moval segment of the industry. The labor racketeering
                                                                probe is continuing and is focused on suspected illegal
                                                                payments between company and union officials and on
                                                                fraud in union affiliated benefit plans. U.S.v. Stecker
                                                                (S.D. New York)




                                                           52
                                                    Chapter 4

                      OFFICE OF RESOURCE MANAGEMENT                                         AND
                             LEGISLATIVE ASSESSMENT


The Office of Resource Management and Legislative Assessment (ORMLA) supports the
OIG by fulfilling several responsibilities mandated by the Inspector General Act of 1978,
including legislative and regulatory review, reporting to the Congress, representing the OIG
on various committees and initiatives of the President's Council on Integrity and Efficiency
(PCIE), and performing ADP and other support activities to achieve the mission of the OIG.
This section discusses the significant concerns and achievements of the previous 6 months.

LEGISLATIVE           AND      REGULATORY                        the ability of special agents to perform many of the
ASSESSMENT                                                       traditional law enforcement responsibilities and pres-
                                                                 ents a real problem of safety for witnesses and agents.
Section 4(a) of the Inspector General Act of 1978
                                                                 While DOJ has recognized the problem of law enforce-
requires the Inspector General to review existing and
                                                                 ment authority by deputizing qualified agents for a
proposed regulations and to make recommendations in
the semiannual report concerning the impact on the               limited period of time so that they can discharge their
economy and efficiency of the administration of the              responsibilities, the renewal process has proved bur-
                                                                 densome and inefficient. This legislative proposal has
Department's programs and on the prevention of fraud
and abuse,                                                       been made by the OIG as early as 1981. The Depart-
                                                                 ment's historical approach is to classify this as an "item
                                                                 for further study." This year, however, the Department
                                                                 has included such a legislative proposal for OIG Office
OIG    Legislative   Agenda                                      of Labor Racketeering special agents only. The OIG
                                                                 also supports legislation to provide law enforcement
For the 101st Congress, the OIG supports several                 authority for Office of Investigations Special Agents.
legislative proposals that it believes are essential to
improve the efficiency and effectiveness of OIG opera-           EXPANDED OIG SUBPOENA POWERS
tions and safeguard departmental resources. In addi-             TO COMPEL TESTIMONIAL EVIDENCE
tion to recommendations regarding ERISA amend-
ments and OIG investigative authority, discussed in the          Testimonial subpoena authority would allow the pro-
significant concerns section, the OIG recommended                tection of those individuals who are not federal employ-
that the Department propose or support legislation in            ees who wish to provide information or statements to
the following areas,                                             the OIG, but fear that they may lose their jobs or suffer
                                                                 other retaliation unless they can demonstrate that their
LAW ENFORCEMENT AUTHORITY                                        statements are compelled. OLMS and PWBP, which,
FOR OIG SPECIAL AGENTS                                           like the OIG, also have both civil and criminal enforce-
                                                                 ment responsibilities,   already have this testimonial
The need for statutory law enforcement authority for             subpoena authority.
Office of Inspector General special agents, particularly
in our Office of Labor Racketeering as well as our               OIG investigations have, in many instances, both civil
Office of Investigations, has continued to be an impor-          and criminal aspects. While the OIG has the authority
tant concern for us. This authority for the Office of            to subpoena records, it does not currently have the
Investigations continues to be a matter of dispute within        authority to require individuals to verify information
the Department.       The authority would permit OIG             about the records. By not having this authority, theOIG
special agents to administer oaths to witnesses, execute         is at a substantial disadvantage. While testimony can be
search warrants, make arrests, and carry firearms. The           compelled before a grand jury, that testimony may not
lack of law enforcement authority continues to impede            be used in subsequent civil litigation.




                                                            53
This issue was discussed during recent hearings before         sultants. The list of disabling crimes would become
the Senate Governmental Affairs Committee. A draft             identical under both statutes. Disabling offenses under
Housing and Urban Development bill that would au-              the more inclusive 29 USC 1111 would also apply to 29
thorize testimonial subpoenas for the Office of Inspec-        USC 504. The proposed legislation would also un-
tor General has recently been proposed. We strongly            equivocally re-assert that disability under 29 USC 504
support this draft bill.                                       or 1111 shall not be stayed pending appeal of the
                                                               disqualifying conviction or otherwise set aside except as
The subpoena ad testificandum is a legitimate law              provided by these sections.
enforcement tool, whose use has been approved by the
courts. In fact, many compliance officers within the           The amended legislation would eliminate serious dis-
Department of Labor currently have this authority. To          parities between the two statutes, which the Compre-
deny this to the OIG is to deliberately withhold a             hensive Crime ControlAct of 1984 failed to address. It
valuable tool that can be used to protect the Depart-          would also reaffirm the intention of the Congress in
ment's programs from fraud.                                    1984 to make the disabilities imposed by Sections 504
                                                               and 1111 effective immediately upon conviction in the
AMENDMENT OF FEDERAL CRIMINAL CODE                             trial court even though the disqualifying conviction
INVOLVING EMPLOYEE BENEFIT PLANS                               might be under appeal.

The OIG recommended that the Department request                Recently, a Federal judge in Ohio refused to apply the
legislation that would make it a federal crime to em-          language in 29 USC 504. Harold Friedman, an Interna-
bezzle from governmental plans as defined in the               tional Brotherhood of Teamsters vice president, was
Employee Retirement Income Security Act (ERISA),               convicted of racketeering and embezzlement.           How-
to receive kickbacks in connection with such plans, and        ever, the judge issued a stay of the disqualification based
to falsify plan records,                                       on Rule 38(0 of the Federal Rules of Civil Procedure
                                                               and the new sentencing guidelines. This has enabled
A governmental plan is defined under ERISA as a plan           Friedman to hold his various union positions and collect
established or maintained for its employees by the             salaries in excess of $50,000 each month while his
Federal government or any State government or politi-          conviction is being appealed.
cal subdivision. Ifgovernmental plans are exempt from
ERISA, they are not subject to the ERISA-related               The legislation would resolve any potential conflict
federal criminal laws.                                         between these particular employment disabilities and
                                                               Rule 38(0.
The OIG recommends that the definition in ERISA be
amended to ensure protection to a large group of               OFFICE OF LABOR RACKETEERING
workers whose employee benefit plans are presently             CONTINGENCY FUND FOR INFORMATION
vulnerable.   OLR investigations have disclosed that           AND UNDERCOVER OPERATIONS
service providers with organized crime connections are
taking advantage of the fact that federal law may not          OLR agents frequently need to employ covert tech-
cover governmental plans. Additionally, review of some         niques to expose certain types of criminal activities.
health and welfare plans funded by government entities         These covert techniques frequently require sufficient
has disclosed that some plans are controlled and oper-         cash on hand for payment of special informant ex-
ated by associated labor organizations, some of which          penses, for leasing of special locations and equipment,
are heavily influenced by the organized crime element,         and for technical surveillances and other undercover
These plans are not subject to the provisions of ERISA         operations that are critical to maintaining an effective
nor of the corresponding Title 18 criminal provisions,         enforcement program. These methods must some-
                                                               times be employed to obtain evidence that cannot be
AMEND DISQUALIFICATION           PROVISIONS                    gathered through more basic investigative techniques.

The OIG supports legislation to amend Section 504 of           While OLR has budgeted funds for covert techniques,
the Labor-Management Reporting and Disclosure Act              authorization is requested to use the proceeds that can
(29 USC 504) and Section 411 of ERISA, which prohib-           be realized from such undercover operations to offset
its persons convicted of certain crimes from employ-           the necessary and reasonable expenses incurred in the
ment with labor organizations, employee benefit plans,         performance of such covert techniques, thereby replen-
and employer associations and as labor relations con-          ishing this fund.




                                                          54
The OIG recommends appropriation legislation simi-               HAL 900, Job Training Partnership
lar to that of the FBI to enable use of the proceeds from        Accountability Act of 1989
these operations to offset necessary and reasonable
expenses incurred. Since the financing of undercover             The OIG strongly supports this bill which amends
operations can be costly, any revenues gained from such          JTPA to establish additional fiscal controls. The Act
operations can be an important factor in the ability to          would define profit limitations on costs and procure-
continue projects,                                               ment accountability. It would also add record-keeping
                                                                 requirements which specify recording and reporting ex-
The OIG has established formal policy and guidelines             penditures in proper cost categories.
governing such operations in conformity with the under-
cover guidelines developed by the Attorney General.              S.685 and H.R.1661, The Employee       Pension
                                                                 Protection Act of 1989


Legislative    Review                                            The OIG fully supports this proposed legislation which
                                                                 would go a long way toward preventing pension plan
In carrying out our responsibilities under Section 4(a),         asset reversion. Effective execution would require
of the Inspector General Act, ORMLA reviewed and                 additional agency planning, targeting, and resources.
cleared or provided comments on 386 legislative and
regulatory items during this reporting period.      The
following measures have been under consideration by              OTHER CONCERNS
the 101st Congress and are of special interest to the
OIG.                                                             Legal Counsel

H.R.1278, The Financial Institutions Reform,                     Another major problem we have experienced in the
Recovery and Enforcement Act of 1989
                                                                 Department during the past year is the refusal of the
                                                                 Secretary of Labor and the Solicitor to acknowledge the
This bill would require independent auditors to report           Inspector General's authority to hire his own attorneys
on management's assertions regarding its internal con-           under the Inspector General Act of 1978, or, despite
trois and its compliance with laws and regulations               repeated promises by the Solicitor, to definitively re-
related to safety and soundness. The OIG supports the            spond to our request to internally transfer our attorneys
concept of this bill but would urge two modifications:           from the Office of the Solicitor to the Office of Inspec-
                                                                 tor General. This issue had been mentioned in the past
    1. It is not clear from the bill's language that the         Semiannual Report and was extensively aired in a
    Pension Benefit Guaranty Corporation (PBGC) is               hearing before the Senate Governmental             Affairs
    one of the federally insured institutions to be cov-         Committee in October.
    ered by the provisions of the bill. The OIG believes
    that since pension and benefit plans are insured by          We recommend that the Congress clarify that the In-
    PBGC, they, as well as PBGC, should be covered by            spector General's authority to hire personnel includes
    this bill.                                                   authority to employ attorneys.

    2. In its current form, the bill would affect all
    federally insured institutions with assets of more
    than $150 million. This threshold, we believe, is
    much too high. Therefore, we suggest that the
    threshold should be reduced.




                                                            55
                                                 Chapter 5

                                    AUDIT RESOLUTION


                                           Audit Resolution Activity
                                                  ($ millions)


              Period           Audit Reports                            Amount                       Total
              Ending           Resolved              Disallowed                  Allowed             Resolved

              3/31 / 88              308                    $24.6                 $43.7                     $68.3
              9/30/88                384                     $6.8                  $3.3                     $10.1
              3/31/89                344                    $46.6                 $74.2                    $120.8
              9/30/89                327                    $72.7                 $45.5                    $118.2

           Detailed information on audit resolution activity for the period may be found in Chapter 6.




Significant    Resolution    Actions                            1985. Two subsequent reports issued by the OIG in
                                                                1988 and 1989recommended additional actions to fur-
MANAGEMENT'S COMMITMENT                                         ther increase collections from mine operators found to
TO RECOVER FUNDS                                                be liable for outlays from the BLDTF. Since the OIG
                                                                first reported on this issue in 1985, DCMWC has
The following are examples of significant resolution            aggressively pursued the recovery of debts from RMOs.
actions taken by program officials which resulted in the        The results of the Agency's efforts, shown in the graph
disallowance of costs claimed by the Department's               below, culminated in a recordbreaking collection of
contractors and grantees or, in the case of the Black           over $31 million in fiscal year 1989.
Lung program discussed below, restitution of money to
the Trust Fund.                                                              RMO COLLECTIONS
                                                                              FY 1985 - FY 1989
DebtCollectionsfrom                                                  MILLION8
                                                                           OFDOLLARS
Responsible Mine Operators (RMOs)                                  a6                                          31.S69
                                                                   30

Monies collected by ESA's Division of Coal Mine                    25

Workers' Compensation (DCMWC) from responsible                                                      21.707
mine operators (RMOs) have more than tripled since                 20
OIG first recommended improvements in debt collec-                 16             1z291    1,.8Sl
tion procedures over 4 years ago.                                  1o    8.877

DCMWC seeks reimbursement from RMOs for com-
pensation and medical payments made out of the Black                     1985      1986    1987     1989       1989

Lung Disability Trust Fund (BLDTF).
                                                                The OIG commends DCMWC for its success in ensur-
The OIG first recommended improvements in                       ing RMOs bear their share of the costs of Black Lung
DCMWC's RMO debt collection procedures back in                  compensation and benefits.



                                                           57
Kentucky 3TPA/Toyota Motors                                     of the corpsmembers  who terminated between           July
Manufacturing  Contract                                         1986 and September 1988 completed training.
(Audit Report No. 04-89-094-03-340)
                                                                ETA agreed with OIG's recommendations         that TED
The Commonwealth of Kentucky misinterpreted Sec-                implement appropriate monitoring and review proce-
tion 123 of JTPA and misspent $2.6 million to train             dures and required GJCC to fully comply with Job
ineligible participants at the Toyota Motor Manufac-            Corps procedures    regarding   corpsmembers'      leave,
turing Plant in Scott County, Kentucky. We recom-               accountability and counseling, and disciplinary Review
mended that ETA disallow all JTPA costs incurred to             Board cases.
train these ineligible participants.
                                                                MANAGEMENT'S COMMITMENT TO
ETA concurred and disallowed the entire $2.6 million.           PUT FUNDS TO BETFER USE

Kentucky began replenishing the disallowed costs in             During this reporting period, program officials, and
November 1988, and by the end of March 1989, re-                grantees agreed to implement OIG's recommendations
ported that all costs had been restored to the JTPA             that funds could be used more efficiently. Examples of
account. The OIG confirmed that the Commonwealth                these include reductions in outlays, deobligation of
had restored both the $2.6 million and other unallow-           funds, and costs not incurred.
able costs of approximately $28,000.

In addition to reviewing the expenditures and repay-            Validity of ETA "M" Accounts
ments, we examined the funding plan involving the               (Audit Report No. 04-89-118-03-310)
Toyota contract: $4.5 million in JTPA expenditures
were planned under this contract through Program                We recommended that ETA should either eliminate or
Year 1991. Thus, our audit resulted in both the resto-          drastically reduce the unliquidated obligations main-
ration of $2.6 million in disallowed costs and funds put        tained on its books for the CETA Contingent Liability
to better use of an additional $1.9 million.                    Pool account. The CETA program ended in 1982. All
                                                                bills on these grants are long past due. As of September
National Indian Business Council (NIBC)                         30, 1987, the unliquidated obligations in this account to-
(Audit Report No. 18-89-010-03-355)                             taled about $32 million.

Serious and flagrant program abuse and conflicts of             In August 1989, ETA instructed its regional offices to
interest by the NIBC president caused ETA to disallow           examine each CETA closeout situation and immedi-
all $168,984 in questioned costs. Findings related to           ately deobligate any unneeded funds. ETA also agreed
less-than-arms-length transactions, improper expenses           to locate and properly close out 65 missing grant/
and capital acquisitions, and administrative costs in           contract files representing almost $6.8 million in un-
excess of regulatory limits. NIBC provided no docu-             liquidated obligations and, finally, to ensure that the
mentation to show why the audit recommendations                 Regional Accounting System (RAS)was appropriately
should not be upheld,                                           credited for grant refunds and letter-of-credit adjust-
                                                                ments of $532,701.
Gainesville Job Corps Center (GJCC)
(Audit Report No. 18-89-003-03-370)                             OIG's recommendations      for deobligation resulted in
                                                                funds put to better use totaling $39,291,835.
In a special program abuse survey of corpsmember
accountability conducted as a result of allegations of          In addition to recommending that funds be put to better
program abuse, the OIG showed that the contractor,              use, the report questioned $7,425,256 because of rec-
Teledyne Economic Development          (TED), failed to         ords which show that grantees/contractors       received
meet critical performance     goals, did not terminate          cash in excess of their reported costs, and grant/con-
corpsmembers    with excessive AWOL as required by              tract costs were incurred after the 3-year time limit for
program regulations, and distorted its performance              expending the funds had expired.        ETA agreed to
measurement statistics. While TED's contract included           examine each case individually and attempt to recover
a completion target ratio of 70 percent, only 31 percent        all excess cash and misspent funds.




                                                           58
The Wage and Hour Division is Not Fully Collecting              MANAGEMENT'S COMMITMENT
Back Wages Owed to Unlocated Workers                            TO REMEDY ADMINISTRATIVE ACTIONS
(Audit Report No. 02-89-259-04-420)
                                                                Nonmonetary audit recommendations are important
The OIG reported that the Wage and Hour Division                because they direct attention to improving internal
was not fully collecting back wages owed to unlocated           controls and operating procedures. They may propose
workers, as recommended in a prior OIG audit. We                shifts in program emphasis or policy direction and make
estimated that in fiscal year 1988 alone approximately          legislative or regulatory changes. Corrective actions
$3.6 million in legally collectible back wages were nei-        constitute reasonable remedies and include descrip-
ther recovered nor deposited into the U.S. Treasury.            tions and timetables of specific actions taken, comple-
Instead, those wages were retained by employers who             tion dates, and evidence to prove recommendations
had violated the Fair Labor Standards Act.                      were implemented.

The Assistant Secretary for Employment Standards                Following is one example of significant resolution ac-
concurred with the findings and recommendations and             tions by program officials to remedy administrative
has implemented corrective actions which fully resolve          deficiencies.
this issue.
                                                                Corpsmember Accountability and Pay Systems
Puerto Rico Volunteer Youth Corps                               (Audit Report No. 18-89-001-03-370)
(Audit Report No. 02-88-079-07-735)
                                                                OIG analyzed weaknesses in Job Corps systems for
A final management decision on the Puerto Rico Vol-             corpsmember accountability and corpsmember pay and
unteer Youth Corps indirect cost rate proposal sus-             allowances. Based on our recommendations, Job Corps
rained recommended adjustments of $285,854 for fiscal           is finalizing a directive to implement those procedural
year 1986. The determination also sustained recom-              improvements which can be implemented in the short
mended adjustments of $1,057,998 for fiscal years 1987          term. As for longer term technical improvements in the
and 1988. In addition, a management decision on the             Job Corps pay and allowance system, the Army Finance
Puerto Rico Office of Economic Opportunity indirect             Center (the enrollee pay disbursing agency) has taken
cost rate proposal (Audit Report No. 02-88-080-07-              some preliminarystepstoupgrade      equipment, commu-
735) sustained recommended adjustments of $239,817              nications capability, and software. However, long-term
for fiscal year 1988.                                           use of the Army Finance Center will depend on ETA's
                                                                acceptance of the Army's specific plans for overhauling
                                                                and modernizing the system. Alternatives to the Army
                                                                Finance Center include a centralized commercial pay-
                                                                roll service or decentralizing the enrollee payroll func-
                                                                tions to the individual Job Corps centers. ETA antici-
                                                                pates making a decision by January 1990.




                                                           59
         Chapter 6

AUDIT SCHEDULES   AND TABLES




            61
63
                        Summary of Audit Activity of DOL Programs
                            April 1, 1989 - September 30, 1989

                                                                                             Amount
                         Reports        Grant/Contract                Unsupported     Recommended
Agency                    Issued        Amount Audited                      Costs _    Disallowance

OSEC                             6                $281,689                       0                0

VETS                            16              $4,689,697                       0                0

ETA                           248            $719,291,714               $7,401,316       $2,100,954

ESA                              6         $3,561,890,372                        0                0

MSHA                             7           $183,040,017               $3,420,000                0

OASAM                           13              $9,947,583                $649,441         $632,294

OIG                              1             $15,703,209                       0                0

OSHA                            18           $257,301,700                  $11,066                0

BLS                              8              $2,666,615                       0                0

PWBA                             1                          0                    0               0

Multi                           31         $3,570,990,975              $15,762,449            $447

Other Agencies                  19                          0                    0               0


Totals                        374          $8,325,803,571              $27,244,272       $2,733,695




1"Unsupported Costs" include $3,498,249 in funds put to better use.




                                                       64
          Summary   of Audit Activity      of ETA Programs
               April _, 1989 - September      30, 1989

                                                                      Amount
          Reports    Grant/Contract            Unsupported      Recommended
Program    Issued    Amount Audited                   Costs      Disallowance


ADMIN           5           $917,144                 $1,046           $99,186

OFAM            1         $1,004,148               $190,115             $6,348

UIS             2                      0                    0                   0

USES            1        $33,983,616                        0                   0

SESA            7       $182,232,865             $2,938,229           $17,584

JTPA           25       $390,453,766             $2,523,874          $784,322

CETA            2             $8,171                $30,371                  0

DINAP          91        $49,297,114               $407,928          $688,375

DOWP            9        $12,367,596                     $656                0

DSFP           16        $18,562,457               $105,482                  0

OJC            83         $8,660,102             $1,191,535          $505,139

OSPPD           6        $21,804,735                $12,080                  0

Totals       248        $719,291,714             $7,401,316        $2,100,954




                                65
               Summary        of Audits        Performed     Under       the Single    Audit Act
                                 April 1, 1989 - September               30, 1989


                                                                DOL             Amount of                Amount
                 Entities          Reports         Grant/Contract            Unsupported         Recommended
Agency           Audited            Issued         Amount Audited                   Costs         Disallowance


OSEC                     3                 4                 $274,316                       0                     0

VETS                     4                16               $4,689,697                       0                     0

ETA                     58              135            $567,303,412             $2,568,110                $17,584

MSHA                     1                 5                $686,481                       0                      0

OASAM                    0                 1                         0                     0                      0

OSHA                     4               16             $22,296,064                 $11,066                      0

BLS                      3                 6               $2,377,724                      0                     0

Multi Agency            16               31         $3,570,990,975            $15,762,449                    $447

Other Agencies          18               18                          0                     0                     0

Totals                107              232          $4,168,618,669            $18,341,625                $18,031



Note: DOL has cognizant responsibility for specific entities under the Single Audit Act. More than one audit report
may have been transmitted or issued for an entity during this time period. Reports are transmitted or issued based
on the type of funding and the agency/program     responsible for resolution. During this period, DOL issued 117
reports on 107 entities for which DOL was cognizant; in addition, DOL issued 115 reports which included direct
DOL funds for which DOL was not cognizant.




                                                       66
                 Summary      of Audits    Performed         Under the Single          Audit Act
                                          Multi-Agency        Reports
                                 April 1, 1989 - September             30, 1989



                                                                 Amount of                Amount
                                     Number of               Unsupported          Recommended
       Program                    Recommendations                   Costs          Disallowance

        VETS
         Contractors                               2                     $884                      0

        ETA
         UIS                                      5                  $1,257                       0
         SESA                                    11                $554,323                    $447
         OTAA                                     5                 $85,862                       0
         JTPA                                     8             $15,052,786                       0

        OASAM
         OPGM                                      3                 $24,583                       0

        OSHA
         OSHAG                                     2                     $839                      0

        BLS
         BLSG                                     3                  $41,915                       0

        Totals                                   39             $15,762,449                    $447



Multi-AgencyProgramsreports relate to SingleAudit reportsonly.The report maybe on a statewideauditwhere
DOL has accepted "lead" cognizancy or it may be on a single entity under the direct responsibility of DOL. This
semiannual period has been a time of transition. In some instances, more than one report was issued for a Single
Audit entity if more than one DOL program's funds were audited. More recently, if multiple DOL programs were
audited, the multiple-agency program designation was used. Individual recommendations             within the report
designate which agency/program is responsible for resolution. Thirty-nine recommendations      are contained within
the 31 multiple agency reports issued in this period. The ultimate result will be that the number of reports issued
will equal the number of entities audited. An example of the new system is the Single Audit report on the State of
Maine under report number 02-89-203-50-598. The "50-598" identifies the multi-agency classification.




                                                        67
                              Audits         by Non-Federal       Auditors     1
                  Summary          Results      of IG Reviews      of A-128        Reports
             For the Period         of Six Months         Ended     September         30, 1989



                                                                        Independent               State
                                                                           Public                & Local          Grand
                                                                         Accountant              Auditor           Total



1. Report issued without change or with minor changes                          169                  63               232
 a. Based on desk review
 b. Based on QCR

Total without change or minor changes                                          169                  63               232

2. Reports issued with major changes
 a. Based on desk review                                                                                               0
 b. Based on QCR                                                                                                       0

Total with major changes                                                                                               0

3. Reports with significant inadequacies
   a. Based on desk review                                                                                             0
   b. Based on QCR                                                                                                     0

Total reports with significant inadequacies                                                                            0

4. Number of auditors referred to State Boards/AICPA                                                                   0

5. Number of auditors which other sanctions were taken                                                                 0

6. Costs questioned in reports issued
   with direct funded findings                                               $1,115,135      $17,226,490     $18,341,625

7. Sustained questioned    costs                                             $9,399,833          $469,960     $9,869,793

8. Costs recommended      for disallowance
   in reports issued with direct funded findings                                        0         $18,031        $18,031

9. Sustained recommended      disallowances                                    $30,423                   0       $30,423




1The non-Federal audit information on this form pertains only to those non-Federal audits where the
audit services were procured or obtained by the auditee organization and where the audits are subject
to the reporting agency's quality review system.




                                                     68
69
?0
                         Status      of Resolution Actions on Beginning Balance
                                    and Unresolved  Audits Over 6 Months


                                       April 1, 1989                                Resolved                   Sept. 30, 1989
Agency                             Balance Unresolved                            (Decreases)   1          Balance Unresolved 2
Program                          Reports            Dollars            Reports                 Dollars   Reports          Dollars




OSEC                               3                $1,600                3                    $1,600        0                0
VETS                              17            $3,053,734                3                    $2,873       14      $3,050,861

ETA:
 ADMIN                             2                     0                2                      0           0                0
 OFAM                              2          $46,720,565                 2           $46,720,565            0                0
 UIS                               2               $10,270                1               $10,270            1                0
 USES                              2                     0                2                      0           0                0
 SESA                             17          $48,407,043                17           $48,407,043            0                0
 JTPA                             18          $15,236,976                14           $10,821,207            3      $4,415,769
 DINAP                            26             $295,860                25              $295,860            0                0
 DOWP                              4               $63,286                4               $63,286            0                0
 DSFP                             12             $127,946                12              $127,946            0                0
 OJC 3                            36           $1,452,042                35            $1,449,329            1           2,713
 OSPPD                             2              $11,652                 2               $11,652            0                0

ESA                                3           $3,600,000                2             $3,600,000            1               0
MSHA                               3               $5,258                2                 $5,258            1               0
OASAM                             10          $15,212,163                8             $2,351,700            2    $12,860,463
OSHA                               6             $788,671                6              $788,671             0               0
BLS                                0                     0               0                       0           0               0
Other Agencies                     0                     0               0                       0           0               0

TOTALS                          165         $134,987,066              140           $114,657,260            23    $20,329,806



1Reflects resolution activity for assignments which are unresolved at the beginning of the period.

2Includes only those assignments whose unresolved status is over 180 days.

3Reports are not resolved until all recommendations within the report are resolved: for example, in one OJC report, $21,393 out of
$24,106 had been resolved by 9/30/89, but since $2,713 had not been resolved, the report also remained unresolved as of 9/30/89.

Beginning Balance Unresolved includes Funds Recommended To Be Put to Better Use of $47,767,591.

Sustained Recommendations that Funds Be Put To Better Use (decreases) total $47,170,336 for the period.

Ending Balance Unresolved includes $15,864,496under litigative hold.




                                                                    71
                    Status     of Resolution Actions on Beginning  Balance
                              and Unresolved  Audits Over 6 Months
                                             Unsupported          Costs


                                 April 1, 1989                         Resolved                   Sept. 30, 1989
Agency                       Balance Unresolved                      (Decreases)              Balance Unresolved
Program                    Reports           Dollars       Reports                 Dollars   Reports        Dollars



OSEC                          1             $1,600            1                    $1,600        0               0
VETS                         14         $3,053,734            2                    $2,873       12     $3,050,861

ETA:
 ADMIN                        0                   0           0                      0           0                 0
 OFAM                         1         $7,428,730            1            $7,428,730            0                 0
 UIS                          1            $10,270            1               $10,270            1                 0
 USES                         0                   0           0                      0           0                 0
 SESA                         8        $48,407,043            8          $48,407,043             0               0
 JTPA                        15        $13,260,904           12           $8,845,135             3     $4,415,769
 DINAP                       14           $295,860           14             $295,860             0               0
 DOWP                         2            $63,286            2              $63,286             0               0
 DSFP                         6           $127,946            6             $127,946             0               0
 OJC                         16           $904,058           15             $901,345             1         $2,713
 OSPPD                        1            $11,652            1              $11,652             0               0

ESA                           0                   0           0                      0           0              0
MSHA                          1            $5,258             1                $5,258            0              0
OASAM                         2       $12,860,463             0                     0            2   $12,860,463
OSHA                          2          $788,671             2              $788,671            0              0
BLS                           0                  0            0                     0            0              0
Other Agencies                0                     0         0                          0       0                 0

TOTALS                       84       $87,219,475            66          $66,889,669           18    $20,329,806




These unsupported   costs are incorporated   into the "Status of Resolution on Beginning Balance and Unresolved
Audits Over 6 Months" schedule on the previous page. They are broken out as required            by P.L. 100-504.




                                                        72
                                            Unresolved Audits Over 6 Months
                                               Precluded from Resolution
                                            April 1, 1989- September                    30, 1989
                                       Audit                                                                    No of                    Audit
Agency            Program          Report      Number        Name of Audit/Auditee                                 Rec            Exceptions


Under      Litigation:

VETS              ADMIN            17-87-047-02-001          ILLINOIS      VETS     DVOP      FUNDS     _             1              $773,827
VETS              ADMIN            17-87-051-02-001          OHIO VETS DVOP FUNDS                                    1               $627,755
VETS              ADMIN            17-87-052-02-001          FLORIDA    VETS DVOP FUNDS                              4                $96,108
VETS              ADMIN            17-87-053-02-001          INDIANA   VETS DVOP FUNDS                               2                $60,745
VETS              ADMIN            17-87-055-02-001          MISSOURI    VETS DVOP FUNDS                             1               $297,370
VETS              ADMIN            17-87-056-02-001          CALIFORNIA    VETS DVOP FUNDS                           3               $256,496
VETS              ADMIN            17-87-057-02-001          WASHINGTON    VETS DVOP FUNDS                            4              $237,304
VETS              VETSPM           17-88-001-02-210          MICHIGAN   VETS DVOP FUNDS                               2              $245,693
VETS              VETSPM           17-88-002-02-210          WISCONSIN  VETS DVOP FUNDS                              1               $165,539
VETS              VETSPM           17-88-003-02-210          MARYLAND    VETS DVOP FUNDS                             1               $193,700
VETS              VETSPM           17-88-005-02-210          TEXAS  VETS DVOP FUNDS                                  2                $24,649
VETS              VETSPM           17-88-006-02-210          IOWA VETS DVOP FUNDS                                    2                           0
VETS              VETSPM           17-88-008-02-210          NEBRASKA          VETS DVOP FUNDS                        1               $71,675
VETS              VETSPM           17-88-009-02-210          MINNESOTA          VETS DVOP FUNDS                       1                          0
OASAM             OCD              05-83-065-07-742          CITY    OF DETROIT          4                          11           $12,813,635


Pending      Indirect     Cost Negotiations:


OASAM             OPGM             04-88-070-07-735          HOME       BUILDERS        2                            8                $46,828


Awaiting      Resolution:

ETA               UIS              03-83-203-03-315          UI EXPERIENCE   RATING 3                                1                           0
ETA               SESA             04-87-030-03-325          SESA INVESTMENT    OF UI FUNDS                    5     3                           0
ETA               JTPA             05-88-087-03-340          WAYNE   COUNTY  MI PIC 6                                4              $181,183
ETA               JTPA             09-88-548-03-340          SDA PROCUREMENT     PRACTICES                     7     3            $4,205,666
ETA               JTPA             18-89-004-03-340          UNITED   COMMUNITY     SVCS, INC 6                      2                $28,920
ETA               OJC              03-88-060-03-370          PLACEMENT     CONFIRMATIONS    s                        1                 $2,713
ESA               OFCCP            04-86-079-04-410          EFFECTIVENESS    & EFFICIENCY   9                      11                        0


TOTAL       AUDIT        EXCEPTIONS:                                                                                71           $20,329,806




IDudng the last semiannual report period, the OIG requested that GAO's Office of General Counsel clarify State responsibilities under the
DVOP statute, PL 96-466. Pending a decision, resolution is being held in abeyance.

2OMB Circular A-50 does not require resolution within 180 days.

3Current efforts include developing a methodology to validate reported Experience Rating Index values. OIG isworking with EWAon a system
to do this by standardizing Unemployment Trust Fund accounting at the SESA level. See Chapter 1.

4InAugust 1984,the OIG issued an audit report on Detroit's Indirect Costs under CETA. The City appealed and, 3 years later, the ALJ heard
the case (6/87). More than 2 years after that (7/89), the ALJ issued an interim finding inwhich each side was to ascertain the impact of any
ruling, try to reach agreement, and provide results to the ALl by 9/15/89. Each side responded. Not surprisingly, they did not agree. The
OIG was informed by ALJ staff that the ALl requested another response by 10/22/89 (now 11/7/89 because Detroit requested additional
time) which is to include final figures from both parties. Further, the ALJ hopes to make a final determination 2-4weeks after that. This appeal
is now 5 years old.




                                                                      73
5Resolution is pending passage of proposed Federal-State cash management legislation. The OIG and ETA are attempting to reach consensus
with OMB on treatment of the unemployment      trust fund (UTF), especially with regard to continuing losses to the UTF, in such legislation.

°Fhe States have 180 days to issue a final decision on these audits.    An additional 180 days is allowed for ETA and the OIG to accept State
level decisions.


7Resolution is pending OIG/ETA     concurrence    on the content of a settlement    agreement   to be offered to Oregon on funds recommended         for
disallowance.


SETA's final Management     Decision   on the single outstanding   recommendation      was received   in October   1989. The report    is now resolved.

9Many recommendations     have been resolved. The OIG is working with ESA's new Assistant         Secretary   to reach resolution   on those remaining.




                                                                       74
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


02-89-262-01-001     OSEC    ADMIN     03-JUL-89    Secretary's FY 87 Year End Priority Projects

02-89-219-02-210     VETS    VETSP     01-MAY-89    Cmnwlth of PR Labor & Human Resources A-128
02-89-246-02-210     VETS    VETSP     17-JUL-89    Suffolk County A-128
02-89-264-02-210     VETS    VETSP     29-SEP-89    City of Syracuse New York A-128
02-89-270-02-210     VETS    VETSP     22-MAY-89    Maine Educational & Cultural Svcs A-128

02-89-216-03-325"    ETA     SESA      01-MAY-89    Cmnwlth of PR Labor & Human Resources A-128

02-89-220-03-340     ETA     JTPA      08-JUN-89    Puerto Rico Governor's Office A-128
02-89-248-03-340     ETA     JTPA      01-MAY-89    Puerto Rico Governor's Youth Affairs A-128
02-89-260-03-340     ETA     JTPA      29-SEP-89    Classroom Training Crossmatch JTPA with PELL

02-89-249-03-345     ETA     CETA      24-MAY-89    Taunton MA A-128

02-89-243-03-355    ETA      DINAP     29-SEP-89    Rhode Island Indian Council, Inc. A-128
02-89-282-03-355    ETA      DINAP     29-SEP-89    Rhode Island Indian Council, Inc. A-128

02-89-257-03-365*   ETA      DSFP      24-MAY-89    New England Farm Workers' Council, Inc. A-128
02-89-265-03-365*   ETA      DSFP      29-SEP-89    Rural Opportunities, Inc. A-128

02-89-020-03-370    ETA      OJC       30-AUG-89    Trning & Devlpmnt Corp. Interest     Due the Govt
02-89-280-03-370    ETA      OJC       24-APR-89    Puerto Rico Job Corps

02-89-217-10-101    OSHA     OSHAG     01-MAY-89    Cmnwlth of PR Labor & Human Resources          A-128

02-89-203-50-598    MULTI    ALL       18-AUG-89    Maine A-128
02-89-208-50-598    MULTI    ALL       18-AUG-89    Rhode Island A-128
02-89-239-50-598    MULTI    ALL       26-MAY-89    Vermont A-128
02-89-250-50-598    MULTI    ALL       26-MAY-89    City of Hartford Conn. A-128
02-89-252-50-598*   MULTI    ALL       01-MAY-89    New Hampshire A-128
02-89-268-50-598*   MULTI    ALL       14-JUL-89    Training and Development Corp. A-128


03-89-060-01-010    OSEC     ASP       01-JUN-89    Delaware FY 87 A-128

03-89-016-02-210    VETS     VETSP     01-JUN-89    Delaware FY 87 A-128


03-89-064-03-315    ETA      UIS       19-SEP-89    UI Exp. Rating Followup, State of Wisconsin
03-89-085-03-315    ETA      UIS       02-AUG-89    Revenue Quality Control Review Guide

03-89-012-03-325    ETA      SESA      01-JUN-89    Delaware FY 87 A-128


03-89-011-03-340"   ETA      JTPA      09-JUN-89    WV Governor's EC/Community         Dev Office A-128
03-89-013-03-340    ETA      JTPA      01-JUN-89    Delaware FY 87 A-128



                                               75
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


03-89-073-03-340*    ETA     JTPA      28-JUN-89    Kanawha County PIC A-128

03-89-014-03-360     ETA     DOWP      01-JUN-89    Delaware      FY 87 A-128
03-89-075-03-360     ETA     DOWP      03-JUL-89    Allegheny County, PA A-128

03-89-084-03-370    ETA      OJC       12-JUL-89    Prospective    Contractor   Pre-Award    Survey

03-89-040-04-001    ESA      ADMIN     07-AUG-89    FY 1988 Financial Stmts & Acct's Report

03-89-062-04-420    ESA      WIlD      08-AUG-89    Internal Controls Over Back Wages

03-89-039-04-433    ESA      CMWC      27-JUL-89    Responsible Mine Owners' Debt Collection
03-89-061-04-433    ESA      CMWC      27-JUL-89    Black Lung Comp & Med Bill Pymt Systems

03-89-038-06-001    MSHA     ADMIN     11-AUG-89    FY 87 & 88 Fin Stmts & Auditors'        Report

03-89-035-07-711    OASAM    OA        28-APR-89    OASAM Petty Cash Review

03-89-015-10-101    OSHA     OSHAG     01-JUN-89    Delaware      FY 87A-128

03-89-017-50-598    MULTI    ALL       13-JUN-89    Pennsylvania FY 86 A-128
03-89-023-50-598    MULTI    ALL       21-JUN-89    Maryland FY 87 A-128
03-89-027-50-598    MULTI    ALL       27-JUN-89    Pennsylvania FY 87 A-128
03-89-034-50-598*   MULTI    ALL       21-JUN-89    D.C. Dept. of Employment Services
03-89-074-50-598*   MULTI    ALL       07-JUL-89    Virginia Employ Comm FY 87 A-128
03-89-083-50-598    MULTI    ALL       25-AUG-89    Pennsylvania FY 88 A-128

03-89-076-98-599*   OT AG    NONE      ll-JUL-89    Prince George's County, MD A-128
03-89-079-98-599*   OT AG    NONE      21-JUL-89    Kanawha County, West Virginia A-128

04-89-147-01-001    OSEC     ADMIN     30-MAY-89    Georgia State University

04-89-127-01-010"   OSEC     ASP       24-APR-89    South Carolina OICC FY 88 A-128
04-89-156-01-010"   OSEC     ASP       09-JUN-89    Inst of Industrial Engineers   FY 89 A-128

04-89-115-02-210    VETS     VETSP     17-AUG-89    Broward County, FL FY 88 A-128
04-89-129-02-210    VETS     VETSP     24-APR-89    SC Emp Sec Comm FY 88 A-128
04-89-134-02-210    VETS     VETSP     26-APR-89    SC Tech/Comp Ed Bd FY 86-87 A-128
04-89-140-02-210    VETS     VETSP     25-MAY-89    Georgia Mountains APDC FY 86            A-128
04-89-141-02-210    VETS     VETSP     25-MAY-89    Georgia Mountains APDC FY 87 A-128
04-89-154-02-210"   VETS     VETSP     07-JUN-89    Upper Cumberland Human Res FY 87 A-128
04-89-168-02-210    VETS     VETSP     22-JUN-89    Broward County, FL FY 87 A-128
04-89-178-02-210"   VETS     VETSP     20-JUL-89    Atlanta PIC A-128




                                               76
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


04-89-120-03-001    ETA      ADMIN     04-AUG-89     Roy Littlejohn Associates, Inc.
04-89-122-03-001    ETA      ADMIN     19-APR-89     Roy Littlejohn Associates, Inc. Letter Report

04-89-128-03-325"   ETA      SESA      24-APR-89     SC Empl. Sec. Comm. FY 88 A-128
04-89-139-03-325    ETA      SESA      03-MAY-89     UI Equity in State-Owned Real Property-Indiana

04-89-042-03-340*   ETA      JTPA      02-JUN-89     Youth Service U.S.A., Inc. A-128
04-89-131-03-340"   ETA      JTPA      26-APR-89     SC Technical/Comprehensive    Ed. FY 86-87 A-128
04-89-144-03-340    ETA      JTPA      25-MAY-89     NC Manpower Development Corp. Inc. (MDC)
04-89-145-03-340    ETA      JTPA      25-MAY-89     NC Manpower Development Corp. Inc. (MDC)
04-89-146-03-340    ETA      JTPA      07-JUN-89     University of Kentucky A-128
04-89-153-03-340    ETA      JTPA      15-SEP-89     MS SDA Summer Youth Remedial ED Project
04-89-158-03-340    ETA      JTPA      14-JUN-89     KY Cncl of State Govts FY 86 A-128
04-89-159-03-340    ETA      JTPA      14-JUN-89     KY Cncl of State Govts FY 87 A-128
04-89-160-03-340    ETA      JTPA      14-JUN-89     KY Cncl of State Govts FY 88 A-128
04-89-175-03-340    ETA      JTPA      12-JUL-89     City of Jacksonville, FL FY 88 A-128

04-89-133-03-355"   ETA      DINAP     26-APR-89     SC Tech/Comp Ed Bd FY 86-87 A-128
04-89-142-03-355    ETA      DINAP     25-MAY-89     Poarch Band, Creek Indians FY 87 A-128
04-89-151-03-355"   ETA      DINAP     06-JUN-89     South & Eastern Tribes FY 85-86 A-128
04-89-152-03-355"   ETA      DINAP     08-JUN-89     South & Eastern Tribes FY 87 A-128
04-89-165-03-355"   ETA      DINAP     19-JUN-89     Guilford Native Amer Assn FY 86 A-128
04-89-170-03-355"   ETA      DINAP     26-JUN-89     Lumbee Regional Dev. Assn FY 88 A-128
04-89-180-03-355    ETA      DINAP     07-AUG-89     FL Miccosukee Indian Tribe FY 86 A-128
04-89-181-03-355    ETA      DINAP     04-AUG-89     Seminole Tribe of Florida FY 87 A-128
04-89-191-03-355"   ETA      DINAP     24-AUG-89     Metrolina Native Amer Assn FY 88 A-128
04-89-194-03-355    ETA      DINAP     06-SEP-89     MS Band of Choctaw Indians FY 87 A-128
04-89-196-03-355    ETA      DINAP     08-SEP-89     FL Miccosukee Indian Tribe FY 87 A-128
04-89-197-03-355"   ETA      DINAP     15-SEP-89     TN Opportunity   Programs FY 88 A-128

04-89-163-03-360    ETA      DOWP      15-JUN-89     SC Commission on Aging FY 86 A-128
04-89-182-03-360    ETA      DOWP      08-AUG-89     GA Dept of Human Resources FY 86 A-128
04-89-184-03-360    ETA      DOWP      08-AUG-89     GA Dept of Human Resources FY 87 A-128

04-89-136-03-365"   ETA      DSFP      01-MAY-89     MS Delta Cncl Farm Wrkrs Opp FY 88 A-128
04-89-138-03-365"   ETA      DSFP      04-MAY-89     Centro Campesino-Farmwrkrs   Ctr FY 86 A-128
04-89-162-03-365"   ETA      DSFP      15-JUN-89     Delta Housing Dev. Corp. FY 88 A-128
04-89-185-03-365"   ETA      DSFP      09-AUG-89     Homes in Partnership (HIP) FY 88 A-128
04-89-188-03-365"   ETA      DSFP      16-AUG-89     Homes in Partnership (HIP) FY 86 A-128
04-89-192-03-365"   ETA      DSFP      31-AUG-89     Centro Campesino-Farmwrkrs   Ctr FY87 A-128

04-89-132-06-601    MSHA     GRTEE     26-APR-89     SC Tech/Comp Ed Bd FY 86-87 A-128
04-89-173-06-601    MSHA     GRTEE     03-JUL-89     GA Dept of Technical & Adult Educ. A-128

04-89-179-07-001    OASAM    ADMIN     02-AUG-89     Review of OASAM's       Imprest Fund



                                                77
                                   Final Audit Reports Issued
                                April 1, 1989 - September 30, 1989
                                          Date Sent
Audit                                     to Program
Report Number       Agency      Program   Agency       Name of Audit/Auditee


04-89-043-10-101"   OSHA        OSHAG     05-APR-89    South Carolina DOL FY 87 A-128
00-89-044-10-101"   OSHA        OSHAG     06-APR-89    United Paperworkers Int'l FY 86 A-128
00-89-126-10-101"   OSHA        OSHAG     00-APR-89    GA Assoc. Gen'l Contractors FY 86 A-128
04-89-187-10-101    OSHA        OSHAG     18-APR-89    Univ. of AL at Birmingham     FY 86-87 A-128

04-89-130-11-111    BLS         BLSG      24-APR-89    SC Empl Sec Comm FY 88 A-128
04-89-183-11-111    BLS         BLSG      07-AUG-89    Research Triangle Institute FY 88 A-128
04-89-195-11-111"   BLS         BLSG      07-SEP-89    AL Department of Labor FY 87-88 A-128

00-89-148-50-598"   MULTI       ALL       02-JUN-89    Youth Services USA Inc. FY 87 A-128
00-89-149-50-598"   MULTI       ALL       05-JUN-89    Youth Services USA Inc. FY 88 A-128
04-89-164-50-598"   MULTI       ALL       16-JUN-89    SC Office of the Governor FY 88 A-128
00-89-193-50-598    MULTI       ALL       11-SEP-89    State of Florida FY 88 A-128

00-89-045-98-599*   OT    AGY   NONE      ll-APR-89    Alachua County, FL FY 88 A-128
04-89-092-98-599*   OT    AGY   NONE      01-APR-89    Wake County, NC FY 88 A-128
00-89-135-98-599"   OT    AGY   NONE      27-APR-89    Sarasota County, FL FY 88 A-128
00-89-137-98-599"   OT    AGY   NONE      02-MAY-89    Huntsville, AL FY 88 A-128
04-89-143-98-599"   OT    AGY   NONE      28-JUN-89    Onslow County, NC FY 88 A-128
00-89-150-98-599"   OT    AGY   NONE      22-JUN-89    Sullivan County, TN FY 88 A-128
04-89-155-98-599"   OT    AGY   NONE      13-JUL-89    Greenville, SC FY 88 A-128
04-89-157-98-599"   OT    AGY   NONE      13-JUN-89    Orange County, FL FY 88 A-128
00-89-161-98-599"   OT    AGY   NONE      12-JUL-89    Cumberland County, NC FY 88 A-128
04-89-166-98-599"   OT    AGY   NONE      22-JUN-89    Davidson County, NC FY 88 A-128
04-89-167-98-599"   OT    AGY   NONE      28-JUN-89    Alamance County, NC FY 88 A-128
00-89-169-98-599"   OT    AGY   NONE      27-JUN-89    Brevard County, FL FY 88 A-128
00-89-171-98-599"   OT    AGY   NONE      28-JUN-89    Seminole County, FL FY 88 A-128
04-89-198-98-599"   OT    AGY   NONE      26-SEP-89    Pasco County, FL FY 88 A-128

05-89-070-02-201'   VETS        CONTR     19-JUN-89    MI Thumb Area E&T Cnsrt FY 88 A-128

05-89-063-02-210"   VETS        VETSP     03-MAY-89    Full Employment   Cncl, Inc. FY 88 A-128

05-89-078-03-325*   ETA         SESA      31-JUL-89    Iowa Job Service FY 89 A-128

05-89-048-03-340*   ETA         JTPA      03-APR-89    Michigan DOL FY 85-87 A-128
05-89-077-03-340    ETA         JTPA      29-SEP-89    Wisconsin JTPA Funds Wasted

05-89-058-03-345    ETA         CETA      27-APR-89    St. Clair County, MI FY 87 A-128

05-89-040-03-355*   ETA         DINAP     22-MAY-89    Michigan Indian E&T, Inc. FY 88 A-128
05-89-043-03-355*   ETA         DINAP     29-JUN-89    No. Amer. Indian Cultural Ctr FY 87 A-128
05-89-044-03-355    ETA         DINAP     03-APR-89    Sac/Fox Tribe of MS FY 87 A-128
05-89-045-03-355    ETA         DINAP     03-APR-89    Sac/Fox Tribe of MS FY 88 A-128
05-89-046-03-355*   ETA         DINAP     03-APR-89    Mid-America All-Indian Ctr FY 87 A-128
05-89-054-03-355    ETA         DINAP     06-APR-89    Lac du Flambeau   Chippewas   FY 87 A-128

                                                  78
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


05-89-055-03-355*   ETA      DINAP     14-APR-89     Wisconsin Indian Cnsrt FY 88 A-128
05-89-056-03-355    ETA      DINAP     20-APR-89     Leech Lake Reservation FY 87 A-128
05-89-061-03-355    ETA      DINAP     27-APR-89     Sault Ste Marie Chippewas FY 87 A-128
05-89-064-03-355*   ETA      DINAP     05-MAY-89     American Indian OIC, Inc. FY 87 A-128
05-89-068-03-355*   ETA      DINAP     09-JUN-89     South Eastern MI Indians FY 86 A-128
05-89-069-03-355*   ETA      DINAP     09-JUN-89     South Eastern MI Indians FY 87 A-128
05-89-081-03-355"   ETA      DINAP     ll-AUG-89     Minneapolis      Amer. Indian Ctr FY 88 A-128

05-89-073-03-360    ETA      DOWP      20-JUL-89     Illinois Dept. on Aging FY 87-88 A-128

05-89-051-06-601    MSHA     GRTEE     03-APR-89     Michigan DOL FY 85-86 A-128

05-89-065-07-711    OASAM    OA        25-MAY-89     Region V - Imprest Fund Review

05-89-052-07-730    OASAM    DAPP      03-APR-89     Michigan DOL FY 85-86 A-128

05-89-067-10-001    OSHA     ADMIN     25-SEP-89     Financial Statements     FY 88 & 87

05-89-050-10-101    OSHA     OSHAG     03-APR-89     Michigan DOL FY 85-86 A-128
05-89-080-10-101    OSHA     OSHAG     04-AUG-89     MI Public Health Dept. FY 84-85 A-128
05-89-082-10-101    OSHA     OSHAG     21-AUG-89     MI Public Health Dept. FY 86-87 A-128

05-89-035-10-107    OSHA     TRNTA     08-SEP-89     Salt Lake City Analytical Lab Activities

05-89-049-11-111    BLS      BLSG      03-APR-89     Michigan DOL FY 85-86 A-128

05-89-057-50-598*   MULTI    ALL       22-SEP-89     Indiana Empl Sec Div FY 86-87 A-128
05-89-071-50-598"   MULTI    ALL       13-JUL-89     Kansas Dept. of Human Res. FY 87-88 A-128
05-89-072-50-598    MULTI    ALL       17-JUL-89     IL Comm/Commun      Aft. Depl. FY 87-88 A-128
05-89-079-50-598*   MULTI    ALL       01-AUG-89     Iowa Job Service FY 87 A-128
05-89-083-50-598*   MULTI    ALL       30-AUG-89     Missouri Empl Sec FY 85-86 A-128
05-89-084-50-598*   MULTI    ALL       25-SEP-89     Indiana E&T Svcs FY 87 A-128
05-89-085-50-598    MULTI    ALL       27-SEP-89     Wisconsin FY 88 A-128

05-89-041-98-599"   OT AGY NONE        03-APR-89     Cook County, Illinois FY 87 A-128

06-89-149-01-010"   OSEC     ASP       25-SEP-89     NM State Occ. Info. Coord. Comm. FY 88 A-128

06-89-130-03-325"   ETA      SESA      12-JUL-89     Arkansas       Empl Sec FY 88 A-128

06-89-002-03-340    ETA      JTPA      29-SEP-89     JTPA Grant Fund Protection       - Houston
06-89-128-03-340"   ETA      JTPA      13-JUN-89     Northwest Cap. of Wyoming FY 88 A-128
06-89-132-03-340"   ETA      JTPA      25-JUL-89     Wyoming Job Training Admin. FY 88 A-128

06-89-136-03-355"   ETA      DINAP     ll-AUG-89     Inter-Tribal     Cncl of LA FY 87 A-128
06-89-137-03-355"   ETA      DINAP     ll-AUG-89     Inter-Tribal     Cncl of LA FY 88 A-128


                                                79
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


06-89-148-03-355"   ETA      DINAP     22-SEP-89     Four Tribes Consortium FY 88 A-128
06-89-257-03-355    ETA      DINAP     27-JUL-89     Crow Creek Sioux Tribe FY 87 A-128
06-89-265-03-355    ETA      DINAP     19-APR-89     Fort Belknap Community Cncl FY 87 A-128
06-89-266-03-355    ETA      DINAP     26-APR-89     Northern Cheyenne Tribe FY 86 A-128
06-89-267-03-355    ETA      DINAP     26-APR-89     Northern Cheyenne Tribe FY 87 A-128
06-89-268-03-355    ETA      DINAP     24-MAY-89     Turtle Mountain Chippewas FY 87 A-128
06-89-269-03-355    ETA      DINAP     23-JUN-89     Pueblo of Acoma FY 87 A-128
06-89-270-03-355    ETA      DINAP     20-JUL-89     Mescalero Apache Tribe FY 87 A-128
06-89-271-03-355    ETA      DINAP     20-JUL-89     Sisseton-Wahpeton   Sioux Tr. FY 87 A-128
06-89-272-03-355    ETA      DINAP     24-JUL-89     SD Lower Brule Sioux Tribe FY 87 A-128
06-89-273-03-355    ETA      DINAP     24-JUL-89     Seminole Nation of OK FY 87 A-128
06-89-274-03-355    ETA      DINAP     25-JUL-89     Choctaw Nation of OK FY 87 A-128
06-89-275-03-355    ETA      DINAP     24-JUL-89     Dallas Inter-Tribal Center FY 87 A-128
06-89-276-03-355    ETA      DINAP     25-JUL-89     Osage Nation FY 87 A-128
06-89-277-03-355    ETA      DINAP     28-JUL-89     Cheyenne & Arapaho Tribes FY 87 A-128
06-89-278-03-355    ETA      DINAP     26-JUL-89     Comanche Indian Tribe FY 87 A-128
06-89-279-03-355    ETA      DINAP     26-JUL-89     Tigua Indian Reservation FY 88 A-128
06-89-280-03-355    ETA      DINAP     27-JUL-89     Caddo Indian Tribe of OK FY 87 A-128
06-89-281-03-355    ETA      DINAP     02-AUG-89     Three Affiliated Tribes FY 87 A-128
06-89-282-03-355    ETA      DINAP     07-AUG-89     Mescalero Apache Tribe FY 88 A-128
06-89-283-03-355    ETA      DINAP     07-AUG-89     SD United Sioux Tribes FY 87 A-128
06-89-284-03-355    ETA      DINAP     02-AUG-89     SD United Sioux Tribes FY 88 A-128
06-89-285-03-355    ETA      DINAP     22-AUG-89     Crow Tribe of Indians FY 85 A-128
06-89-286-03-355    ETA      DINAP     25-AUG-89     Flandreau Santee Sioux Tribe FY 87 A-128
06-89-287-03-355    ETA      DINAP     05-SEP-89     Blackfeet Indian Tribe FY 87 A-128
06-89-288-03-355    ETA      DINAP     31-AUG-89     Ramah Navajo School Board FY 87 A-128
06-89-289-03-355    ETA      DINAP     31-AUG-89     Tonkawa Tribe of OK FY 88 A-128
06-89-290-03-355    ETA      DINAP     06-SEP-89     Lower Brule Sioux Tribe FY 88 A-128
06-89-291-03-355    ETA      DINAP     07-SEP-89     Confed. Salish & Kootenai Tr. FY 88 A-128
06-89-293-03-355    ETA      DINAP     28-SEP-89     Taos Pueblo FY 86 A-128
06-89-294-03-355    ETA      DINAP     29-SEP-89     Fort Belknap Community Cncl FY 88 A-128
06-89-295-03-355    ETA      DINAP     15-SEP-89     Devils Lake Sioux Tribe FY 87 A-128
06-89-296-03-355    ETA      DINAP     18-SEP-89     Taos Pueblo FY 88 A-128
06-89-297-03-355    ETA      DINAP     28-SEP-89     Caddo Indian Tribe of OK FY 88 A-128
06-89-298-03-355    ETA      DINAP     26-SEP-89     Cheyenne River Sioux Tribe FY 88 A-128
06-89-299-03-355    ETA      DINAP     26-SEP-89     Citizen Band Potawatomi FY 88 A-128
06-89-300-03-355    ETA      DINAP     26-SEP-89     Kiowa Tribe FY 87 A-128
06-89-301_03-355    ETA      DINAP     26-SEP-89     Shawnee Area Central Tribes FY 88 A-128
06-89-302-03-355    ETA      DINAP     26-SEP-89     Muscogee (Creek) Nation FY 88 A-128
06-89-303-03-355    ETA      DINAP     28-SEP-89     Standing Rock Sioux Tribe FY 88 A-128
06-89-304-03-355    ETA      DINAP     28-SEP-89     Assiniboine and Sioux Tribes FY 87 A-128
06-89-305-03-355    ETA      DINAP     28-SEP-89     Blackfeet Indian Tribe FY 88 A-128
06-89-306-03-355    ETA      DINAP     28-SEP-89     Shoshone and Arapahoe Tribes FY 85 A-128
06-89-307-03-355    ETA      DINAP     28-SEP-89     Shoshone and Arapahoe Tribes FY 86 A-128
06-89-308-03-355    ETA      DINAP     28-SEP-89     Shoshone and Arapahoe Tribes FY 87 A-128



                                                80
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989

                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency        Name of Audit/Auditee


06-89-129-03-365"   ETA      DSFP      26-JUN-89     Tierra del Sol Housing Corp. FY 88 A-128
06-89-135-03-365"   ETA      DSFP      ll-AUG-89     OK Oro Development Corp. FY 88 A-128
06-89-139-03-365"   ETA      DSFP      21-AUG-89     CO Rocky Mtn SER/Jobs/Progress     FY88 A-128
06-89-140-03-365"   ETA      DSFP      29-AUG-89     Home Ed. Livelihood Program FY 88 A-128

06-89-001-00-431    ESA      FECA      29-SEP-89     FY 88 Compl. Review: FECA Payment Systems

06-89-134-10-101"   OSHA     OSHAG     02-AUG-89     WY    Occ/Health/Safety   Comm. FY 87-88 A-128
06-89-143-10-101    OSHA     OSHAG     25-AUG-89     New   Mexico Health/Environ.  FY 87 A-128
06-89-144-10-101    OSHA     OSHAG     25-AUG-89     New   Mexico Health/Environ.  FY 88 A-128
06-89-292-10-101    OSHA     OSHAG     08-SEP-89     New   Mexico Health/Environ.  FY 86 A-128

06-89-146-11-111"   BLS      BLSG      19-SEP-89     Arkansas Workers' Comp. Comm. FY 88 A-128

06-89-127-50-598    MULTI    ALL       07-JUN-89     Texas FY 87 A-128
06-89-133-50-598"   MULTI    ALL       28-JUL-89     Wyoming Empl Sec Comm FY 88 A-128
06-89-138-50-598"   MULTI    ALL       25-AUG-89     New Mexico DOL FY 88 A-128
06-89-141-50-598    MULTI    ALL       24-AUG-89     Colorado FY 87 A-128
06-89-142-50-598    MULTI    ALL       01-SEP-89     Louisiana FY 88 A-128
06-89-145-50-598    MULTI    ALL       30-AUG-89     Oklahoma FY 87 A-128
06-89-147-50-598"   MULTI    ALL       21-SEP-89     Arkansas DOL FY 88 A-128

09-89-590-02-210    VETS     VETSP     01-MAY-89     Oregon FY 87 A-128

09-89-006-03-310    ETA      OFAM      29-SEP-89     Data Transformation/McManis    Assoc.

09-89-587-03-320    ETA      USES      01-MAY-89     Oregon FY 87 A-128

09-89-547-03-325*   ETA      SESA      01-APR-89     DLIR - Hawaii FY 86 A-128

09-89-588-03-340    ETA      JTPA      01-MAY-89     Oregon FY 87 A-128
09-89-601-03-340    ETA      JTPA      04-MAY-89     American Samoa Manpower Res. FY 87 A-128
09-89-603-03-340    ETA      JTPA      03-MAY-89     Rural Community Assistance FY 88 A-128
09-89-604-03-340*   ETA      JTPA      04-MAY-89     Fed. States of Micronesia FY 87 A-128

09-89-575-03-355*   ETA      DINAP     25-APR-89     Fresno American Indian Cncl FY 87 A-128
09-89-576-03-355*   ETA      DINAP     25-APR-89     Fresno American Indian Cncl FY 88 A-128
09-89-581-03-355"   ETA      DINAP     21-APR-89     Alu Like, Inc. FY 86-87 A-128
09-89-582-03-355*   ETA      DINAP     24-APR-89     Las Vegas Indian Center FY 88 A-128
09-89-583-03-355*   ETA      DINAP     21-APR-89     Bristol Bay Native Assoc. FY 88 A-128
09-89-584-03-355    ETA      DINAP     24-APR-89     Navajo Nation/Tribal Entities FY 88 A-128
09-89-586-03-355*   ETA      DINAP     17-APR-89     No. CA Indian Dev. Cncl FY 88 A-128
09-89-606-03-355*   ETA      DINAP     00-MAY-89     Tucson Amer. Indian Assoc. FY 88 A-128
09-89-610-03-355"   ETA      DINAP     05-JUN-89     Western Washington Indian E&T FY 88 A-128
09-89-611-03-355"   ETA      DINAP     09-JUN-89     Cook Inlet Tribal Cncl FY 88 A-128
09-89-614-03-355"   ETA      DINAP     27-JUN-89     Indian Human Resource Ctr FY 88 A-128


                                                81
                                Final Audit Reports Issued
                             April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


09-89-615-03-355    ETA      DINAP     26-JUL-89    Siletz Indians FY 87 A-128
09-89-619-03-355    ETA      DINAP     18-SEP-89    Kootenai Tribe of Idaho FY 86 A-128
09-89-620-03-355    ETA      DINAP     28-SEP-89    Nez Perce Tribe of Idaho FY 88 A-128
09-89-621-03-355"   ETA      DINAP     25-SEP-89    Native Americans/Comm.     Action FY 88 A-128

09-89-589-03-360    ETA      DOWP      01-MAY-89    Oregon FY 87 A-128
09-89-605-03-360    ETA      DOWP      04-MAY-89    American Samoa Adm. of Aging FY 87 A-128
09-89-612-03-360"   ETA      DOWP      21-JUN-89    Older AK Commission FY 87 A-128

09-89-573-03-365*   ETA      DSFP      04-APR-89    Rural/Farmworker   Housing FY 88 A-128
09-89-595-03-365*   ETA      DSFP      25-JUL-89    Center for Empl. Training FY 88 A-128
09-89-613-03-365"   ETA      DSFP      27-JUN-89    Proteus Training & Empl. FY 86 A-128
09-89-616-03-365    ETA      DSFP      18-SEP-89    Santa Cruz Co. Housing Auth. FY 88 A-128

09-89-579-06-601"   MSHA     GRTEE     04-APR-89    Arizona Mine Inspector FY 87-88 A-128
09-89-591-06-601    MSHA     GRTEE     01-MAY-89    Oregon FY 87 A-128

09-89-005-07-734    OASAM    OSPM      ll-JUL-89    Motor Vehicle Management      System

09-89-585-10-101    OSHA     OSHAG     24-APR-89    Navajo Nation/Tribal Entities FY 88 A-128
09-89-592-10-101    OSHA     OSHAG     01-MAY-89    Oregon FY 87 A-128
09-89-602-10-101    OSHA     OSHAG     04-MAY-89    American Samoa Human Res. FY 87 A-128

09-89-548-11-111"   BLS      BLSG      01-APR-89    DLIR - Hawaii FY 86 A-128
09-89-593-11-111    BLS      BLSG      01-MAY-89    Oregon FY 87A-128

09-89-001-12-001    PWBA     ADMIN     20-SEP-89    PWBA Reporting     and Disclosure     Office

09-89-597-50-598*   MULTI    ALL       19-JUL-89    Arizona   Econ. Sec. Dept. FY 86-87 A-128

09-89-569-98-599*   OT AGY   NONE      04-MAY-89    City of Los Angeles FY 87 A-128

12-89-001-03-001    ETA      ADMIN     27-SEP-89    FY 88 ETA Financial Statement

12-88-048-03-370    ETA      OJC       29-SEP-89    Dayton Job Corps Center
12-89-005-03-370    ETA      OJC       30-JUN-89    AFL-CIO Appalachian Council,        Inc.
12-89-006-03-370    ETA      OJC       27-JUN-89    AFL-CIO Appalachian Council,        Inc.
12-89-007-03-370    ETA      OJC       26-JUN-89    AFL-CIO Appalachian Council,        Inc.
12-89-008-03-370    ETA      OJC       29-JUN-89    AFL-CIO Appalachian Council,        Inc.
12-89-009-03-370    ETA      OJC       26-JUN-89    AFL-CIO Appalachian Council,        Inc.
12-89-010-03-370    ETA      OJC       30-JUN-89    Arkansas ES Division
12-89-011-03-370    ETA      OJC       30-JUN-89    CO Dept. of Labor & Employment
12-89-012-03-370    ETA      OJC       27-JUN-89    CO Dept. of Labor & Employment
12-89-013-03-370    ETA      OJC       29-JUN-89    Covenant House
12-89-014-03-370    ETA      OJC       17-JUL-89    DC Dept. of Employment Services
12-89-015-03-370    ETA      OJC       27-JUN-89    Delaware Dept. of Employment Security


                                               82
                               Final Audit Reports Issued
                            April 1, 1989 - September 30, 1989
                                      Date Sent
Audit                                 to Program
Report Number      Agency   Program   Agency        Name of Audit/Auditee


12-89-016-03-370   ETA      OJC       30-JUN-89     Dynamic Science, Inc.
12-89-017-03-370   ETA      OJC       29-JUN-89     Dynamic Science, Inc.
12-89-018-03-370   ETA      OJC       26-JUN-89     Florida Dept. of Labor & ESA
12-89-019-03-370   ETA      OJC       26-JUN-89     Georgia Employ. Sec. Agency
12-89-020-03-370   ETA      OJC       26-JUN-89     Georgia Employ. Sec. Agency
12-89-021-03-370   ETA      OJC       27-JUN-89     North Dakota Job Service
12-89-022-03-370   ETA      OJC       27-JUN-89     Kansas Dept. of Human Resources
12-89-023-03-370   ETA      OJC       17-JUL-89     Kentucky Dept. of ES
12-89-024-03-370   ETA      OJC       29-JUN-89     Louisiana Dept. of Labor
12-89-025-03-370   ETA      OJC       26-JUN-89     Michigan Employ. Sec. Commission
12-89-026-03-370   ETA      OJC       30-JUN-89     Minact, Inc.
12-89-027-03-370   ETA      OJC       29-JUN-89     Mississippi Employ. Sec. Comm.
12-89-028-03-370   ETA      OJC       27-JUN-89     Missouri Div. of Employment Sec.
12-89-029-03-370   ETA      OJC       30-JUN-89     Nebraska Division of Employment
12-89-030-03-370   ETA      OJC       29-JUN-89     Baltimore Neighborhood Progress Admin.
12-89-031-03-370   ETA      OJC       29-JUN-89     Nero & Associates, Inc.
12-89-032-03-370   ETA      OJC       29-JUN-89     Nero & Associates, Inc.
12-89-033-03-370   ETA      OJC       29-JUN-89     Nero & Associates, Inc.
12-89-034-03-370   ETA      OJC       29-JUN-89     Nero & Associates, Inc.
12-89-035-03-370   ETA      OJC       26-JUN-89     NJ WICS
12-89-037-03-370   ETA      OJC       17-JUL-89     NY Human Resources Admin.
12-89-038-03-370   ETA      OJC       30-JUN-89     New York State Dept. of Labor
12-89-040-03-370   ETA      OJC       29-JUN-89     North Carolina Dept. of Human Resources
12-89-041-03-370   ETA      OJC       05-SEP-89     North Carolina Dept. of Human Resources
12-89-042-03-370   ETA      OJC       30-JUN-89     Oklahoma Employ. Sec. Comm.
12-89-043-03-370   ETA      OJC       27-JUN-89     Oregon Labor/Industries  Appr. Trng Div.
12-89-044-03-370   ETA      OJC       17-JUL-89     Oregon St. Trng/Empioymenl    Consortium
12-89-045-03-370   ETA      OJC       26-JUN-89     Prince George's County PIC
12-89-046-03-370   ETA      OJC       26-JUN-89     Rose Richards of New Mexico
12-89;047-03-370   ETA      OJC       26-JUN-89     South Carolina Empl. Sec. Comm.
12-89-048-03-370   ETA      OJC       26-JUN-89     South Carolina Empl. Sec. Comm.
12-89-049-03-370   ETA      OJC       30-JUN-89     South Dakota Dept. of Labor
12-89-050-03-370   ETA      OJC       26-JUN-89     TN Dept. of Empl. Sec.
12-89-051-03-370   ETA      OJC       26-JUN-89     TN Dept. of Empl. Sec.
12-89-052-03-370   ETA      OJC       27-JUN-89     Texas Employment Commission
12-89-053-03-370   ETA      OJC       29-JUN-89     Washington Employment Security Dept.
12-89-054-03-370   ETA      OJC       27-JUN-89     NJ WlCS
12-89-055-03-370   ETA      OJC       30-JUN-89     WlCS
12-89-056-03-370   ETA      OJC       26-JUN-89     WlCS
12-89-057-03-370   ETA      OJC       30-JUN-89     WlCS
12-89-058-03-370   ETA      OJC       30-JUN-89     WlCS
12-89-059-03-370   ETA      OJC       19-JUL-89     WlCS
12-89-060-03-370   ETA      OJC       30-JUN-89     WICS
12-89-061-03-370   ETA      OJC       29-JUN-89     WlCS
12-89-062-03-370   ETA      OJC       30-JUN-89     WlCS
12-89-063-03-370   ETA      OJC       30-JUN-89     Wyoming Empl. Sec. Comm.

                                               83
                               Final Audit Reports Issued
                            April 1, 1989 - September 30, 1989
                                      Date Sent
Audit                                 to Program
Report Number      Agency   Program   Agency       Name of Audit/Auditee


12-89-065-03-370   ETA      OJC       26-JUN-89    Virgin Islands DOL
12-89-067-03-370   ETA      OJC       17-JUL-89    Res-Care
12-89-068-03-370   ETA      OJC       29-JUN-89    US Dept. of Interior Iroquois JCC
12-89-069-03-370   ETA      OJC       29-JUN-89    ITF Job Training Services
12-89-072-03-370   ETA      OJC       26-JUN-89    Chesapeake JCC
12-89-073-03-370   ETA      OJC       29-SEP-89    Vinnell Corp.
12-89-076-03-370   ETA      OJC       29-JUN-89    Management & Training Corp.
12-89-077-03-370   ETA      OJC       29-JUN-89    Management & Training Corp.
12-89-078-03-370   ETA      OJC       17-JUL-89    YWCA
12-89-080-03-370   ETA      OJC       17-JUL-89    Singer
12-89-081-03-370   ETA      OJC       30-JUN-89    Minact, Inc.
12-89-082-03-370   ETA      OJC       14-JUL-89    Alabama State ES
12-89-083-03-370   ETA      OJC       14-JUL-89    Alabama State ES
12-89-084-03-370   ETA      OJC       26-JUN-89    NJ WlCS
12-89-085-03-370   ETA      OJC       26-JUN-89    AFL-CIO Appalachian Cncl, Inc.
12-89-092-03-370   ETA      OJC       29-SEP-89    Analysis of Costs Invested in Job Corps

12-89-070-03-380   ETA      SPPD      29-SEP-89    Consulting/Program   Management Svcs, Inc.
12-89-074-03-380   ETA      SPPD      29-SEP-89    Birch & Davis Associates, Inc.
12-89-075-03-380   ETA      SPPD      29-SEP-89    SRA Technologies, Inc.
12-89-089-03-380   ETA      SPPD      29-SEP-89    Research and Evaluation Associates, Inc.
12-89-090-03-380   ETA      SPPD      29-SEP-89    Research and Evaluation Associates, Inc.
12-89-091-03-380   ETA      SPPD      29-SEP-89    Research and Evaluation Associates, Inc.

12-89-003-09-001   OIG      ADMIN     06-JUN-89    FY 88 OIG Financial Statement   Audit

12-89-066-98-599   OT AGY   NONE      28-APR-89    DOL Day Care Center

17-88-010-00-001   ESA      ADMIN     16-JUN-89    FY 87 Compl. Review: FECA Payment Systems

17-89-003-06-001   MSHA     ADMIN     09-AUG-89    FY 88 Year End Spending Audit

17-89-002-07-001   OASAM    ADMIN     28-APR-89    Consultant Service Awards

17-89-004-07-730   OASAM    DAPP      29-SEP-89    FY 88 Year-End       Spending

17-89-005-07-754   OASAM    OPS       18-AUG-89    Sterling Institute

18-89-012-03-355   ETA      DINAP     08-AUG-89    National Urban Indian Council
18-89-013-03-355   ETA      DINAP     08-SEP-89    Phoenix Indian Center, Inc.

18-89-005-03-370   ETA      OJC       04-AUG-89    AFL-CIO Appalachian Cncl Travel/Per Diem
18-89-011-03-370   ETA      OJC       29-SEP-89    Natl Plastering Ind Joint App Trust Fund
18-89-015-03-370   ETA      OJC       29-SEP-89    Edison Job Corps Center
18-89-023-03-370   ETA      OJC       29-SEP-89    Sierra Nevada Job Corps Cenler
18-89-024-03-370   ETA      OJC       26-SEP-89    Edison JCC Corpsmembers      Learning Gains


                                              84
                               Final Audit Reports Issued
                            April 1, 1989 - September 30, 1989
                                       Date Sent
Audit                                  to Program
Report Number      Agency   Program    Agency        Name of Audit/Auditee


18-89-025-03o370   ETA      OJC        29-SEP-89     Phoenix Job Corps Center

18-89-006-07-735   OASAM    OPGM       04-AUG-89     AFL-CIO Appalachian Cncl Indirect Costs
18-89-008-07-735   OASAM    OPGM       25-SEP-89     Res-Care Development Indirect Costs
18-89-009-07-735   OASAM    OPGM       03-MAY-89     Center for Employment Training
18-89-016-07-735   OASAM    OPGM       04-AUG-89     Central Valley Opp Ctr Indirect Costs
18-89-021-07-735   OASAM    OPGM       29-SEP-89     Teledyne Econ. Dev. Indirect Costs

19-89-001-03-001   ETA      ADMIN      ll-SEP-89     ETA's IRM Program Needs Improvement
19-89-003-03-001   ETA      ADMIN      25-APR-89     Disapproval of Two ETA Requisitions

19-89-004-11-001   BLS      ADMIN      29-SEP-89     Local Area Network System




*DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports
listed above indicate those entities for which DOL has cognizance. More than one audit report
may have been issued or transmitted based on the type of funding and the agency/program
responsible for resolution. For example, DOLhas cognizancy for South Carolina Employment
Security Commission (04-89-128-03-325). Most of the funds audited were SESA funds, thus
the "lead" report is asterisked and is the one used to count the total number of entities audited
during the period. However, reports were also issued on VETS and BLS funds and were
transmitted for determination and resolution to those respective agencies. Thus one entity was
audited but three reports were issued to various programs on their funds.




                                                85
      Copies of this report may be obtained
      from the U.S.Departmentof Labor,
      Office of Inspector General,
      Room S-5506
      200 ConstitutionAvenue N.W.,
      Washington,D.C.20210.




          DEPABTMENT OF LABOR
              OOGHOTMNE
        357-0227(Washington Dialing Area)
(800) 424-5409(Toll Freemoutside Washington Area)

The gIG Hotline is open 24 hours a day, 7 days a
week to receive allegations of fraud, waste, and
abuse. An operator is normally on duty on work-
days between 8:15 AM and 4:45 PM, Eastern Time.
An answering machine handles calls at other times.
Federal employees may reach the Hotline through
FTS. The toll-free number is available for those
residing outside the Washington Dialing Area who
wish to report these allegations. Written com-
plaints may be sent to:

           gIG Hotline
           U.S. Departmentof Labor
           Room$-5512 FPB
           200 ConstitutionAvenue,N.W.
           Washington,D.C. 20210
       Depa mentof.abor
Office of Inspector
Washington,
                    dtlllH
                     General
              D.C. 20210
                                       ff_'_




Official Business
Penaltyfor private use $300
P116                             Postageand Fees Paid
                               US Department of Labor
                                             LAB 441

                               THIRD    CLASS   MAIL
